<html>
<title> - CURRENT PUBLIC LANDS AND FORESTS LEGISLATION</title>
<body><pre>[Senate Hearing 110-572]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 110-572
 
              CURRENT PUBLIC LANDS AND FORESTS LEGISLATION

=======================================================================

                                HEARING

                               before the

                SUBCOMMITTEE ON PUBLIC LANDS AND FORESTS

                                 of the

                              COMMITTEE ON
                      ENERGY AND NATURAL RESOURCES
                          UNITED STATES SENATE

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                                   ON
                                     

                           S. 2443                               S. 2779

                           S. 2875                               S. 2898

                           S. 3088                               S. 3089

                           S. 3157                               S. 3179

                           H.R. 816                              H.R. 2246



                                     

                               __________

                              JULY 9, 2008


                       Printed for the use of the
               Committee on Energy and Natural Resources


                     U.S. GOVERNMENT PRINTING OFFICE
45-192 PDF                 WASHINGTON DC:  2008
---------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001

               COMMITTEE ON ENERGY AND NATURAL RESOURCES

                  JEFF BINGAMAN, New Mexico, Chairman

DANIEL K. AKAKA, Hawaii              PETE V. DOMENICI, New Mexico
BYRON L. DORGAN, North Dakota        LARRY E. CRAIG, Idaho
RON WYDEN, Oregon                    LISA MURKOWSKI, Alaska
TIM JOHNSON, South Dakota            RICHARD BURR, North Carolina
MARY L. LANDRIEU, Louisiana          JIM DeMINT, South Carolina
MARIA CANTWELL, Washington           BOB CORKER, Tennessee
KEN SALAZAR, Colorado                JOHN BARRASSO, Wyoming
ROBERT MENENDEZ, New Jersey          JEFF SESSIONS, Alabama
BLANCHE L. LINCOLN, Arkansas         GORDON H. SMITH, Oregon
BERNARD SANDERS, Vermont             JIM BUNNING, Kentucky
JON TESTER, Montana                  MEL MARTINEZ, Florida

                    Robert M. Simon, Staff Director
                      Sam E. Fowler, Chief Counsel
              Frank Macchiarola, Republican Staff Director
             Judith K. Pensabene, Republican Chief Counsel
                                 ------                                

                Subcommittee on Public Lands and Forests

                      RON WYDEN, Oregon, Chairman

DANIEL K. AKAKA, Hawaii              LARRY E. CRAIG, Idaho
TIM JOHNSON, South Dakota            LISA MURKOWSKI, Alaska
MARY L. LANDRIEU, Louisiana          RICHARD BURR, North Carolina
MARIA CANTWELL, Washington           JIM DeMINT, South Carolina
KEN SALAZAR, Colorado                JOHN BARRASSO, Wyoming
ROBERT MENENDEZ, New Jersey          JEFF SESSIONS, Alabama
BLANCHE L. LINCOLN, Arkansas         GORDON H. SMITH, Oregon
BERNARD SANDERS, Vermont             JIM BUNNING, Kentucky

   Jeff Bingaman and Pete V. Domenici are Ex Officio Members of the 
                              Subcommittee


                            C O N T E N T S

                              ----------                              

                               STATEMENTS

                                                                   Page

Barrasso, Hon. John, U.S. Senator From Wyoming...................    13
Bingaman, Hon. Jeff, U.S. Senator From New Mexico................     2
Edwards, George, Livestock Loss Mitigation Coordinator, Montana 
  Department of Livestock, Helena, MT............................    59
Featherstone, Roger, Southwest Circuit Rider, Earthworks, Tucson, 
  AZ.............................................................    50
Holtrop, Joel, Deputy Chief, National Forest System, Forest 
  Service, Department of Agriculture.............................    21
Kyl, Hon. Jon, U.S. Senator From Arizona.........................    20
Lewis, Shan, President, Inter Tribal Council of Arizona, Phoenix, 
  AZ.............................................................    46
Nedd, Michael, Assistant Director, Minerals, Realty and Resource 
  Protection, Bureau of Land Management, Department of the 
  Interior.......................................................    25
Price, Charles C., Daniel, WY....................................    62
Salazar, Hon. Ken, U.S. Senator From Colorado....................    16
Salisbury, David, President, Resolution Copper Mining, LLC, 
  Superior, AZ...................................................    42
Smith, Hon. Gordon, U.S. Senator From Oregon.....................    14
Tester, Hon. Jon, U.S. Senator From Montana......................    14
Williams, Alice, Associate Administrator for Infrastructure and 
  Environment, National Nuclear Security Administration, 
  Department of Energy...........................................    18
Wyden, Hon. Ron, U.S. Senator From Oregon........................     1

                               APPENDIXES
                               Appendix I

Responses to additional questions................................    71

                              Appendix II

Additional material submitted for the record.....................    77


              CURRENT PUBLIC LANDS AND FORESTS LEGISLATION

                              ----------                              


                        WEDNESDAY, JULY 9, 2008

                               U.S. Senate,
          Subcommittee on Public Lands and Forests,
                 Committee on Energy and Natural Resources,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 3:05 p.m., in 
room SD-366, Dirksen Senate Office Building, Hon. Ron Wyden 
presiding.

 OPENING STATEMENT OF HON. RON WYDEN, U.S. SENATOR FROM OREGON

    Senator Wyden. The subcommittee will come to order.
    Let us go ahead and begin. I would like to recognize the 
chairman, Senator Bingaman. I know his schedule is very tight.
    [The prepared statement of Senator Ensign follows:]
    Prepared Statement of Hon. John Ensign, U.S. Senator From Nevada
    Chairman Wyden, Ranking Member Barrasso, Members of the Committee:
    Thank you very much scheduling this hearing and inviting me to 
submit my comments concerning this important piece of legislation.
    Mr. Chairman, this bill, which is cosponsored by Senator Harry 
Reid, would provide for the release of the reversionary interest of the 
United States in certain property in Reno, Nevada. The U.S. House of 
Representatives passed the companion legislation, H.R. 2246, on 
December 4, 2007. The legislation is noncontroversial and addresses an 
issue arising from the conveyance by the Union Pacific Railroad to the 
city of Reno of property along the Union Pacific's existing right-of-
way for the construction of the Reno Transportation Rail Access 
Corridor (ReTRAC) project.
    With the merger of Union Pacific and Southern Pacific Railroads in 
1995, it was projected that the number of freight trains moving through 
downtown Reno would double. In order to mitigate the traffic, public 
safety, and environmental impact of the merger, the city developed the 
ReTRAC project to eliminate 11 at-grade railroad crossings and build 
approximately 2 miles of lowered train track through the heart of the 
City. Local, state, federal, and private funds contributed to this 
enormous $265 million transportation project, which created over 3000 
jobs and supported the local economy. The project was completed on time 
and under budget in 2005.
    As part of the project, the Union Pacific-Southern Pacific Railroad 
granted to the city of Reno title to right-of-way and surrounding land 
for the project and any other economic development purposes. The city 
hopes to revitalize the area with retail components, a plaza for public 
events, and a more pedestrian-friendly downtown. However, it cannot 
implement these plans because the United States currently holds a 
reversionary interest in the land. Title for these lands was originally 
granted to the railroad in 1866 to facilitate construction of the 
transcontinental railroad. The federal government retained a 
reversionary interest to ensure that the land was in fact used for a 
railroad. Since that purpose clearly has been achieved, the proposed 
legislation would release the federal government's reversionary 
interest in the property and allow the city of Reno to move forward 
with its redevelopment plans.
    Thank you Chairman and Committee Members for holding this hearing 
today. I hope you will join me in supporting this legislation that will 
allow the city of Reno, Nevada, to continue redevelopment efforts 
associated with an important public works project that has been a 
tremendous success for the community.

 STATEMENT OF HON. JEFF BINGAMAN, U.S. SENATOR FROM NEW MEXICO

    The Chairman. Thank you very much, Senator Wyden, and 
thanks for having this hearing. There are two bills that I have 
particular interest in that we are discussing today, along with 
the rest of the legislation.
    The first is S. 3179, the Lovelace Respiratory Research 
Institute Land Conveyance Act. This is a bill that I introduced 
with Senator Domenici as a cosponsor. This legislation 
concludes the decommissioning of the Department of Energy's 
Lovelace Respiratory Research Institute, which is located on 
Kirtland Air Force Base in Albuquerque, New Mexico. It does so 
by transferring the site from the Federal Government to 
Lovelace. In doing so, it will save the taxpayers approximately 
$20 million in long-term monitoring costs.
    Similar efforts have successfully been completed at other 
former DOE cold war sites such as the former Mound Laboratory 
in Ohio which were transferred to the State for economic 
development purposes.
    Lovelace has already used its preexisting facilities to 
generate over 500 new jobs in New Mexico.
    This bill, which I am pleased to note is supported by the 
Administration and the Department of Energy and which includes 
changes recommended by the Air Force, ensures Kirtland will 
continue its national security mission without any impact from 
this privatization effort.
    Mr. Chairman, I would like to welcome Pat Marx, who is 
Lovelace's Chief Operating Officer. She is in the audience 
today, and I ask that the written statement submitted by 
Lovelace be included in the record.
    [The prepared statement of Ms. Marx follows:]
   Prepared Statement of Pat Marx, Chief Operating Officer, Lovelace 
               Respiratory Research Institute, on S. 3179
    The Lovelace Respiratory Research Institute (LRRI) is pleased to 
provide the following written statement to the Senate Energy & Natural 
Resources Committee Subcommittee on Public Lands and Forests regarding 
S.3179.
    LRRI is a private, not-for-profit biomedical research organization 
located in Albuquerque, New Mexico which is dedicated to improving 
public health through research on the prevention, treatment, and cure 
of respiratory disease. Equipped with a broad range of scientific and 
technical expertise and a wealth of research capabilities, LRRI studies 
respiratory health issues of concern to scientists and health care 
experts in universities, government, industry, and patient advocacy 
groups. The organization is committed to curing respiratory diseases 
through research aimed at understanding their causes and biological 
mechanisms; assessing and eliminating exposures to respiratory health 
hazards; and developing improved therapeutics, vaccines, and 
diagnostics. It readily opens its unique research facilities to 
university, government, and private collaborators.
    The institute, formerly known as The Lovelace Institute, was 
originally founded in 1947. Today it employs 86 PhD level scientists 
and 453 technicians and support staff, has an annual budget of 
approximately $67 million all of which comes from out of state 
customers. This translates to 2,000 direct and indirect jobs for the 
local economy.
    LRRI and its predecessor organizations (collectively hereinafter 
referred to as LRRI) have operated the Inhalation Toxicology Laboratory 
(the ITL, formerly the Inhalation Toxicology Research Institute) on 
Kirtland Air Force Base since its inception in 1960. The ITL was 
operated by LRRI from 1960-1996 under a cost-reimbursement, no-fee 
management and operating contract with the Department of Energy (DOE) 
and its predecessor agencies. ITL facilities and the land on which they 
are located is one of two parcels of land which are the subject of the 
conveyances which S3179 would authorize.
    The ITL and LRRI have a long and proud history serving the research 
needs of the United State Government. In 1996 the facility was 
determined to be no longer needed for the DOE's mission. Since that 
time the LRRI has been pleased to continue important work in the 
facility for the Government under contracts and grants as well as 
serving the needs of the broader research community. After the facility 
was privatized under a lease from the US Government to LRRI on October 
1, 1996, LRRI has been very successful in increasing the annual income 
of the facility as well as increasing staffing from 180 employees to 
539 employees.
    The conveyance to LRRI which S.3179 authorizes will allow LRRI to 
further invest in the facility and thereby make even greater progress 
in understanding the fundamental biological responses of the 
respiratory tract to inhaled materials. Likewise, such conveyance will 
have a favorable economic impact on the Albuquerque, New Mexico 
community by allowing this facility to continue its important mission. 
Every day that passes without the completion of the privatization which 
this conveyance represents is a lost opportunity to the Institute.
    LRRI's lease and subsequent operation of the ITL facility has been 
one of only a few privatization success stories in the DOE complex. 
Through the diligent efforts of LRRI personnel, new, productive 
research uses have been found for the ITL. By full conveyance of the 
property to LRRI, this success story will continue for many years to 
come.
    Pursuant to the provisions of the Resource Conservation and 
Recovery Act of 1976 (42 USC Sec. Sec.  6901 et seq., as amended), the 
DOE has undertaken certain restoration projects to remediate 
contamination at the facility. However, due to historic research 
activities at the ITL during the Cold War era, the land on which the 
facility is located will continue to be contaminated for the 
foreseeable future. The environmental impacts and condition of the 
facility have been assessed and documented extensively over the years 
and are well known to the responsible federal and state agencies, the 
public, and LRRI. Because of LRRI's commitment to seeing valuable 
inhalation research continue at this facility and preserving the role 
the facility plays in the economic stability of New Mexico, the Board 
of Directors of LRRI has expressed its willingness to assume the 
substantial cost of future remediation that may be required at the 
facility in exchange for conveyance of the property.
    We are very pleased that Chairman Bingaman and Senator Domenici 
have introduced S.3179 to authorize the conveyance to LRRI in order to 
complete the privatization of this research facility. With respect to 
several specific provisions of the Bill, we note the following:

          Section 3(c) directs the Secretary of the Interior and 
        Secretary of the Air Force to complete ``any real property 
        actions'' necessary to allow the Secretary of Energy to 
        complete the conveyance. LRRI is prepared to assume ownership 
        of the property upon the passage of S 3179. We note that 
        Section 3(a) ``authorizes'' the Secretary of Energy to convey 
        the property to LRRI, but unlike Section 3(c), does not direct 
        the Secretary to do so. Without better specification of the 
        real property actions Congress deems ``necessary'' for 
        conveyance to be completed and without a time established for 
        completion of the conveyance, LRRI is concerned that the 
        conveyance could be prolonged. We look forward to working with 
        the appropriate federal agencies and Congress to ensure timely 
        completion of the conveyances authorized by S 3179.
          Section 3(f) contains a provision that requires LRRI to pay 
        the costs incurred by the various agencies in carrying out the 
        conveyance without placing any limitation on such costs. LRRI 
        is certainly willing to pay the reasonable expenses the 
        agencies may incur after passage of the Bill to effect the 
        conveyance, but obviously we would like the parties to have an 
        understanding in advance about what is deemed a reasonable 
        expense.
          Section 3(g) contains a broad and expansive indemnification 
        requirement that LRRI is not prepared to meet and which we 
        believe was not intended by the drafters. Under the language of 
        this provision, LRRI would be required to assume the liability 
        not only for remediating the contamination located on the 
        property (which we are prepared to assume), but would also be 
        required to pay for ``property damage, personal injury, or 
        death resulting from releases, discharges...by the Institute 
        and any officers, agents, employees...of the Institute arising 
        from activities conducted on the parcel conveyed....'' As we 
        previously stated, LRRI and its predecessors operated the 
        facility for 36 years under a no-fee, cost-reimbursement 
        Government contract. Employees and others have pending claims 
        and may make future claims for personal injury for actions 
        taken prior to the privatization. LRRI can not assume liability 
        for such claims and no federal agency has requested that we do 
        so. We therefore respectfully request that this provision be 
        modified to reflect that LRRI will indemnify the Government for 
        the actions described in Section 3(g) if they arise from the 
        actions of LRRI or its agents and employees after September 30, 
        1996 when the facility was first privatized.

    We look forward to working with the Committee and the sponsors of 
this legislation as well as the federal agencies involved to develop 
appropriate mutually acceptable modifications to clarify these points.
    Thank you for the opportunity to provide the comments of LRRI on 
S.3179.

    The Chairman. I would also like to speak briefly about the 
other bill, S. 2779, which I introduced along with Senators 
Domenici, Salazar, Allard, and Bennett.
    This legislation makes a technical correction to address a 
recent interpretation by the Office of Surface Mining which 
restricts the ability of States to use funds under the 
Abandoned Mine Lands Program for noncoal mine reclamation. 
There is no additional cost to the Federal Government involved 
with this legislation. Western States, such as New Mexico, 
Colorado, and Utah, have used AML funds in the past for noncoal 
reclamation as authorized by the Surface Mining Control and 
Reclamation Act, and while activities on noncoal sites have 
consumed a relatively insignificant portion of the funds 
provided for the overall AML program, the results in terms of 
public health and safety in our western States is considerable.
    There is a great deal of significant work yet to be done. 
For example, in my State of New Mexico, we have over 15,000 
previously mined sites, with a vast majority of these being 
noncoal mines.
    I believe that OSM's interpretation of the amendments to 
restrict the use of AML funds for noncoal sites is in error. S. 
2779 would make a minor technical change to clarify that States 
may continue to use the funds for noncoal work.
    I would like to also ask your permission, Mr. Chairman, to 
put some statements in the record. First, there is a statement 
from the Secretary of Energy and Minerals and the Director of 
Mining and Minerals Division in the State of New Mexico, Joanna 
Prukop and Bill Brancard. Next is a statement by the Governor 
of Colorado, Bill Ritter. Next is a statement by the head of 
the Department of Natural Resources in Utah, John Baza. Next is 
a statement by the Interstate Mining Compact Commission. Next 
is a statement by the National Association of Abandoned Mine 
Land Programs. All of these statements support the passage of 
2779.
    Thank you again, Mr. Chairman, for your courtesy.
    Senator Wyden. Thank you, Mr. Chairman. Without objection, 
the statements that Senator Bingaman referred to in his opening 
remarks will be included in the record.
    [The prepared statements follow:]
 Prepared Statement of Joanna Prukop, Secretary, Energy, Minerals and 
 Natural Resources Department and Bill Brancard, Director, Mining and 
           Minerals Division, State of New Mexico, on S. 2779
    Thank you for the opportunity to present a statement on this 
important topic.
    We appreciate the efforts of Chairman Bingaman and this Committee 
to propose legislation that will clarify the intent of Congress under 
Title IV, the Abandoned Mine Land (AML) program, of the Surface Mining 
Control and Reclamation Act of 1977 (SMCRA).
    The State of New Mexico strongly supports S. 2779. This bill will 
make only minor changes to SMCRA to correct a misinterpretation of 
SMCRA by the Office of Surface Mining of the Department of the 
Interior. S. 2779 will return New Mexico and other states to their 
longstanding role under SMCRA of directing abandoned mine land grant 
funds to the highest priority needs at either coal or non-coal 
abandoned mines.
    New Mexico has a long and distinguished history of both coal and 
hard rock mining. Centuries of mining have left a legacy of thousands 
of mine openings and other mine hazards that pose serious threats to 
public health and safety. We estimate that there are more than 15,000 
unreclaimed mine hazards across New Mexico. Expanding populations and 
increasing recreational uses are increasing the exposure to abandoned 
mine dangers. An example of the AML problem is the numerous abandoned 
uranium mines located primarily in areas of Native American habitiation 
in northwestern New Mexico.
    The primary funding source for AML projects in New Mexico has been 
Title IV of SMCRA. SMCRA includes provisions for the safeguarding of 
abandoned coal mines and high priority non-coal mines. Funding from the 
fees collected on coal production has helped New Mexico address some of 
our most hazardous abandoned mines. Since the inception of the SMCRA 
AML program, New Mexico has addressed approximately 4,000 mine features 
and reclaimed over 700 acres of mine-disturbed land.
    Section 409 of SMCRA (30 U.S.C. 1239) allows the States to use AML 
funds to address high priority non-coal abandoned mines as well as coal 
mines. While New Mexico still has abandoned coal mines that need 
reclamation, well over 90% of New Mexico's 15,000 mine hazards are 
located at abandoned hard rock mines. In the past few decades, all of 
the fatalities associated with abandoned mines in New Mexico have 
occurred at non-coal mines. With our SMCRA grants, New Mexico has 
balanced the need to reclaim abandoned coal mines with the need to 
address the significant and immediate health and safety threats posed 
by numerous non-coal mines. Over the past 6 years, New Mexico's $1.5 
million annual grant was roughly split between coal (55%) and non-coal 
(45%) projects.
    In December 2006, Congress passed the Tax Relief and Health Care 
Act of 2006 which included a re-authorization of the AML fee on current 
coal production and other amendments to the SMCRA Title IV program. One 
of the major changes was the distribution to the States and Tribes of 
``state share'' funds that had been previously allocated to the States 
under SMCRA, but had never been appropriated by Congress. For New 
Mexico, this amounts to approximately $20 million in additional AML 
funds distributed over the next 7 years, and presents a tremendous 
opportunity to address many of the high priority coal and non-coal 
abandoned mine threats.
    Under SMCRA, the ``state share'' funds were available for use by 
the States at abandoned coal mines and, under Section 409, also at high 
priority abandoned non-coal mines. In the 2006 legislation, Congress 
did not amend Section 409. However, the Interior Department issued an 
opinion in December 2007 prohibiting the additional AML funds from 
being used at non-coal abandoned mine projects. The Office of Surface 
Mining followed with a proposed rule on June 20, 2008, which codifies 
the Interior Department's interpretation.
    The new interpretation flies in the face of Congressional intent. 
Had the funds been appropriated to the State when they were originally 
allocated to the State, there would have been no question that these 
funds could be used for either coal or non-coal projects. Congress did 
not amend Section 409 of SMCRA in the 2006 amendments. However, the 
Interior Department has latched onto Congress' use of a new funding 
source to distribute the previously allocated funds to claim that the 
intent changed.
    Since the beginning of the AML program, New Mexico, Utah and 
Colorado have balanced the need to reclaim abandoned coal mines with 
the need to address the significant health and safety threats posed by 
numerous non-coal mines. With these funds, New Mexico successfully 
completed a number of innovative projects that were recognized by OSM. 
In the Cerrillos Hills between Santa Fe and Albuquerque, we closed 
dozens of non-coal mines along trails in a park and protected park 
visitors from mine hazards while showcasing the mining history. This 
project received a national award from OSM. Last year, we received the 
highest national award from OSM for the Real de Delores project in the 
Ortiz Mountains which safeguarded mine openings within one of the 
oldest gold mining districts in America.
    The impact of the Interior Department's interpretation is 
significant. While New Mexico's annual AML grant increased this year to 
$4 million, less than one million is discretionary and can be spent on 
either coal or non-coal projects; the remaining three million plus can 
only be spent on coal projects. As a result, needed projects at 
dangerous abandoned hard rock mines have been delayed and funds 
diverted to lower priority abandoned coal mines.
    This loss of flexibility also comes at a particularly significant 
time for New Mexico. Under Governor Bill Richardson's direction, we are 
using a variety of funding sources to conduct an inventory of abandoned 
uranium mines, many of which are located in areas occupied by Native 
Americans in northwestern New Mexico. The impacts of these uranium 
mines on the nearby residents, particularly the Navajo people, are 
finally receiving national attention as evidenced by the hearings this 
year before the House Oversight and Government Reform Committee. New 
Mexico is working cooperatively with the Navajo Nation and the U.S. EPA 
to coordinate work on abandoned uranium mines in areas near the Navajo 
Indian Reservation. With the new AML money available, we have a unique 
opportunity to finally address some of these sites which have caused 
great harm to the Navajo communities. With the Interior Department's 
restrictions, our options become much more limited, because the money 
for non-coal projects is much more limited. We hope you will prevent 
that reduction in funds for eliminating hazardous non-coal risks.
    Mr. Chairman and members of the Committee, we thank you for this 
opportunity to present New Mexico's position on S. 2779. We urge the 
Committee to correct the misinterpretation of SMCRA and restore the 
flexibility needed by the States. We look forward to working with the 
Committee in the future.
                                 ______
                                 
    Prepared Statement of Hon. Bill Ritter, Jr., Governor, State of 
                          Colorado, on S. 2779
    Thank you for the opportunity to present a statement on this 
important topic.
    I appreciate the efforts of Chairman Bingaman, Senators Salazar and 
Allard, and this Committee to propose legislation that will clarify the 
intent of Congress under Title IV of the Surface Mining Control and 
Reclamation Act of 1977 (SMCRA).
    Under SMCRA, Congress has allowed States to address public health 
and safety hazards at all prior mining operations--both coal and non-
coal--through their Abandoned Mine Land (AML) Programs. See 30 U.S.C. 
1239 (SMCRA section 409). Western states, including Colorado, have used 
these funds, based on gubernatorial request and secretarial approval, 
to protect public health and safety from the threats posed by coal and 
non-coal abandoned mines alike. These threats are significant and 
growing.
    In Colorado, there are over 17,000 mine openings remaining to be 
safeguarded--the overwhelming majority of these at abandoned non-coal 
mines, as well as 33 underground coal mine fires of which some are over 
a century old, 50,000 acres of abandoned coal mine area in the rapidly 
developing Front Range of Colorado, and over 150 coal and hard rock 
sites that require some form of environmental clean-up.
    Many of the mine related fatalities in Colorado (16 of the 20) over 
the past few decades have occurred at abandoned non-coal mines. As 
urban growth pushes into undeveloped areas and as recreational uses 
increase, the threat to public heath and safety from abandoned mines is 
increasing. To address this issue, Colorado is appropriating nearly $1 
million each year of Severance Tax revenues for AML work.
    The reauthorization of the AML Program by Congress did not in any 
way change the provisions that allow AML funds to be used to address 
public health and safety hazards at either coal or non-coal mine sites. 
Yet, the Department of the Interior, Office of Surface Mining (OSMRE) 
has proposed rules that would prohibit the majority of the funds going 
to Western, non-certified states from being used on non-coal abandoned 
mines. This change is contrary to Congressional intent. Had Congress 
intended to restrict funding for non-coal projects, they would have 
done so in the legislation.
    OSMRE's new interpretation of SMCRA is without support in the law. 
Section 409 of SMCRA provides that funds allocated to the states under 
either the ``state share'' formula or the ``historic share'' formula 
(Sections 402(g)(1) and (5)) are available to safeguard high priority 
non-coal hazards. Despite Congress' decision to leave Section 409 
unaltered, OSMRE has decided arbitrarily that ``historic share'' funds 
are no longer available for non-coal hazards. Similarly, Congress also 
decided to provide to the states the amount of ``state share'' funds 
that had been previously allocated to the states but not appropriated. 
OSMRE has now decided that these funds are also no longer available for 
abatement of non-coal hazards.
    OSMRE claims that once a state has completed all of its coal 
projects, then it can use all of its grant funds for non-coal projects. 
Therefore, under OSMRE's new interpretation, in order to complete its 
coal projects, Colorado will spend years working on high cost, low 
priority coal projects that present little threat to public health and 
safety--meanwhile, numerous, highly hazardous abandoned non-coal mines 
will remain unattended. This is a potentially dangerous and unnecessary 
risk that OSMRE is imposing on the states.
    It is essential that we fulfill the intent of Congress to address 
the greatest threats to public health and safety whether they are at 
coal or non-coal abandoned mine sites. Colorado's congressional 
delegation was a leader in this reauthorization to address the unabated 
hazards at both coal and non-coal abandoned mines. The impact of the 
Interior Department's interpretation is significant to Colorado. While 
Colorado's annual AML grant increased this year to $6 million, only 
$2.4 million is discretionary for either coal or non-coal projects, and 
the remaining funds can only be spent on coal projects--based on 
OSMRE's decision.
    Since the beginning of the AML Program, Colorado, New Mexico, and 
Utah have balanced the need to reclaim abandoned coal mines with the 
need to address the significant health and safety threats posed by 
numerous non-coal mines. With these funds, Colorado has safeguarded 
over 7,500 hazardous openings. Colorado, New Mexico, and Utah have all 
received recognition from OSMRE on exemplary non-coal projects.
    Colorado supports S.2779 which will maintain the congressional 
intent to provide states with the flexibility to use Title IV funds for 
high priority coal and non-coal sites and not impose any new 
restrictions on the use of the funds. With a very minor change to SMCRA 
to correct a misinterpretation by the U.S. Department of the Interior, 
S. 2779 will return Colorado and other Western states to their 
longstanding role under SMCRA of directing abandoned mine grant funds 
to the highest priority needs at either coal or non-coal abandoned 
mines.
    Mr. Chairman and members of the Committee, thank you for this 
opportunity to present Colorado's position on S. 2779. I look forward 
to working with the Committee in the future.
                                 ______
                                 
  Prepared Statement of John R. Baza, Director, Department of Natural 
                  Resources, State of Utah, on S. 2779

    My name is John R. Baza and I am the Director of the State of 
Utah's Division of Oil, Gas and Mining that is part of the Utah 
Department of Natural Resources. I appreciate this opportunity to 
submit this statement for the record with respect to the legislative 
hearing on S. 2779, a bill to amend the Surface Mining Control and 
Reclamation Act of 1977 (SMCRA) to clarify that uncertified States and 
Indian tribes have the authority to use certain federal fund payments 
for qualified non-coal abandoned mined land (AML) reclamation projects. 
I wish to state that I am unequivocally in favor of, and the State of 
Utah supports the amended language of SMCRA being proposed by S. 2779.
    Utah has and will continue to receive significant new funding under 
the SMCRA reauthorization legislation; however, because of federal 
agency interpretation, we will not be allowed to use it on non-coal 
hazards, which comprise the major physical public health and safety 
threat related to abandoned mines in Utah. The U.S. Office of Surface 
Mining, Reclamation, and Enforcement (OSMRE) within the Department of 
Interior is severely restricting the ability of states/tribes to spend 
AML funds on non-coal hazards. This restriction applies to non-
certified states/tribes and has the greatest impact on three western 
states with large non-coal problems: Utah, Colorado and New Mexico.
    Beginning in federal Fiscal Year 2008, the states/tribes received a 
substantial increase in AML funds from three sources: state share, 
historic share, and unappropriated state share funds. Previously, at 
our own discretion, the states/tribes could use all AML funds for 
either high priority coal or non-coal projects. OSMRE is choosing to 
interpret the reauthorization legislation as requiring them to restrict 
the money connected with the historic share and the unappropriated 
state share to abandoned coal mine projects only. State share funds 
alone will be available for non-coal projects. The ramifications are 
draconian: for Fiscal Year 2008, Utah will have $1.0 out of $3.7 
million, Colorado will have $1.9 out of $6.6 million, and New Mexico 
will only have $1.2 out of $4.2 million available for non-coal 
projects.
    Although OSMRE argues that the unappropriated state share is 
federal treasury money, there is another interpretation. I believe that 
the intent of Congress, as demonstrated by the reauthorized 
legislation, is to return this funding to the states and tribes. It is 
a purely arbitrary decision on OSMRE's part regarding from which 
Treasury fund cost category they actually find the money to pay a long 
past due debt. OSMRE claims that SMCRA was designed to eliminate coal 
related AML problems all along and that it is incumbent upon them to 
carry out Congress' wishes and ensure the completion of coal AML 
projects and push programs to certification. I disagree. Congress 
recognized an abandoned mine problem and identified the coal industry 
and a fee on production as a vehicle to fund the amelioration of the 
problem. OSMRE has funded the non-coal projects that meet all criteria 
set out in SMCRA without objection for the past twenty-five years. 
OSMRE's position on this matter suggests a bias against western states 
who will derive the most significant impact from such decision-making. 
I believe OSM is taking this opportunity to block legal avenues that 
allow western states to address the extreme non-coal abandoned mine 
hazards and is using every possible interpretation of the 
reauthorization language to channel available funding to eastern coal 
states.
    In Utah, Colorado and New Mexico almost all (if not all) fatalities 
and serious injuries associated with abandoned mines have occurred at 
non-coal mines. These non-coal dangers are our highest priority. While 
we will continue to conduct abandoned coal mine reclamation projects, 
if we had a choice, we would target all of our funding increase on the 
significant public health and safety hazards posed by non-coal 
abandoned mines.
    Utah previously submitted testimony to the Senate Energy Committee 
on this same problem. During the reauthorization discussions, it was 
our understanding that the Committee agreed with us that the 
reauthorization would not decrease our ability to safeguard non-coal 
hazards. We are extremely disappointed and concerned that OSMRE's 
interpretation of the reauthorization legislation results in a 
significant cut in the funding available to mitigate the most hazardous 
sites in Utah. Even though we now have more funding available than in 
previous years, we are more restricted in how we can use those funds 
than ever before. We do not interpret the new language in the 
reauthorized law as a mandate to deny states/tribes the ability to 
manage their own programs in their own best interests and in the best 
interest of the public. Again, I wish to add my name to the list of 
individuals in support of this legislation. Thank you for the 
opportunity to submit this statement on S. 2779. I would appreciate 
your efforts to advance this bill into law.
                                 ______
                                 
    Prepared Statement of the Interstate Mining Compact Commission, 
                               on S. 2779

    My name is Gregory E. Conrad and I serve as Executive Director of 
the Interstate Mining Compact Commission (IMCC). I appreciate the 
opportunity to submit this statement for the record with respect to the 
legislative hearing on S. 2779, a bill to amend the Surface Mining 
Control and Reclamation Act of 1977 (SMCRA) to clarify that uncertified 
States and Indian tribes have the authority to use certain payments for 
certain noncoal reclamation projects.
    The Interstate Mining Compact Commission (IMCC) is an organization 
of 24 states located throughout the country that together produce some 
95% of the Nation's coal, as well as important hardrock and other 
noncoal minerals. Each IMCC member state has active mining operations 
as well as numerous abandoned mine lands within its borders and is 
responsible for regulating those operations and addressing mining-
related environmental issues, including the reclamation of abandoned 
mines. Over the years, IMCC has worked with the states and others to 
identify the nature and scope of the abandoned mine land problem, along 
with potential remediation options.
    In testimony we presented to the Committee last March at an 
oversight hearing on hardrock abandoned mine lands (AML), we noted that 
nationally, abandoned mine lands continue to have significant adverse 
effects on the environment. Some of the types of environmental impacts 
that occur at AML sites include subsidence, surface and ground water 
contamination, erosion, sedimentation, chemical release, and acid mine 
drainage. Safety hazards associated with abandoned mines account for 
deaths and/or injuries each year. Abandoned and inactive mines, 
resulting from mining activities that occurred over the past 150 years, 
are scattered throughout the United States. The sites are located on 
private, state and public lands.
    Over the years, several studies have been undertaken in an attempt 
to quantify the hardrock AML cleanup effort. In 1991, IMCC and the 
Western Governors' Association completed a multi-volume study of 
inactive and abandoned mines that provided one of the first broad-based 
scoping efforts of the national problem. Neither this study, nor any 
subsequent nationwide study, provides a quality, completely reliable, 
and fully accurate on-the-ground inventory of the hardrock AML problem. 
Both the 1991 study and a recent IMCC compilation of data on hardrock 
AML sites were based on available data and professional judgment. While 
the data is seldom comparable between states due to the wide variation 
in inventory criteria, they do demonstrate that there are large numbers 
of significant safety and environmental problems associated with 
inactive and abandoned hardrock mines and that remediation costs are 
very large.
    Some of the types of numbers that IMCC has seen reported in our 
Noncoal Report and in response to information we have collected for GAO 
and others include the following: Number of abandoned mine sites: 
Alaska--7,000; Arizona--80,000; California--47,000; Colorado--7,300; 
Montana--6,000; Nevada--16,000; Utah--17,000--20,000; Washington--
3,800; Wyoming--1,700. Nevada reports over 200,000 mine openings; 
Minnesota reports over 100,000 acres of abandoned mine lands.
    What becomes obvious in any attempt to characterize the hardrock 
AML problem is that it is pervasive and significant. And although 
inventory efforts are helpful in attempting to put numbers on the 
problem, in almost every case, the states are intimately familiar with 
the highest priority problems within their borders and also know where 
limited reclamation dollars must immediately be spent to protect public 
health and safety or protect the environment from significant harm.
    Today, state agencies are working on hardrock abandoned mine 
problems through a variety of limited state and federal funding 
sources. Various federal agencies, including the Environmental 
Protection Agency, Bureau of Land Management, U.S. Forest Service, Army 
Corps of Engineers and others have provided some funding for hardrock 
mine remediation projects. These state/federal partnerships have been 
instrumental in assisting the states with our hardrock AML work and, as 
states take on a larger role for hardrock AML cleanups into the future, 
we will continue to coordinate with our federal partners. However, most 
of these existing federal grants are project specific and do not 
provide consistent funding. For states with coal mining, the most 
consistent source of AML funding has been the Title IV grants under the 
Surface Mining Control and Reclamation Act (SMCRA). Section 409 of 
SMCRA allows states to use these grants at high priority non-coal AML 
sites. The funding is generally limited to safeguarding hazards to 
public safety (e.g., closing mine openings) at hardrock sites.
    In December 2006, Congress significantly amended the SMCRA AML 
program to, among other things, distribute funds to states in an amount 
equal to that previously allocated under SMCRA but never appropriated. 
However, while Section 409 was not changed or amended in any way, the 
Interior Department has now interpreted SMCRA to prohibit this enhanced 
funding from being used for noncoal projects. This is a significant 
blow to states such as New Mexico, Utah and Colorado which have 
previously used SMCRA AML funds to address many of the more serious 
hardrock AML problems. S.2779 would address this misinterpretation by 
the Interior Department and as a result we strongly support the bill.
    As you noted in a letter to Secretary Kempthorne last month Mr. 
Chairman, Interior's interpretation not only disregards the fact that 
section 409 was left unamended by Congress, it is also inconsistent 
with assurances repeatedly given to the states and tribes by OSM during 
the consideration of the legislation that noncoal work could continue 
to be undertaken with these AML funds. The interpretation would also 
have the unacceptable result of requiring states and tribes to devote 
funds to low priority coal sites while leaving dangerous noncoal sites 
unaddressed. While OSM will argue that this may impact the amount of 
funding available to uncertified states to address high priority coal 
problems, Congress did not seem overly concerned with this result but 
rather deferred to its original framework for allowing both high 
priority coal and noncoal sites to be addressed.
    OSM has also argued in a recent proposed rule implementing the 2006 
amendments to SMCRA (at 73 Fed. Reg. 35214, et seq.) that ``prior 
balance replacement'' funds (i.e the unappropriated state and tribal 
share balances in the AML Trust Fund) are fundamentally distinct from 
section 402(g) moneys distributed from the Fund. This, according to 
OSM, is due to the fact that these prior balance replacement funds are 
paid from U.S. Treasury funds and have not been allocated under section 
402(g)(1). This is a distinction of convenience for the Interior 
Department's interpretation of the 2006 Amendments and has no basis in 
reason or law. The fact is, these funds were originally allocated under 
section 402(g)(1), are due and owing pursuant to the operation of 
section 402(g)(1), and did not change their ``color'' simply because 
they are paid from a different source. Without the operation of section 
402(g)(1) in the first place, there would be no unappropriated (i.e. 
``prior'') state and tribal share balances. The primary reason that 
Congress appears to have provided a new source for paying these 
balances is to preserve a balance in the AML Trust Fund to 1) generate 
continuing interest for the UMW Combined Benefit Trust Fund and 2) to 
insure that there was a reserve of funding left after fee collection 
terminates in 2021 to address any residual high priority historic coal 
problems. There was never an intent to condition or restrict the 
previously approved mechanisms and procedures that states and tribes 
were using to apply these moneys to high priority coal and noncoal 
problems. To change the rules based on such a clever invention is 
inappropriate and inconsistent with law.
    For the same reasons that Congress needs to clarify this 
misinterpretation for noncoal AML work, it should also do so for the 
acid mine drainage (AMD) set aside program. Section 402(g)(6) has, 
since 1990, allowed a state or tribe to set aside a portion of its AML 
grant in a special AMD abatement account to address this pervasive 
problem. OSM's recent policy (and now regulatory) determination is 
denying the states the option to set aside moneys from that portion of 
its grant funding that comes from ``prior balance replacement funds'' 
each year to mitigate the effects of AMD on waters within their 
borders. AMD has ravaged many streams throughout the country, but 
especially in Appalachia. Given their long-term nature, these problems 
are technologically challenging to address and, more importantly, are 
very expensive. The states need the ability to set aside as much 
funding as possible to deal with these problems over the long term. We 
therefore urge the Committee to amend S. 2779 to correct the current 
policy interpretation by Interior and allow the use of unappropriated 
state and tribal share balances (``prior balance replacement funds'') 
for the AMD set aside, similar to the use of these balances for noncoal 
work. Suggested amendatory language is attached to our statement.
    Over the past 30 years, tens of thousands of acres of abandoned 
mine lands have been reclaimed, thousands of mine openings have been 
closed, and safeguards for people, property and the environment have 
been put in place. There are numerous success stories from around the 
country where the states' AML programs have saved lives and 
significantly improved the environment. Suffice it to say that the AML 
Trust Fund, and the work of the states pursuant to the distribution of 
monies from the Fund, have played an important role in achieving the 
goals and objectives of set forth by Congress when SMCRA was first 
enacted--including protecting public health and safety, enhancing the 
environment, providing employment, and adding to the economies of 
communities impacted by past coal and noncoal mining. Passage of S. 
2779 will further these congressional goals and objectives.
    Thank you for the opportunity to submit this statement on S.2779. 
We welcome the opportunity to work with you to complete the legislative 
process and see this bill, as amended, become law.

  Suggested Amendment to S. 2779 to include the AMD set-aside account 
                      (Amendments are in italics)

                                 A BILL

          To amend the Surface Mining Control and Reclamation Act of 
        1977 to clarify that uncertified States and Indian tribes have 
        the authority to use certain payments for certain noncoal and 
        acid mine drainage reclamation projects.
          Be it enacted by the Senate and House of Representatives of 
        the United States of America in Congress assembled,

                  SECTION 1. ABANDONED MINE RECLAMATION.

                          (a) Limitation on Funds.--Section 409(b) of 
                        the Surface Mining Control and Reclamation Act 
                        of 1977 (30 U.S.C. 1239(b)) is amended by 
                        inserting ``or section 411(h)(1)'' after 
                        ``section 402(g)''. Section 402(g)(6)(A) of the 
                        Surface Mining Control and Reclamation Act of 
                        1977 (30 U.S.C. 1232(g)(6)(A)) is amended by 
                        inserting ``or section 411(h)(1)'' after 
                        ``paragraphs (1) and (5)''.
                          (b) Use of Funds.--Section 411(h)(1)(D)(ii) 
                        of the Surface Mining Control and Reclamation 
                        Act of 1977 (30 U.S.C. 1240a(h)(1)(D)(ii)) is 
                        amended by inserting ``section 402(g)(6)'' 
                        before ``section 403'' and inserting ``section 
                        409'' after ``section 403''.
                                 ______
                                 
Prepared Statement of the National Association of Abandoned Mined Land 
                          Programs, on S. 2779

    My name is Loretta Pineda and I serve as the president of the 
National Association of Abandoned Mined Land Programs (NAAMLP).
    The NAAMLP is a tax-exempt organization consisting of 30 states and 
Indian tribes with a history of coal mining and coal mine related 
hazards. These states and tribes are responsible for 99.5% of the 
Nation's coal production. All of the states and tribes within the 
NAAMLP administer abandoned mine land (AML) reclamation programs funded 
and overseen by the Office of Surface Mining (OSM) pursuant to Title IV 
of the Surface Mining Control and Reclamation Act (SMCRA, P.L. 95-87). 
Since the enactment of SMCRA by Congress in 1977, the AML program has 
reclaimed thousands of dangerous sites left by abandoned coal mines, 
resulting in increased safety for millions of Americans.
    The Association was pleased with the passage of the 2006 Amendments 
to SMCRA. The 15-year extension coupled with increased funding has 
provided the states and tribes with the ability to focus on the 
protection of the public health and safety while ensuring restoration 
of abandoned mines nationwide. The reauthorization of the AML program 
by Congress did not in any way change the provisions that allow AML 
funds to be used to ameliorate either coal or non-coal mine public 
health and safety hazards. However, the Interior Department has now 
published proposed rules to prohibit some of this funding from being 
used to address many of the serious non-coal AML problems.
    Therefore, we strongly support S.2779, which makes very minor 
changes to SMCRA to correct a misinterpretation of SMCRA by the U.S. 
Department of the Interior. S. 2779 will return states to their 
longstanding role under SMCRA of directing abandoned mine grant funds 
to the highest priority needs at either coal or non-coal abandoned 
mines.
    The NAAMLP has worked closely with the Interstate Mining Compact 
Commission and the Western Governors' Association in providing 
information to quantify the non-coal AML cleanup effort. While the data 
is seldom comparable between states due to the wide variation in 
inventory criteria, they do demonstrate that there are large numbers of 
significant safety and environmental problems associated with inactive 
and abandoned non-coal mines and that remediation costs are very large.
    Some of the types of numbers that have been reported by IMCC in 
response to information we have collected for GAO and others include 
the following: Number of abandoned mine sites: Alaska--7,000; Arizona--
80,000; California--47,000; Colorado--7,300; Montana--6,000; Nevada--
16,000; Utah--17,000--20,000; Washington--3,800; Wyoming--1,700. Nevada 
reports over 200,000 mine openings; Minnesota reports over 100,000 
acres of abandoned mine lands.
    States and Tribes are very familiar with the highest priority non-
coal problems within their borders and also have limited reclamation 
dollars to protect public health and safety or protect the environment 
from significant harm. States and Tribes work closely with various 
federal agencies, including the Environmental Protection Agency, the 
Bureau of Land Management, the U.S. Forest Service, and the U.S. Army 
Corps of Engineers, all of whom have provided some funding for non-coal 
mine remediation projects. For states with coal mining, the most 
consistent source of AML funding has been the Title IV grants received 
under the Surface Mining Control and Reclamation Act (SMCRA). Section 
409 of SMCRA allows states to use these grants at high priority non-
coal AML sites. The funding is generally limited to safeguarding 
hazards to public safety (e.g., closing mine openings) at non-coal 
sites.
    In written statements that we presented to the Committee in 
November of 2007, the Association prioritized two issues of highest 
concern to us. One involved the restriction noted above regarding the 
use of unappropriated state and tribal share balances for noncoal AML 
work. The second involves a similar restriction on the use of these 
unappropriated balances for the Acid Mine Drainage (AMD) set-aside 
program under SMCRA. Congress expanded this program in the 2006 
Amendments to allow states and tribes to set-aside up to 30% of their 
grants funds for treating AMD now and into the future. AMD has ravaged 
many streams throughout the country, but especially in Appalachia. The 
states need the ability to set aside as much funding as possible to 
deal with these problems over the long term. Again, OSM has acted 
arbitrarily in their interpretation of the reauthorizing language by 
limiting the types of funds the state may use for the set-aside 
program. We have proposed amendatory language that would correct this 
misinterpretation and allow the states to apply the 30% set-aside to 
their prior balance replacement funds. (Suggested amendatory language 
is attached to our statement.)
    In summary:

  <bullet> Since the inception of SMCRA in 1977 and the approval of 
        state/tribal AML programs in the early 1980's, the states and 
        tribes have been allowed to use their state share distributions 
        under section 402(g)(1) of the AML Trust Fund for high priority 
        noncoal reclamation projects pursuant to section 409 of SMCRA 
        and for the set-aside program for acid mine drainage (AMD) 
        projects.
  <bullet> In its most recent proposed rules, OSM has stated that these 
        moneys cannot be used for noncoal reclamation or for the 30% 
        AMD set-aside.
  <bullet> Pursuant to Section 411(h)(1) of the 2006 Amendments, the 
        states and tribes assert that these moneys should also be 
        available for noncoal reclamation under section 409 and for the 
        30% AMD set-aside. There is nothing in the new law that would 
        preclude this interpretation. Policy and practice over the past 
        30 years confirm it.

    Over the past 30 years, tens of thousands of acres of abandoned 
mine lands have been reclaimed, thousands of mine openings have been 
closed, and safeguards for people, property and the environment have 
been put in place. Be assured that States and Tribes are determined to 
address the unabated hazards at both coal and non-coal abandoned mines. 
We are all united to play an important role in achieving the goals and 
objectives as set forth by Congress when SMCRA was first enacted--
including protecting public health and safety, enhancing the 
environment, providing employment, and adding to the economies of 
communities impacted by past coal and noncoal mining. Passage of S. 
2779 will further these congressional goals and objectives.
    I appreciate the opportunity to submit this statement for the 
record with respect to the legislative hearing on S. 2779, a bill to 
amend the Surface Mining Control and Reclamation Act of 1977 (SMCRA) to 
clarify that uncertified States and Indian tribes have the authority to 
use certain payments for certain noncoal reclamation projects. We 
welcome the opportunity to work with you to complete the legislative 
process and see this bill, as amended, become law.

  Suggested Amendment to S. 2779 to include the AMD set-aside account 
                      (Amendments are in italics)

                                 A BILL

          To amend the Surface Mining Control and Reclamation Act of 
        1977 to clarify that uncertified States and Indian tribes have 
        the authority to use certain payments for certain noncoal and 
        acid mine drainage reclamation projects.
          Be it enacted by the Senate and House of Representatives of 
        the United States of America in Congress assembled,

                  SECTION 1. ABANDONED MINE RECLAMATION.

                          (a) Limitation on Funds.--Section 409(b) of 
                        the Surface Mining Control and Reclamation Act 
                        of 1977 (30 U.S.C. 1239(b)) is amended by 
                        inserting ``or section 411(h)(1)'' after 
                        ``section 402(g)''. Section 402(g)(6)(A) of the 
                        Surface Mining Control and Reclamation Act of 
                        1977 (30 U.S.C. 1232(g)(6)(A)) is amended by 
                        inserting ``or section 411(h)(1)'' after 
                        ``paragraphs (1) and (5)''.
                          (b) Use of Funds.--Section 411(h)(1)(D)(ii) 
                        of the Surface Mining Control and Reclamation 
                        Act of 1977 (30 U.S.C. 1240a(h)(1)(D)(ii)) is 
                        amended by inserting ``section 402(g)(6)'' 
                        before ``section 403'' and inserting ``section 
                        409'' after ``section 403''.

    Senator Wyden. We are going to hear today a number of 
bills, S. 2443 and H.R. 2246, to release a reversionary 
interest of the United States in certain lands in Reno, Nevada; 
S. 2779, to amend the Surface Mining Control and Reclamation 
Act of 1977, to clarify that certain payments may be used for 
noncoal reclamation projects; S. 2875, to authorize the Fish 
and Wildlife Service to provide grants to reduce predation and 
compensate landowners for livestock loss due to predation; S. 
2898 and H.R. 816, to release certain public land from the 
Sunrise Mountain Instant Study Area in the State of Nevada; S. 
3157, to authorize an exchange of certain national forest land 
in Arizona to facilitate the development of a copper mine; S. 
3179, to authorize the conveyance of certain land in the State 
of New Mexico to the Lovelace Respiratory Research Institute.
    Let me close my opening remarks by just commenting briefly 
on two bills that I have introduced that are extremely 
important to my home State, the Oregon Badlands Wilderness Act 
of 2008, S. 3088, and 3089, the Spring Basin Wilderness Act of 
2008. These two bills would protect as wilderness two 
especially unique treasures in the high desert of central and 
eastern Oregon. They reflect the wild, rugged beauty that makes 
our State and our State's terrain east of the Cascade Mountains 
incomparable.
    The Oregon Badlands Wilderness Act would designate as 
wilderness almost 30,000 acres of the area just east of Bend 
known as the Badlands, in addition to the area's natural 
attributes of lava flows and 1,000-year-old ancient junipers, 
many in the business consider this wilderness area as a very 
substantial boost to the region's hub as an area of great 
attraction for outdoor recreation. In the Bend area, people can 
enjoy virtually any sort of outdoor activity imaginable, and we 
are excited about the prospects of this legislation moving 
forward.
    The Spring Basin Wilderness Act of 2008 would designate 
approximately 8,600 acres as wilderness, and with some of the 
revised exchanges that are being discussed and are supported 
widely, that would expand to more than 9,200 acres. This is one 
of central Oregon's premier wild areas. It overlooks the John 
Day Wild and Scenic River where you have spring wildflower 
blooms and canyons and diverse geology that again offers 
exceptional recreational opportunities for hikers, horseback 
riders, hunters, and other outdoor enthusiasts.
    So we will talk more about this legislation and other 
bills, but I know colleagues have strong views on the measures 
before them that affect their home States. Let me recognize the 
ranking minority member, Senator Barrasso.

         STATEMENT OF HON. JOHN BARRASSO, U.S. SENATOR 
                          FROM WYOMING

    Senator Barrasso. Thank you very much, Mr. Chairman. I 
appreciate you holding this hearing today.
    Mr. Chairman, Senator Tester and I have a bill, S. 2875, 
The Gray Wolf Livestock Loss Mitigation Act that we have 
introduced. It authorizes the Secretary of the Interior to 
provide grants to carry out programs to reduce the risk of 
livestock loss due to predation by gray wolves and other 
predators. The program will compensate landowners for livestock 
loss due to predation.
    Mr. Chairman, as you know, ranching is the backbone of the 
Wyoming way of life and it is a time-honored and vital part of 
the fabric of our western heritage. The Federal Government 
reintroduced the gray wolf into our environment. The ranchers 
of Wyoming did not ask that the wolf be reintroduced. As a 
matter of fact, Wyoming ranchers opposed it because they knew 
what the consequences would be, and one of those ranchers is 
with us today. Often decisions are made in Washington and awful 
impacts are felt back at home, and for Wyoming ranchers the 
decision to reintroduce the wolf has led to livestock loss and 
a direct threat to our livelihood. The wolf has been 
devastating not just to our livestock but also to our wildlife.
    The State of Wyoming, acting in good faith, has done its 
part.
    The gray wolf was recently taken off of the Endangered 
Species Act, but it continues to be a serious problem and the 
introduction of the wolves continues to have a significant 
impact.
    The State of Wyoming spent $1.2 million last year providing 
compensation to ranchers who lost livestock. The State needs 
additional assistance from the Federal Government to ensure 
that ranchers get the assistance they need for a problem not of 
their own making. Washington forced the wolf on Wyoming and on 
our adjacent States in Montana and in Idaho, and Washington has 
a responsibility to help pay for the damage.
    Additionally, Mr. Chairman, I want to comment briefly on S. 
2779. This legislation addresses abandoned mines in the 
uncertified States and tribes, those which have not addressed 
all the priorities under the Surface Mining Control and 
Reclamation Act. The legislation before this subcommittee today 
would allow, even require, that these uncertified States and 
tribes use Abandoned Mine Land funds paid by the coal companies 
to address entryways and tunnels of the noncoal mines.
    I understand this legislative fix serves the needs of 
western States like Utah and New Mexico and Colorado, but I am 
going to urge the full committee to include a related bill, S. 
2448, in the same discussion. That second bill, Mr. Chairman, 
will also provide a legislative fix for western States and 
tribes like Wyoming and Montana, States that have been 
certified by the Department of the Interior as having addressed 
their reclamation priorities.
    In Wyoming's case, the executive branch is operating under 
a twisted interpretation of the same law which is giving other 
western States fits. In Wyoming's case, the Administration is 
interpreting the phrase ``seven equal annual installments'' as 
an unlimited number of unequal grants. Legislation is needed to 
correct this erroneous interpretation. As a practical matter, 
Mr. Chairman, I trust that both corrections can be addressed 
concurrently.
    Finally, Mr. Chairman, and most importantly, I want to 
extend a warm welcome to Mr. Charles Price of Daniel, Wyoming. 
He has traveled here today to testify on S. 2875 and share his 
experience with the Senate. Charles, I appreciate your taking 
the time away from the ranch to come to testify on this 
important piece of legislation.
    Mr. Chairman, I look forward to the hearing. Thank you.
    Senator Wyden. Senator, thank you.
    Senator Tester.

          STATEMENT OF HON. JON TESTER, U.S. SENATOR 
                          FROM MONTANA

    Senator Tester. Thank you, Chairman Wyden. I will not take 
much time at all. I appreciate you holding hearings on all 
these bills.
    As Senator Barrasso pointed out, I am here primarily for S. 
2875. I will save most of my comments for the questions. So 
thank you.
    Senator Wyden. Senator Smith.

         STATEMENT OF HON. GORDON SMITH, U.S. SENATOR 
                          FROM OREGON

    Senator Smith. Thank you, Senator Wyden. It is good to be 
here with you.
    I will start my remarks by addressing two wilderness bills 
that you have spoken to already, the Oregon Badlands and the 
Spring Basin Wilderness Acts. I would like to acknowledge all 
the extraordinary efforts that have been made by all parties to 
develop these two pieces of legislation.
    The Spring Basin area has been proposed as a wilderness 
since 1980. It is encouraging as a legislator to be presented 
with a proposal that has already been thoroughly vetted by 
local governments and stakeholders. The BLM, the Confederated 
Tribes of the Warm Springs Indian Reservation, local 
landowners, and the Oregon Natural Desert Association have 
joined together in supporting this proposal. So today I would 
like to lend my support and ask that I be added as a cosponsor.
    Senator Wyden. Senator Smith, that is a request that is 
granted, and I thank you for it.
    Senator Smith. This proposal contains four previously 
negotiated land exchanges between private landowners and the 
BLM, bringing the total area to be designated as contiguous 
wilderness to 8,632 acres. There is a proposal by the Warm 
Springs Tribe to increase the designated wilderness to 9,268 
acres by revising the lands exchanged between the tribe and 
BLM. The revised land exchange I believe improves the proposed 
Spring Basin Wilderness, and I will work with you, Senator 
Wyden, to see if this can be incorporated as well.
    The Oregon Badlands Area was also originally set aside for 
wilderness designation in 1980. The Badlands proposal includes 
two small land exchanges and creates a wilderness area of 
nearly 30,000 acres. This area is only 15 miles east of the 
city of Bend. It is replete with jagged rock formations, Native 
American pictographs, ancient western juniper trees, and a 
diversity of wildlife from deer and elk to mountain lions and 
golden eagles. There is no question that this is a special area 
and it is worth protecting.
    I do want, though, to raise a couple of concerns for 
designating Badlands as wilderness, and that is--and we will 
work on this, Senator, to see if we can resolve this--the 
potential impact to offroad recreation. I understand that the 
Badlands were closed to off-highway vehicle use in 2005 and 
adjacent areas contain over 600 miles of trails for offroad 
use. I would like to ensure that these alternate areas are 
adequate to meet the local demand, and we will, I am confident, 
be able to come up with some accommodation on this.
    Additionally, while both these wilderness proposals have 
broad support and do not affect grazing, this committee, I 
believe, should do all it can to ensure that family ranches are 
not regulated or litigated out of existence. I would ask the 
many conservation groups that back these wilderness bills to 
work with me and work with Oregon cattlemen to find a more 
appropriate way forward for grazing on public lands in eastern 
Oregon.
    Part of the solution includes releasing lands designated as 
wilderness study areas when supported by local government and 
stakeholders, both the Spring Basin and Oregon Badlands areas 
have been held as WSA's since 1980. While I believe these areas 
are worthy of wilderness designation, some of the WSA's simply 
are not and are being locked away from those who are making 
their living off the land.
    I would plead with conservation groups to stop the 
litigation. There is an accommodation that can be found here. 
Wilderness is different than WSA. Some should be wilderness. We 
should finish the process, but this limbo that leaves cattlemen 
and everyone dissatisfied I think really deserves some kind of 
conclusion. Otherwise, I am left with little recourse but to 
respond with legislation to maintain cattle grazing at levels 
consistent with the land's capacity.
    Also before the committee today, I am fully supportive of 
the Gray Wolf Livestock Loss Mitigation Act. Oregon's 
Department of Fish and Wildlife has a wolf management plan in 
place and ready to implement pending further State legislative 
action. The Federal plan proposed by Senators Tester and 
Barrasso is similar to the Oregon plan, including a 
compensation component for livestock owners whose animals are 
destroyed by wolf predation.
    So I fully support the Senators' work on the gray wolf act, 
and I would like to encourage the geographic expansion of this 
legislation. In its current form, the bill covers Montana, 
Wyoming, and Idaho. The successful recovery of gray wolves, 
however, has expanded their habitat boundary into eastern 
Oregon and eastern Washington. I believe we have an obligation 
to protect not only the declining species, but also the 
ranching families who make their living off the land of this 
great country.
    Once again, I would like to thank all of the parties who 
have assisted in crafting these bills, and I look forward to 
shepherding their refinement and their passage with Senator 
Wyden.
    Senator Wyden. Senator Smith, thank you, and we will be 
working together on these bills.
    Let us go to Senator Salazar.

          STATEMENT OF HON. KEN SALAZAR, U.S. SENATOR 
                         FROM COLORADO

    Senator Salazar. Thank you very much, Chairman Wyden, for 
holding this hearing.
    I want to simply state my appreciation to Chairman Bingaman 
and to Senator Allard for their support of 2799. The abandoned 
mine land issue is a major issue for us in the western States. 
In Colorado alone, we have some 17,000 abandoned mines, and 
action needs to be taken on them. Under the current 
interpretation of the Department of the Interior, we cannot 
access those funds in the State of Colorado, and the same is 
true for many of our western States, including New Mexico. So I 
am here just to voice my support for that legislation.
    I also would like to enter into the record a letter of June 
6, 2007, which was signed by Senator Bingaman, Senator 
Domenici, Senator Allard, Senator Hatch, and myself, as well as 
other Senators whose names I cannot read, and ask that this 
letter of June 6 be included as part of the record.
    Senator Wyden. Without objection, that will be ordered.
    [The information referred to follows:]

                                               U.S. Senate,
                                      Washington, DC, June 6, 2007.
Hon. Dirk Kempthorne,
Secretary, U.S. Department of the Interior, 1849 C Street, N.W., 
        Washington, DC.
    Dear Secretary Kempthome: We are writing to voice our serious 
concern over what we understand is a proposed interpretation by the 
Office of Surface Mining Reclamation and Enforcement (OSM) of certain 
provisions relating to the Abandoned Mine Land (AML) Program contained 
in the Tax Relief and Health Care Act of 2006. That law reauthorized 
collection of the AML fee and made certain modifications to the AML 
program. While we strongly support the AML program, we are concerned 
that OSM may interpret the new law in a manner that would prevent 
certain western states from addressing some of the most significant 
problems relating to abandoned mines--those involving abandoned non-
coal mines.
    Section 409 of the Surface Mining Control and Reclamation Act 
(SMCRA), provides that states may address public health and safety 
hazards at abandoned mine sites, both coal and non-coal. Western states 
such as New Mexico, Colorado, and Utah, have prioritized the use of AML 
funds to undertake the most pressing reclamation work on both coal and 
non-coal mine sites. While these activities consume a relatively 
insignificant piece of the funding provided for the overall AML 
program, the results in terms of the public health and safety in these 
states is considerable. There is significant work yet to be done. For 
example, we understand that New Mexico alone has over 10,000 remaining 
mine openings with a vast majority of these being non-coal, and that 
all fatalities there in the last few decades have been at non-coal mine 
sites.
    We understand that OSM, nevertheless, is seriously considering an 
interpretation of the recently-enacted amendments to SMCRA that would 
prevent western, non-certified states from using for non-coal work 
their historic state share and the payments comprising their previously 
unappropriated balances. We believe this interpretation is in error. 
First, it disregards the fact that section 409 was left unamended by 
the Congress. Furthermore, this interpretation is inconsistent with 
assurances repeatedly given to us by OSM during the consideration of 
the legislation that non-coal work could continue to be undertaken with 
these AML funds. Finally, the interpretation apparently being 
considered by OSM would have the unacceptable result of requiring these 
states to devote funds to low priority coal sites while leaving 
dangerous non-coal sites unaddressed.
    A fair reading of the recently-enacted amendments allows the use of 
AML funds, including historic and unappropriated balance allocations, 
for high priority non-coal sites in these uncertified western states. 
We strongly urge you to adopt this interpretation.
            Sincerely,
                                             Jeff Bingaman,
                                                      U.S. Senator.
                                             Pete Domenici,
                                                      U.S. Senator.
                                               Ken Salazar,
                                                      U.S. Senator.
                                              Wayne Allard,
                                                      U.S. Senator.
                                         Robert F. Bennett,
                                                      U.S. Senator.
                                               Orrin Hatch,
                                                      U.S. Senator.

    Senator Salazar. Thank you, Mr. Chairman.
    Senator Wyden. I thank the Senator.
    Senator Kyl is on his way, but I think in the interest of 
time, let us go forward and have the Administration panel come 
up. I do want to make clear that when Senator Kyl gets here, we 
will recognize Senator Kyl.
    Alice Williams, Associate Administrator for Infrastructure 
and Environment, National Nuclear Security Administration, 
Department of Energy; Michael Nedd, Assistant Director of 
Minerals and Realty Management, Bureau of Land Management, 
Department of the Interior; and Joel Holtrop, Deputy Chief of 
the National Forest System of the Forest Service, Department of 
Agriculture. Why do you three not come on up?
    I am going to make your prepared statements a part of the 
record, and I always try--Mr. Holtrop has heard me say this--to 
see if I can persuade people to just summarize their principal 
concerns and it will save some time along the way. So if I can 
persuade you all to do that, extra points awarded for that.
    Ms. Williams, welcome, and please proceed.

   STATEMENT OF ALICE WILLIAMS, ASSOCIATE ADMINISTRATOR FOR 
   INFRASTRUCTURE AND ENVIRONMENT, NATIONAL NUCLEAR SECURITY 
              ADMINISTRATION, DEPARTMENT OF ENERGY

    Ms. Williams. Thank you, Chairman Wyden, Ranking Member 
Barrasso, and distinguished members of the subcommittee. Thank 
you to Chairman Bingaman and Mr. Domenici for introducing the 
legislation.
    My name is Alice Williams. I am the Associate Administrator 
for Infrastructure and Environment at the National Nuclear 
Security Administration of the Department of Energy.
    I appreciate the opportunity to testify today on S. 3179, a 
bill to convey approximately 135 acres of land currently under 
the jurisdiction of the Secretary of the Air Force but leased 
to the Secretary of Energy and the DOE improvements on that 
land to the Lovelace Respiratory Research Institute. S. 3179 
also directs the change in administrative jurisdiction of 
another approximately 7 acres of land from the Secretary of 
Energy to the Secretary of the Air Force.
    The Department supports both elements of S. 3179.
    The Inhalation Toxicology Laboratory, formerly known as the 
Inhalation Toxicology Research Institute, is located within the 
boundaries of Kirtland Air Force Base in Bernalillo County, New 
Mexico. The facility served an important role from 1960 to 1996 
as a Government-owned, contractor-operated laboratory 
performing research for the DOE and its predecessor agencies on 
the effects of inhalation of hazardous substances.
    In 1996, the Department determined that the facility was no 
longer required for its mission. In an effort to continue its 
productive use for research and to mitigate the economic impact 
that closing the facility would have on the Albuquerque 
community, the facility was placed under long-term lease to the 
Lovelace Respiratory Research Institute, which has operated it 
for the U.S. Government since its inception.
    Should I continue?
    Senator Wyden. Why do we not do this, Ms. Williams? Why do 
you not finish your statement, because I know you were going to 
take 5 minutes, and Senator Kyl is a very gracious soul. When 
you are done with your statement, then we will go right to 
Senator Kyl.
    Ms. Williams. Thank you.
    S. 3179 provides for the completion of the privatization of 
this facility by transferring the real property and 
improvements from the Federal Government to the Lovelace 
Respiratory Research Institute. The bill specifies that the 
property and facilities must be used for the continuation of 
their current research, scientific, or educational purposes.
    S. 3179 further requires that Lovelace Respiratory Research 
Institute will take title to the property as contaminated, 
regardless of whether that contamination originated from past 
Government operations, and conduct any and all environmental 
remediation that might be required in the future. The 
assumption of this responsibility provides for a significant 
benefit to the taxpayer by transferring an estimated liability 
in excess of $20 million in decontamination and demolition 
costs for a facility that is excess to the Department's 
mission.
    Finally, S. 3179 directs the change in administrative 
jurisdiction of another approximately 7 acres of land from the 
Secretary of Energy to the Secretary of the Air Force. This 
property is no longer required by the Department, and we 
support its transfer for beneficial use to the Department of 
the Air Force.
    Thank you for the opportunity to testify, and as 
appropriate, I will be happy to address questions.
    [The prepared statement of Ms. Williams follows:]

   Prepared Statement of Alice Williams, Associate Administrator for 
       Infrastructure and Environment, National Nuclear Security 
            Administration, Department of Energy, on S. 3179

    Thank you Chairman Wyden, Ranking Member Barrasso and distinguished 
members of the subcommittee, and thank you to Chairman Bingaman and Mr. 
Domenici for introducing this legislation. My name is Alice Williams. I 
am the Associate Administrator for Infrastructure and Environment at 
the National Nuclear Security Administration of the Department of 
Energy (DOE). I appreciate the opportunity to testify today on S. 3179, 
a bill to convey approximately 135 acres of land currently under the 
jurisdiction of the Secretary of the Air Force but leased to the 
Secretary of Energy, and the DOE improvements on that land to the 
Lovelace Respiratory Research Institute (LRRI). S. 3179 also directs 
the change in administrative jurisdiction of another approximately 7 
acres of land from the Secretary of Energy to the Secretary of the Air 
Force.
    The Department of Energy supports both elements of S. 3179.

                               BACKGROUND

    The Inhalation Toxicology Laboratory, formerly known as the 
Inhalation Toxicology Research Institute, is located within the 
boundaries of Kirtland Air Force Base in Bernalillo County, New Mexico. 
This facility served an important role from 1960 to 1996 as a 
government-owned, contractor-operated laboratory performing research 
for the DOE and its predecessor agencies on the effects of inhalation 
of hazardous substances. In 1996, the Department determined that the 
facility was no longer required for its mission. In an effort to 
continue its productive use for research, and to mitigate the economic 
impact that closing the facility would have on the Albuquerque 
community, the facility was placed under long-term lease to the 
Lovelace Respiratory Research Institute, which had operated it for the 
United States government since its inception.
    This ``privatization initiative'' has been a significant success. 
The facility now has gross revenues exceeding $50M and provides 
employment for more than 500 workers in the Albuquerque area. The 
facility enjoys a very positive technical reputation for its work in 
inhalation toxicology supporting both the private and public sector.

                                S. 3179

    S. 3179 provides for the completion of the privatization of this 
facility by transferring the real property and improvements from the 
federal government to the LRRI. The bill specifies that the property 
and facilities must be used for a continuation of their current 
research, scientific or educational purposes. S. 3179 further requires 
that LRRI will take title to the property ``as contaminated'' 
regardless of whether that contamination originated from past 
government operations and conduct any and all environmental remediation 
that might be required in the future. The assumption of this 
responsibility provides for a significant benefit to the taxpayer by 
transferring an estimated liability in excess of $20 million dollars in 
decontamination and demolition costs for a facility that is excess to 
the Department's Mission.
    Finally, S. 3179 directs the change in administrative jurisdiction 
of another approximately 7 acres of land from the Secretary of Energy 
to the Secretary of the Air Force. This property is no longer required 
by the Department and we support its transfer for beneficial use to the 
Department of the Air Force.
    Thank you for the opportunity to testify. I would be happy to 
answer any questions.

    Senator Wyden. Ms. Williams, thank you.
    Senator Kyl, I know you are very busy as a member of the 
Republican leadership, and please proceed.

      STATEMENT OF HON. JON KYL, U.S. SENATOR FROM ARIZONA

    Senator Kyl. Thank you, Mr. Chairman. Just for the benefit 
of everyone here, we are right in between some votes, and I 
really appreciate the four of my colleagues being here to hear 
these important witnesses on these matters.
    I am testifying about the Southwest Arizona Land Exchange 
and Conservation Act. I just want to say three quick things 
about this legislation.
    We know that our copper needs in this country are going to 
increase exponentially, especially if we can produce more 
things like hybrid vehicles and other things which require more 
copper for electrical use. There has been a find in Arizona 
that is almost unsurpassed perhaps in the history of the United 
States with respect to copper, and I say that with some 
trepidation knowing that there is a lot of copper produced in 
the State of Montana as well, but this is huge.
    Part of the problem is that there is some public land 
overlaying this. That gets to part two, the benefit to the 
public of being able to acquire some extraordinary lands 
currently private that would be put into public use. These 
lands have tremendous environmental value, and rather than just 
listing them and so on, I will refer them. Your staff is well 
aware of them. Just a couple of examples.
    More than 2 miles of a perennial trout stream on East Clear 
Creek. I have been there. It is beautiful country, very 
important in our State that does not have very many perennial 
streams.
    Almost 7 miles of land spanning both sides of the lower San 
Pedro. This is the last totally flowing river in the State of 
Arizona. It has got to be preserved. There are a lot of efforts 
underway to preserve it. This is part of those efforts. There 
are some ranches, some inholdings in the Tonto National Forest, 
and so on.
    But the bottom line is that this mine, which does have to 
have a land exchange involved in it, offers us a wonderful 
opportunity to acquire these environmentally sensitive lands as 
well.
    Incidentally, this mine that I speak of could have a total 
economic impact of more than $50 billion. That is just how big 
this thing is.
    The third I want to mention is that when we first 
introduced this bill, despite the best efforts of all of the 
people in Arizona working on it--and there is virtual total 
unanimity among the leaders in the State of Arizona to support 
this, and they thought they had every single problem that could 
conceivably be brought up worked out. That is where the staffs 
of the minority and majority of this committee come in. They 
are really good at finding other things that need to be 
addressed, and the truth of the matter is there were a lot of 
serious questions that were asked by your staffs that have now 
been addressed. I think the best way for me to have you confirm 
that is just talk to your staff.
    We basically took a lot of their recommendations in 
incorporating changes into the legislation. They involved three 
specific areas, one relating to NEPA. I mean, there can be no 
question that there has to be NEPA analysis in connection with 
this, and there has been basically a belt and suspenders put on 
that in the legislation.
    There was a question of market value because this copper is 
so deep into the ground, it is hard to know right now what the 
real value is and, therefore, how much land exchange you do. 
Built into this now is essentially a provision of whatever that 
value turns out to be, that is what the Government is going to 
get. There will be a value adjustment for the benefit of the 
Government. From my standpoint, that is a good thing for this 
bill because we can better assure our taxpayer constituents 
that they are going to get their money's worth no matter what, 
however it turns out the value of this is.
    Then finally, there were some questions about a State park 
and climbing opportunities for mountain climbers--rock 
climbers, rather. I believe those issues have now all been 
worked out.
    So we changed the legislation originally introduced in 
those three respects, again pursuant primarily to 
recommendations of staff. I think it has made it a better bill. 
It certainly has provided a unanimous or nearly unanimous point 
of view among all of the key stakeholders in Arizona. I am 
really hopeful because a lot rides on how quickly we can do 
this in terms of the financial commitment to develop the mine 
that we can complete this legislation this year. It is really 
critical that we be able to move it forward quickly.
    Therefore, I very appreciate, Mr. Chairman, your holding 
this hearing and pledge to work with you if there are any other 
questions or issues that arise that we need to deal with. Thank 
you.
    Senator Wyden. Senator Kyl, we will work very closely with 
you, and we will make sure that it is bipartisan, that all the 
staff is involved and that we do it quickly.
    Senator Kyl. Great. Thank you very, very much, and I 
appreciate your attention. Thank you, colleagues, for letting 
me interrupt here.
    Senator Wyden. Let us go now to Mr. Holtrop.

   STATEMENT OF JOEL HOLTROP, DEPUTY CHIEF, NATIONAL FOREST 
       SYSTEM, FOREST SERVICE, DEPARTMENT OF AGRICULTURE

    Mr. Holtrop. Mr. Chairman and members of the committee and 
subcommittee, thank you for inviting me to provide the 
Department of Agriculture's views on S. 3157. You have my full 
statement for the record and this afternoon I will summarize 
our views on provisions that relate to National Forest System 
lands.
    S. 3157 is a complex land exchange bill that directs the 
Secretary of Agriculture to convey to Resolution Copper Mining 
Company lands and interests in the Tonto National Forest, 
Arizona, in exchange for private lands and funds to acquire 
additional lands in the State of Arizona for management by the 
U.S. Forest Service and the Bureau of Land Management.
    Because this proposed exchange would result in the 
protection of lands that have outstanding natural qualities, as 
Senator Kyl just expressed, the Department supports the 
exchange and believes that overall it is in the public 
interest.
    We provided testimony last November on a similar bill, and 
we understand that S. 3157 reflects modifications in response 
to various concerns and we appreciate these changes. However, 
some concerns remain and we have some new concerns which I will 
highlight.
    A new provision adds a 95-acre parcel called The Pond, 
which would be conveyed to the Department of Agriculture. Rock 
climbers currently use this area, and it could serve as an 
alternative for those displaced from climbing areas that would 
be conveyed to Resolution Copper. While we agree this offers an 
attractive site for climbers, it lacks access and 
infrastructure for public use. This includes safe parking, 
pedestrian access, and sanitary facilities, and we would like 
to work with the subcommittee to amend the bill to require that 
improvements be completed prior to the parcel's conveyance.
    This bill includes a new provision that specifies which 
pre-exchange processing tasks are to be done, including land 
survey and various reviews. It requires the exchange to be 
completed within 1 year. We still believe this is an 
insufficient time to complete all the work necessary to 
complete the exchange. This includes development and review of 
a mineral report, completion of appraisals and surveys, 
verification of title documents, and the many specified 
clearances, reviews, and consultation with Indian tribes.
    Another new provision directs the Secretary to complete an 
environmental impact statement post-exchange, but prior to 
commencing mineral production regarding any Federal agency 
action carried out relating to commercial production. The bill 
does not specify which party would be responsible for the costs 
of these provisions and our support is contingent upon the 
requirement that Resolution Copper would be responsible for 
these costs.
    We are concerned about provisions of section 5 regarding 
failure of the parties to agree on the value of any parcel. The 
bill would require that disputes be resolved through binding 
arbitration procedures found in a section of the Federal Land 
Policy and Management Act of 1976. That section, however, is 
intended for discretionary exchanges. Accordingly, we believe 
that the bill should be amended to more specifically address 
applicable options.
    S. 3157 includes a new provision that would require a 
payment to the United States should actual mineral production 
exceed the projected production from the appraisal. The 
Administration generally supports this approach but would like 
to work with the subcommittee to clarify specific intent and 
implementation procedures, as well as the disposition of 
receipts.
    The bill directs the Secretary to design and construct one 
or more campgrounds to replace the Oak Flat Campground. We 
appreciate that changes have been made to this provision based 
on previous testimony. We still believe, however, it will be 
difficult to find a suitable replacement site. The funding 
cited in the bill remains insufficient and it may be difficult 
to construct a replacement campground within 4 years. We would 
like to work with the subcommittee to consider alternatives.
    This concludes my statement, and I would be happy to answer 
any questions you may have.
    [The prepared statement of Mr. Holtrop follows:]

   Prepared Statement of Joel Holtrop, Deputy Chief, National Forest 
     System, Forest Service, Department of Agriculture, on S. 3157

    Mr. Chairman and members of the Subcommittee, thank you for the 
opportunity to appear before you today to provide the Department of 
Agriculture's view on S. 3157, the ``Southeast Arizona Land Exchange 
and Conservation Act of 2008.''
    I will limit my remarks to the provisions of the bill directly 
related to National Forest System (NFS) lands and will defer to the 
Department of the Interior on provisions relating to the lands managed 
by the Bureau of Land Management (BLM).
    S. 3157 is a complex land exchange bill that directs the Secretary 
of Agriculture to convey to Resolution Copper Mining, LLC (Resolution 
Copper) certain lands and interests in the Tonto National Forest, 
Arizona, in exchange for private lands and funds to acquire additional 
lands in the State of Arizona for management by the Forest Service and 
the Bureau of Land Management.
    The Department believes that the acquisition of the non-federal 
parcels to be managed as part of the NFS would provide protection for 
riparian habitat and water rights, archeological sites, two miles along 
a permanently flowing trout stream, a year round pond and an endangered 
cactus species. The Department provided testimony last November on a 
similar bill, H.R. 3301, and we understand that S. 3157 reflects 
modifications to that bill in response to various concerns. We 
appreciate these changes. However, some concerns remain and we have 
some new concerns regarding the new provisions in this bill. In this 
context, the Department supports the exchange as well as the valuation 
provisions, and believes it is in the public interest, although some 
concerns remain regarding the overall bill.
    The bill directs the exchange of a 3,025-acre parcel referred to as 
the ``Oak Flat'' parcel from the United States for nine parcels of land 
owned by Resolution Copper, six of which would be conveyed to the 
Department of Agriculture: the 147-acre Turkey Creek parcel in Gila 
County; the 148-acre Tangle Creek parcel in Yavapai County; the 149.3-
acre Cave Creek parcel in Maricopa County; the 266-acre JI Ranch parcel 
the 95-acre parcel referred to as The Pond in Pinal County (all located 
within the Tonto National Forest); and the 640-acre East Clear Creek 
parcel in Coconino County located within the Coconino National Forest.
    As a condition of the exchange, the bill requires Resolution Copper 
to convey a 695-acre conservation easement for the Apache Leap 
escarpment on lands to be conveyed from the United States to Resolution 
Copper. This conservation easement, which would be held by a qualified 
unit of government, an Indian tribe, a land trust or certain other 
organizations, would provide permanent protection for the parcel from 
surface disturbance and ensure future public access and use.
    S. 3157 also directs the Secretary of Agriculture to convey to the 
Town of Superior, upon the Town's request, the 30-acre town cemetery 
and approximately 181 acres adjacent to the Superior airport. In 
addition, upon request by the Town, the Secretary shall convey the 
reversionary interest and any reserved mineral interest in the 265-acre 
Superior airport site already owned by the Town.
    S. 3157 includes the 95-acre parcel called The Pond that was not a 
part of H.R. 3301, which would be conveyed to the Department of 
Agriculture. We understand that this area is currently used by rock 
climbers and could accommodate those who are displaced from current 
climbing areas that would be conveyed to Resolution Copper. While the 
Forest Service agrees that this would be an attractive site for 
climbers, it lacks the access and infrastructure to accommodate public 
use, such as safe parking, pedestrian access, and sanitary facilities. 
We would like to work with the Subcommittee and the bill's sponsor to 
amend the bill to require such accommodations be completed prior to the 
conveyance of the parcel to the Secretary.
    If the value of the Federal land to be exchanged exceeds that of 
the non-Federal land in the specified 9 parcels, section 5(b) of the 
bill requires that Resolution Copper make a cash equalization payment. 
The payment may be greater than the 25 percent limit imposed by Section 
206 of the Federal Land Policy and Management Act of 1976 (43 U.S.C. 
1716(b). All cash equalization funds are to be deposited into the 
Federal Land Disposal Account and could be used for either 1) 
acquisition of additional lands from willing sellers within the 
hydrographic boundary of the San Pedro River within a 2-year period 
from the date of the deposit or 2) the management and protection of 
endangered species and other sensitive land or environmental values in 
the San Pedro Riparian National Conservation Area.
    It is our understanding that upon completion of the land exchanges 
described above, Resolution Copper would explore developing a very deep 
copper mine beneath the Oak Flat parcel.
    Section 4(d) of the bill requires that the exchange contemplated by 
S. 3157 will be completed within one year. The Department believes that 
this is insufficient time to complete all the work necessary to 
complete the exchange, including the development and review of a 
mineral report, completion of appraisals and surveys, verification of 
title documents, and the many environmental clearances, reviews, and 
the consultation with Indian Tribes required under various laws, 
regulations, and policy, as outlined in section 4(e).
    Section 4(g) is a new provision not in H.R. 3301 that requires pre-
exchange processing including land survey and specified reviews that 
are normally done in the course of a land exchange. Section 4(h) 
directs the Secretary to complete an environmental impact statement 
post-exchange but prior to commencing mineral production regarding any 
Federal agency action carried out relating to commercial production. 
The bill does not specify which party would be responsible for the 
costs of these provisions. The Department's support is contingent upon 
the clarification section 4(e) to require that Resolution Copper would 
be responsible for these costs.
    We are concerned about the provisions of section 5(a)(3) regarding 
the failure of the parties to agree on the value of any parcel. As 
written, the bill would require that a dispute would be resolved 
through binding arbitration procedures pursuant to section 206(d) of 
FLPMA. However, section 206(d) is intended for discretionary exchanges. 
Accordingly, we believe section 5(a)(3) of the bill should be amended 
to more specifically address those options in section 206(d) of FLPMA 
that would be applicable to this exchange. We would like to work with 
the Subcommittee and the bill's sponsor to amend section 5(a)(3) 
accordingly.
    S. 3157 includes a provision in Section 10 that would require a 
payment to the United States should the cumulative production of 
locatable minerals exceed the projected production used in the 
appraisal required by section 5(a)(4)(B). This provision recognizes 
that an accurate projection of future production will be difficult to 
develop, and provides a mechanism for additional payments to the United 
States should actual production exceed the projected production. The 
Administration generally supports this approach but would like to work 
with the committee to clarify the specific intent and implementation 
procedures, as well as the disposition of receipts.
    We object to the language in Section 10(b)(2) that makes funds from 
potential mineral revenue payments available for expenditure without 
further appropriation. This provision is meant to ensure that the 
government is fairly compensated in the event that the valuation 
process underestimates the amount of mineral resource that is 
ultimately recovered, and we support this objective. However, the 
legislation addresses the exchange of lands with mineral interests, the 
value of which may not be fully realized until long after the exchange 
has taken place. We would like to work with the committee to ensure 
that the bill deposits the receipts into the Treasury, subject to 
future appropriation.
    If the final appraised value of the non-Federal land exceeds the 
value of the Federal land, Section 5(d) reduces the Town's payment for 
land it elects to purchase from the Secretary by an amount equal to the 
difference in the values. We would like to work with the committee to 
ensure that the taxpayer receives full fair market value in the sale to 
the Town, in keeping with long-standing policy.
    Section 8(a) directs the Secretary to design and construct one or 
more campgrounds, including access routes, on the Globe Ranger District 
of the Tonto National Forest within four years to replace the Oak Flat 
campground. We appreciate that changes have been made to this provision 
based on previous testimony on H.R. 3301, to double the amount of 
funding and time to accomplish this task. However, concerns remain. We 
still believe it will be difficult to find a suitable replacement site 
within the Globe Ranger District, the funding cited in the bill remains 
insufficient to construct a new campground to current standards, and 
construction of a replacement campground within 4 years may be 
difficult to accomplish. One alternative to constructing a replacement 
campground would be to add to or upgrade existing campgrounds on the 
Globe Ranger District. We would like to work with the Subcommittee and 
the bill's sponsor to address our concerns.
    Section 8(b) also was added to address concerns raised in our 
testimony on H.R. 3301, but concerns remain regarding this provision as 
well. This section provides an interim period for the Forest Service to 
retain title to, operate, and maintain Oak Flat Campground. Due to the 
complex nature of this exchange, we are concerned that the completion 
of the land exchange could be delayed. We interpret the bill as 
requiring the Secretary to deed the campground and revoke the mineral 
withdrawal only if the land exchange is completed. We would like to 
work with the Subcommittee and bill sponsor to clarify this language.
    Finally, we would like to work with the Subcommittee and bill's 
sponsor to address some technical issues with the bill and to ensure 
that the maps described in the bill accurately reflect bill language, 
and are referenced and dated properly.
    This concludes my statement and I would be happy to answer any 
questions you may have.

    Senator Wyden. Mr. Holtrop, thank you.
    Let us go next to you, Mr. Nedd.

STATEMENT OF MICHAEL NEDD, ASSISTANT DIRECTOR, MINERALS, REALTY 
AND RESOURCE PROTECTION, BUREAU OF LAND MANAGEMENT, DEPARTMENT 
 OF THE INTERIOR; ACCOMPANIED BY DANNY LYTTON, CHIEF, DIVISION 
OF RECLAMATION SUPPORT, OFFICE OF SURFACE MINING; AND ED BANGS, 
 WOLF RECOVERY COORDINATOR, FISH AND WILDLIFE SERVICE, MONTANA

    Mr. Nedd. Mr. Chairman and members of the committee and 
subcommittee, thank you for inviting me to testify on seven 
bills of interest to the Department of the Interior. Because 
there are so many bills before us, I will very briefly 
summarize the Administration's position on each of these and 
ask that our entire statement be made part of the record.
    Senator Wyden. Without objection, that will be done.
    Mr. Nedd. The Department supports with minor modification 
S. 2443 and H.R. 2246 which release any reversionary interest 
of the Federal Government to lands granted to Union Pacific 
under the act of 1862 within a 2-mile subsurface railroad 
corridor in Reno, Nevada. We believe this bill takes the 
correct approach to clarify any potential land title question 
that could result from placing this section of railway below 
grade.
    S. 2779 amends the Surface Mining Control and Reclamation 
Act of 1977 to authorize States and Indian tribes that have not 
certified completion of their coal-related abandoned mine land 
problems to expend funds received under section 411(h)(1) on 
noncoal-related AML problems. The Department is concerned that 
the bill would ultimately delay coal-related health and safety 
reclamation work that is a priority to ensure the health and 
safety of people who live in or near our national historic coal 
fields.
    Danny Lytton, Chief, Division of Reclamation Support with 
the Office of Surface Mines, is accompanying me today and will 
be happy to answer any questions the subcommittee may have on 
S. 2779.
    The Administration opposes S. 2875, the Gray Wolf Livestock 
Loss Mitigation Act of 2008. Ed Bangs, Wolf Recovery 
Coordinator with the Fish and Wildlife Service out of Montana, 
is accompanying me today and will be happy to answer any 
questions the subcommittee may have on S. 2875.
    S. 2898 and H.R. 816 release 65 acres of public land within 
the Sunrise Mountain Instant Study Area to provide for 
construction of a flood control project. The BLM supports S. 
2898 and H.R. 816, but we recommend amending the legislation to 
release the entire ISA from interim management of its 
wilderness value so that the land can be managed for other 
multiple use and under existing conservation agreements for the 
area.
    The Department generally supports S. 3088, the Oregon 
Badlands Wilderness Act, and S. 3089, the Spring Basin 
Wilderness Act. Both of these bills designate public lands in 
Oregon as wilderness and provide for related land exchanges. 
However, we would like the opportunity to work with the sponsor 
and the committee to make modification to some of the land 
exchanges, as well as some of the management and technical 
improvements to both bills.
    In general, the Department of the Interior supports the 
efforts of congressional delegations to resolve wilderness 
issues in their States. Congress has the sole authority to 
designate land to be managed as wilderness and we have 
repeatedly urged that these issues be addressed legislatively.
    The Department supports the principal goal of S. 3157, the 
Southeast Arizona Land Exchange and Conservation Act, though in 
general we defer to the United States Forest Service on issues 
directly related to National Forest Service System lands and 
associated validation issues. We appreciate that a number of 
changes have been made to the legislation in response to 
concerns raised in previous testimony. However, we would like 
the opportunity to continue to work with the sponsor and the 
committee on a number of additional modifications to the 
legislation.
    Thank you for the opportunity to present the 
Administration's position on these bills. I would be glad to 
answer any questions.
    [The prepared statements of Mr. Nedd follow:]

  Prepared Statements of Michael Nedd, Assistant Director, Minerals, 
 Realty and Resource Protection, Bureau of Land Management, Department 
                            of the Interior

                           S. 2443, H.R. 2246

    Thank you for inviting me to testify on S. 2443, a bill to release 
any reversionary interest of the United States in and to certain lands 
located in Reno, Nevada. During consideration of similar legislation on 
October 23, 2007 before the House Natural Resources Committee, 
Subcommittee on National Parks, Forests and Public Lands, we testified 
that we believed the goals of the House bill could be accomplished in a 
more simplified manner. The House-passed bill, H.R. 2246 and S.2443 are 
identical bills that partially address our recommendations. The BLM 
appreciates the work of the sponsors in crafting these bills and we 
support S.2443 with a minor modification.
Background
    In the mid-19th century, the Congress sought to encourage the 
development of the West by providing incentives for transcontinental 
railroads. Among those incentives was the Act of July 1, 1862, 
authorizing a transcontinental railroad to be built by the Union 
Pacific Railroad and Telegraph Company. As part of that authorization, 
the railroad was granted a right-of-way across public lands. One small 
piece of that right-of-way is addressed in S. 2443.
    A portion of the Union Pacific rail line authorized under the 1862 
Act runs through downtown Reno, Nevada. As an active rail line, there 
was increasing concern about safety and traffic flow issues. The city 
of Reno found a creative solution in the form of the ReTrac (Reno 
Transportation Rail Access Corridor) project, and in late 2005, the 
first trains began to run on a 2-mile long, 54-foot wide, 33-foot deep, 
train trench through downtown Reno. Unfortunately, there have been some 
questions raised about whether the right-of-way given to the railroad 
under the 1862 Act is affected by the subsurface nature of these two 
miles of line. In addition, it is unclear whether the Federal 
government retains a reversionary interest in the corridor.
S. 2443
    S. 2443 would resolve these questions by releasing any reversionary 
interest of the Federal government to lands granted to Union Pacific 
under the Act of 1862 within the subsurface corridor. We would like the 
opportunity to work with the sponsor and the committee on minor 
modifications to the map so that the reversionary clause would only be 
released on those lands within the subsurface corridor. We believe this 
bill applies the correct approach to clarifying any potential land 
title questions to this 2 mile subsurface railroad corridor.
    Thank you for the opportunity to testify. I would be happy to 
answer any questions.

                                S. 2875

    Thank you for the opportunity to present the Administration's views 
on S. 2875, the ``Gray Wolf Livestock Loss Mitigation Act of 2008''. 
For the reasons outlined below, the Administration opposes this 
legislation.
Background
    On February 27, 2008, the U.S. Fish and Wildlife Service (Service) 
published a final rule to remove the gray wolf population in the 
northern Rocky Mountains from the Federal list of threatened and 
endangered species. In doing so, the Service announced that the wolf 
had exceeded its numerical, distributional, and temporal recovery goals 
every year since 2002, and that the States of Montana, Idaho, and 
Wyoming had made strong commitments to maintain wolf populations well 
above minimum recovery levels. The delisting was effective March 28, 
2008.
    Since the time of its reintroduction, wolf depredation of livestock 
has been a concern among some landowners and grazing permittees. The 
Service, Tribes, State fish and wildlife agencies in Montana, Idaho, 
and Wyoming, and USDA Wildlife Services currently work together to 
investigate and respond to reports of suspected wolf damage to 
livestock. The States and Tribes have signed cooperative management 
agreements with USDA Wildlife Services to assist them with wolf 
management. The States also have laws to protect private property from 
damage caused by wildlife that are similar to the Federal experimental 
population regulations that were in effect while wolves were listed. 
Under those laws, landowners and grazing permittees will be able to 
shoot wolves attacking or molesting their domestic animals, just as 
they now can shoot resident black bears or mountain lions that are seen 
attacking or harassing their livestock.
    Since 1987, a private group, the Defenders of Wildlife, has paid 
nearly $900,000 for livestock and herding and guarding animals killed 
by wolves in the northern Rocky Mountains. However, it is uncertain if 
that private compensation program will continue now that wolves are 
delisted. Therefore, the States of Montana, Idaho, and Wyoming, as well 
as adjacent states, anticipate that State-administered compensation 
programs for wolf damage will complement or take the place of the 
Defenders program after delisting.
S. 2875
    The ``Gray Wolf Livestock Loss Mitigation Act'' authorizes the 
Secretary of the Interior to provide grants to states and Indian tribes 
to pay a share of the cost of programs to compensate livestock 
producers for actions to reduce the risk of predation and for losses 
due to predation. The bill sets out eligibility requirements, 
provisions for allocation of funding, and provides for a maximum 
Federal cost share of 50 percent.
    In our view, for predator compensation and damage mitigation to be 
effective components of wildlife conservation strategies, such programs 
must seek to accomplish specific goals that contribute to the overall 
strategy. Further, incentives to private landowners must operate on 
clear bases of fact and performance so as to maintain the credibility 
and fairness of expenditures. The program proposed in S. 2875 falls 
short of both these requirements and, because of its broad scope, it 
could also be unacceptably expensive and difficult to implement. As 
wolf management is now a matter for the State governments, whether and 
how to use compensation programs to advance State management goals is 
most appropriately for State governments to decide. We are concerned, 
however, that the proposed program would privilege for Federal cost-
sharing purposes a particular approach, financial compensation for 
damage, to a specific conservation issue, human-predator conflict, 
regardless of the conservation priorities identified by the States.
    Another of the Administration's major concerns with the legislation 
is its broad scope, which would cover a wide range of predatory species 
and livestock losses. The bill defines a ``predatory species'' as 
``gray wolves, grizzly bear, and other predatory species, as determined 
by the Secretary.'' Other predators that cause livestock damage could 
include mountain lion, golden eagle, black bear, coyote, fox, and many 
types of predatory birds. In the Northern Rocky Mountains of Montana, 
Wyoming, and Idaho alone, the Service estimates that there are over 
1,000 grizzly bears, several thousand mountain lions and golden eagles, 
and tens of thousands of black bear, coyotes, fox, and raptors. All of 
these animals are capable of causing livestock losses due to predation, 
or necessitating some type of preventative measure that reduces the 
risk of livestock loss.
    Because compensation programs generally require a rapid on-site 
inspection and physical confirmation of the purported damage by 
professional independent observers, such a broad program would result 
in a significant workload for the agency administering the program. In 
addition, the program would require Federal oversight and management of 
some predatory species that are currently under state management, such 
as mountain lions, black bear, and coyotes. In regard to its geographic 
application, the bill refers specifically to Montana, Wyoming, and 
Idaho, but indicates that it also applies to ``other States and Indian 
tribes as the Secretary determines.'' Because nearly every state 
contains predators that cause livestock damage, the program outlined in 
S. 2875 would potentially have nationwide application.
    Existing programs to compensate and mitigate for damage caused by 
wildlife are varied and exceedingly complex. Although the Federal 
government has worked with states, tribes, and non-governmental 
organizations in order to conduct agency management activities to 
reduce and mitigate the risk of damage to agriculture by wildlife, 
including livestock loss due to wolf predation, it has never provided 
monetary compensation for losses caused by wildlife.
    Numerous state and private compensation and mitigation programs for 
other types of wildlife damage (i.e., in addition to wolves) already 
exist in the United States. Damage caused by other predators such as 
black bears, grizzly bears, mountain lions and wild ungulates is paid 
in Wyoming and Idaho by State-run compensation programs. Other 
compensation programs pay for agricultural damage caused by wildlife 
such as elk and deer (the amount of damage by predators is typically 
much lower than that caused by ungulates or migratory birds). 
Consideration should also be given to whether creating additional 
programs to pay the public for predator damage might increase 
expectations for compensation for damage done by non-predatory wildlife 
as well, or might create incentives to raise livestock in areas with 
predators. In addition, depending on the scope of this bill, wildlife 
agencies in other states may have concerns that a Federal compensation 
program for wildlife damage may compete for limited state match funding 
and may negatively impact funding for higher priority state wildlife 
conservation programs. It is our belief that most states will not have 
the resources to participate in such a program.
    Finally, we note that the program contemplated by S. 2875 would 
support activities that are within the authority of another Federal 
agency rather than within the Service's core mission to work with 
others to conserve, protect, and enhance fish, wildlife, and plants and 
their habitats for the continuing benefit of the American people. Such 
a program could duplicate activities and overlap with other Federal 
agency programs.
    Thank you for the opportunity to testify today. We would be happy 
to answer any questions you might have.

                           S. 2898, H.R. 816

    Mr. Chairman and members of the Subcommittee, thank you for the 
opportunity to testify on S. 2898, the Orchard Detention Basin Flood 
Control Act. S. 2898, which is substantively the same as the House-
passed bill, H.R. 816, would release approximately 65 acres of public 
land within the Sunrise Mountain Instant Study Area (ISA) [now referred 
to as a wilderness study area under Section 603 of the Federal Land 
Policy and Management Act (FLPMA)]. The Sunrise Mountain ISA is located 
on the east side of the Las Vegas Valley and within proximity to Las 
Vegas. The BLM supports S. 2898, but would like to work with the 
Committee on an amendment to the bill.
    The Orchard Basin Detention Project would provide much-needed flood 
control for the eastern portion of the Las Vegas Valley. The project is 
intended to protect the fast-growing Las Vegas area from flooding due 
in part to stormwater drainage. The BLM understands the needs of this 
growing area and supports efforts to protect both the expansion of the 
city and the natural surroundings of the Las Vegas area.
    The Sunrise Mountain ISA includes 10,240 acres of BLM-managed land. 
The ISA lacks wilderness characteristics; it is in a clearly unnatural 
condition and does not offer outstanding opportunities for solitude or 
primitive recreation. Sections of the ISA are affected by numerous off-
highway-vehicle routes and illegal trash dumping, and there are 
remnants of a copper mining operation from the early 1900s. 
Furthermore, a portion of the ISA's western section is adjacent to 
expanding land development that increases the likelihood of further 
disturbances and unauthorized uses of the lands. Releasing the ISA from 
wilderness study status would provide the BLM with additional 
management tools for managing human activities, such as mechanically 
removing litter and fencing off areas to protect sensitive resource 
values. It would also allow the BLM to address other vital management 
issues associated with the long-standing human uses affecting this 
area. Among these issues is the need for an additional storm water 
detention basin that is an essential component of a remediation project 
for the Sunrise Landfill, a hazardous waste site on the ISA's 
southeastern boundary. The proposed detention basin would encroach 
several acres into the ISA.
    The BLM recommends that S. 2898 be amended to release the entire 
ISA (10,240 acres) from interim management of its wilderness values so 
that the lands can be managed for other multiple uses and under 
existing conservation agreements for the area.
    Thank you for the opportunity to testify on S. 2898. We look 
forward to working with the sponsors and the Committee on this piece of 
legislation.

                            S. 3088, S. 3089

    Thank you for inviting me to testify on S. 3088, the Oregon 
Badlands Wilderness Act, and S. 3089, the Spring Basin Wilderness Act. 
Both of these bills designate public lands in Oregon as wilderness and 
provide for related land exchanges. The Bureau of Land Management (BLM) 
generally supports the wilderness designations. We also support most of 
the land exchanges, in principle, however we have several concerns. We 
would like the opportunity to modify the lands identified for exchange. 
We would also like the opportunity to work with the sponsor and the 
Committee to make management and technical improvements to both bills.
    In general, the Department of the Interior supports the efforts of 
Congressional delegations to resolve wilderness issues in their states. 
Congress has the sole authority to designate lands to be managed as 
wilderness and we have repeatedly urged that these issues be addressed 
legislatively.
    The Department is concerned about ensuring that consideration is 
given to energy potential when any legislative proposal for special 
designation is considered. The BLM has reviewed the traditional and 
renewable energy values of the areas proposed for designation, and has 
determined that there is low or no potential for energy development in 
the areas being designated. It is our understanding that there is 
substantial local support for both of these proposed wilderness 
designations. We support efforts to work together in the spirit of 
cooperative conservation to solve local land use issues.
S. 3088, Oregon Badlands Wilderness Act
    The proposed Oregon Badlands Wilderness lies just 15 minutes east 
of the outdoor recreation-oriented community of Bend, Oregon. A trip 
into the Badlands area is an experience of ancient junipers and 
volcanic vistas. Visitors can explore ribbons of volcanic pressure 
ridges or walk narrow moat-like cracks in the ground. Windblown 
volcanic ash and eroded lava make up the sandy, light-colored soil that 
contrasts sharply with fields of lava. A variety of wildlife species 
inhabit the area including yellow-bellied marmots, bobcat, mule deer, 
elk, and pronghorn. The southern portion of the Badlands includes 
important winter range for mule deer. Avian species of local interest 
include prairie falcons and golden eagles.
    S. 3088 proposes to designate nearly 30,000 acres of BLM-managed 
land as wilderness, release approximately 100 acres from Wilderness 
Study Area (WSA) status, and provide for two land exchanges which will 
add additional high resource value private lands to the public land 
estate.
    The Department generally supports the wilderness designation and 
release in S. 3088 and would like to work with the sponsor and the 
Committee on minor boundary adjustments and management language 
modifications as is routine in such proposed designations. Among the 
boundary modifications we would recommend are minor alterations to 
protect adjacent landowner access and the exclusion of trailhead 
parking areas and trailheads from the proposed wilderness.
    We have serious concerns with section 5 of the bill which excludes 
from the wilderness area a 25 feet corridor to accommodate the existing 
use of the route for purposes relating to the training of sled dogs by 
Rachael Scdoris. We applaud the efforts of Ms. Rachael Scdoris, a 
visually-impaired sled dog musher living outside of Bend, Oregon, to 
continue to train her sled dogs. It is our understanding that the 
techniques she uses to train her dogs involve both motorized and 
mechanized transport. The Wilderness Act of 1964 specifically prohibits 
the use of both motorized and mechanized transport in designated 
wilderness. If an exclusion from wilderness designation is going to be 
made by Congress in this single case for Ms. Scdoris, we would like the 
opportunity to work with the sponsor and the Committee to modify the 
language of Section 5. We believe that greater specificity is 
necessary.
    Section 7 provides for land exchanges between the BLM, a private 
party, and the Central Oregon Irrigation District (COID). Section 206 
of the Federal Land Policy Management Act (FLPMA) provides the BLM with 
the authority to undertake land exchanges that are in the public 
interest. Exchanges allow the BLM to acquire environmentally-sensitive 
lands while transferring public lands into private ownership for local 
needs and the consolidation of scattered tracts. In principle, we 
generally support the land exchanges envisioned by S. 3088, and we 
would like the opportunity to work with the sponsor and the Committee 
to address specific concerns.
    The BLM supports the acquisition of the lands described in section 
7(a) (the land exchange with Ray Clarno of Redmond, Oregon) and 7(b) 
(the land exchange with COID). Some of the lands to be acquired are 
within the area proposed for designation of wilderness and others are 
within a Wildlife Connectivity Corridor designated by the BLM in its 
2005 Upper Deschutes Resource Management Plan. The wildlife corridor 
provides important connectivity habitat for pronghorn and other 
wildlife in the area.
    While the BLM could support the exchange out of Federal ownership 
of some of the parcels identified by the legislation, many of these 
lands provide important resource values, including wildlife and 
recreation connectivity. There are alternative public lands within the 
general area that the BLM has identified for disposal which may be more 
appropriate for exchange. We would like the opportunity to work with 
the sponsor to modify the land exchanges envisioned by the bill to 
address these issues.
    We would also like to work with the sponsor and the Committee to 
address more technical issues related to the proposed exchanges, 
including an extension of the current timeframe. Given the nature of 
the work to be accomplished on the proposed exchanges, we anticipate 
that it would take at least three years to complete the exchanges as 
they are currently contemplated. We note that the legislation does 
provide for an equal value exchange and standard appraisal provisions 
consistent with section 206 of FLPMA. We strongly support these 
provisions.

S. 3089, Spring Basin Wilderness Act
    The proposed Spring Basin wilderness area lies just to the east of 
the Congressionally-designated John Day Wild & Scenic River in north 
central Oregon. Numerous vista points give visitors sweeping views of 
the beautiful John Day river valley. Rugged cliffs, remote canyons and 
colorful geologic features give the area a unique beauty. Wildlife 
species in the area include mule deer, golden eagles, prairie falcons, 
bobcats, California quail, meadowlarks, and mountain bluebirds. A 
destination for hunters, hikers, and nature lovers, the proposed Spring 
Basin Wilderness would comprise nearly 8,700 acres if the exchanges 
envisioned in the bill were completed.
    S. 3089 would designate a total of approximately 8,661 acres as the 
Spring Basin Wilderness, including the current 5,982-acre Spring Basin 
WSA. It would also provide for a series of four land exchanges with 
private landowners and the Confederated Tribes of the Warm Springs 
Indian Reservation (CTWSIR). The proposed land exchanges include lands 
that would be included within the proposed wilderness boundary. These 
exchanges would add high resource value lands to Federal ownership 
along the John Day Wild & Scenic River as well as other environmentally 
sensitive lands.
    The Department of the Interior generally supports the wilderness 
designation in S. 3089 and would like to work with the sponsor and the 
Committee on minor boundary adjustments and management language 
modifications as is routine in such proposed designations. Among the 
boundary modifications we would recommend are alterations to protect 
public access to the wilderness area as well as traditional hunting 
camps, current and future trailhead facilities and to provide for 
manageable boundaries. In addition, a possible modification to the 
CTWSIR exchange discussed below would result in further additions to 
the wilderness.
    One of the land exchanges provided for in the bill includes the 
exchange of a small parcel of land out of Federal ownership that is 
currently within the WSA. The legislation should be modified to include 
WSA release language prior to exchange of these lands.
    Section 4 provides for four land exchanges between the BLM, three 
private parties, and the CTWSIR. Section 206 of the FLPMA provides the 
BLM with the authority to undertake land exchanges that are in the 
public interest. Exchanges allow the BLM to acquire environmentally-
sensitive lands while transferring public lands into private ownership 
for local needs and the consolidation of scattered tracts. In 
principle, we support the land exchanges envisioned by S. 3089; however 
we would like the opportunity to work with the sponsor and the 
Committee to address specific concerns. We would note that there may 
potentially be ongoing title issues regarding lands within the bed and 
banks of the John Day River. These issues will need to be resolved 
during the land exchange process.
    Section 4(a) provides for the largest of the four exchanges, 
between the CTWSIR and the BLM. This exchange would bring into Federal 
ownership a large block of land proposed for inclusion within the 
wilderness as well as additional tracts a few miles south of the 
proposed wilderness within and adjacent to the John Day Wild & Scenic 
River boundary. Bringing these additional parcels into public ownership 
would increase public access to BLM-managed lands along the river for 
hunting and hiking purposes and help to resolve ongoing inadvertent 
trespass issues on CTWSIR lands. The exchange would also transfer out 
of Federal ownership a number of parcels of BLM-managed land. These 
parcels are largely scattered inholdings and the exchange would provide 
for improved manageability for both the BLM and the CTWSIR.
    The BLM in Oregon has been in discussions with the CTWSIR regarding 
land exchange opportunities in this area which are more extensive than 
those reflected in the legislation. We would like to work with the 
sponsor and the Committee to more accurately reflect those discussions.
    Section 4(b) provides for an exchange between H. Kelly McGreer of 
Antelope, Oregon, and the BLM (McGreer Exchange). The lands proposed 
for acquisition by the Federal government include Wild & Scenic river 
frontage and a portion of Clarno East (a popular river access area with 
continuing trespass issues), and we support bringing these lands into 
Federal ownership.
    The BLM supports the proposed exchange of lands out of Federal 
ownership which are agricultural lands adjacent to lands owned by Mr. 
McGreer. While we have not undertaken appraisals of the lands proposed 
for exchange, we are concerned that the values of the lands proposed 
for exchange under section 4(b) may not be relatively equal in value 
(as required both by FLPMA and this legislation). We believe this 
exchange may require substantial modification.
    The proposed exchange under section 4(c) between the BLM and Bob 
Keys of Portland (Keys exchange) provides for additions to the proposed 
wilderness area and river frontage along the John Day Wild & Scenic 
River, and we support their acquisition. We also largely support 
exchanging out the Federal lands identified in this exchange except 
that we would like to modify the proposal to insure continued non-
motorized public access to the Spring Basin Canyon trailhead in the 
southwestern portion of the proposed wilderness. In addition, many of 
the lands proposed for exchange out of Federal ownership are along 
roads that would form the wilderness boundary. We wish to insure that 
the land underlying the boundary roads remain in Federal ownership in 
order to protect administrative access to the proposed wilderness.
    Finally, section 4(d) provides for an exchange between the BLM and 
the Bowerman Family Trust (Bowerman Land Exchange). The lands proposed 
for acquisition by the Federal government include a small parcel within 
the wilderness boundary and the remainder of the Clarno East launch 
point. The parcel proposed for transfer out of Federal ownership is 
adjacent to a large agricultural field owned by Bowerman. We support 
this exchange.
    We would also like to work with the Committee and the sponsor to 
address more technical issues related to the proposed exchanges 
including an extension of the current timeframe. Given the nature of 
the work to be accomplished on the proposed exchanges, we anticipate 
that it would take at least three years to complete the exchanges as 
they are currently contemplated. We note that the legislation does 
provide for an equal value exchange and that the exchanges be carried 
out consistent with section 206 of the FLPMA and we strongly support 
these provisions.
Conclusion
    While we believe that the land exchanges in both S. 3088 and S. 
3089 are generally in the public interest, work needs to be done to 
clarify boundaries and appropriate parcels for exchange, and we would 
like the opportunity to work with the Committee and the sponsor on 
these exchanges before the bill moves to markup.
    Thank you for the opportunity to testify. I will be happy to answer 
any questions.

                                S. 3157

    Thank you for the opportunity to testify on S. 3157, the Southeast 
Arizona Land Exchange and Conservation Act. The legislation provides 
for the exchange of a 3,025-acre parcel of Forest Service-managed land 
in exchange for a number of private parcels and funds to acquire 
additional lands in the State of Arizona for management by the Forest 
Service and the Bureau of Land Management. Three of the private parcels 
are identified for transfer to the Secretary of the Interior. In 
general, we defer to the United States Forest Service on those issues 
directly related to Forest Service lands and associated valuation 
issues. We support the principal goals of S. 3157, and we appreciate 
that a number of changes have been made to the legislation in response 
to concerns raised in previous testimony. However, we would like the 
opportunity to continue to work with the sponsor and the Committee on a 
number of additional modifications to the legislation.
    It is our understanding that the intent of the legislation is to 
facilitate an exchange of land with Resolution Copper Mining. 
Resolution Copper has indicated its intention to explore the 
possibility of a very deep copper mine near Superior, Arizona, and 
wishes to acquire the 3,025-acre Forest Service parcel overlying the 
copper deposit as well as the subsurface rights.
    The legislation provides for the exchange of a number of parcels of 
private land to the Federal government. We note that while the bill 
states that three of these parcels are to be conveyed to the Secretary 
of the Interior, it is our understanding that the intention of the 
sponsors is for the parcels to be under the administrative jurisdiction 
of the Bureau of Land Management (BLM). The parcels identified are:

  <bullet> 3,073 acres along the Lower San Pedro River near Mammoth, 
        Arizona;
  <bullet> 160 acres within the Dripping Springs area near Kearny, 
        Arizona; and,
  <bullet> The 956 acre Appleton Ranch parcel adjacent to the Las 
        Cienegas National Conservation Area near Sonoita, Arizona.

    The lower San Pedro parcel is east of the town of Mammoth, Arizona, 
and straddles the San Pedro River. The acquisition of these lands would 
enhance a key migratory bird habitat along the San Pedro River, and we 
would welcome them into BLM management. S. 3157 directs the BLM to 
manage the lower San Pedro parcel as part of the existing San Pedro 
Riparian National Conservation Area (NCA) designated by Public Law 100-
696. The lower San Pedro parcel lies along the same riparian corridor 
as the San Pedro NCA, but is at least 60 miles downstream (north) of 
the existing NCA, and has substantially different resource issues and 
needs. The BLM intends to manage these lands as a separate unit of the 
existing NCA with its own management guidance. We understand there is a 
collaborative effort of stakeholders currently underway with which we 
would like to work in developing the direction for the management of 
this area.
    The legislation proposes to transfer 160 acres in the Dripping 
Springs area northeast of Hayden to the BLM We would welcome the 
Dripping Springs parcel into federal management. The parcel has 
important resource values including sensitive Desert Tortoise habitat 
and allows the BLM to acquire this small private inholding within a 
larger block of federal lands. The BLM does not intend to manage these 
lands intensively for rock climbing as envisioned by earlier versions 
of the legislation.
    Finally, the bill provides for the transfer to the BLM of the 956 
acre Appleton Ranch parcel on the southern end of the Las Cienegas NCA. 
These lands lie within the ``Sonoita Valley Acquisition Planning 
District'' established by Public Law 106-538, which designated the Las 
Cienegas NCA. That law directs the Department of the Interior to 
acquire lands from willing sellers within the planning district for 
inclusion in the NCA to further protect the important resource values 
for which the NCA was designated. These lands enable wildlife to travel 
north through the NCA and beyond, and federal management will seek to 
maintain this function. We support this acquisition and would recommend 
that the legislation be amended to make clear that these lands would 
become part of the Las Cienegas NCA upon acquisition and managed under 
the provisions of that Act.
    Other issues requiring clarification include: timing of the 
exchange; appraisal-related provisions; and, the equalization of values 
provisions. Section 4(d) of the legislation requires that the exchange 
be completed within one year. Based on our experience with exchanges, 
we do not believe that this is sufficient time for the completion and 
review of a mineral report, completion and review of the appraisals, 
and final verification and preparation of title documents. Preparation 
of a mineral report is a crucial first step toward an appraisal of the 
Federal parcel because the report provides the foundation for an 
appraisal where the land is underlain by a mineral deposit. 
Accordingly, adequate information for the mineral report is essential. 
We recommend adding a provision requiring Resolution Copper to provide 
confidential access to the Secretaries of Agriculture and the Interior 
(and their representatives) to all exploration and development data and 
company analyses on the mineral deposits underlying the Federal land in 
order to ensure an accurate appraisal.
    We are concerned about the provisions of section 5(a)(3) regarding 
the failure of the parties to agree on the value of any parcel. As 
written, the bill would require that a dispute would be resolved 
through binding arbitration procedures pursuant to section 206(d) of 
FLPMA. However, section 206(d) is intended for discretionary exchanges. 
Accordingly, we believe section 5(a)(3) of the bill should be amended 
to more specifically address those options in section 206(d) of FLPMA 
that would be applicable to this exchange. We would like to work with 
the subcommittee and the bill's sponsor to amend section 5(a)(3) 
accordingly.
    S. 3157 includes a provision in Section 10 that would require a 
payment to the United States should the cumulative production of 
locatable minerals exceed the projected production used in the 
appraisal required by section 5(a)(4)(B). This provision recognizes 
that an accurate projection of future production will be difficult to 
develop, and provides a mechanism for additional payments to the United 
States should actual production exceed the projected production. The 
Administration generally supports this approach but would like to work 
with the committee to clarify the specific intent and implementation 
procedures, as well as the disposition of receipts.
    We object to the language in Section 10(b)(2) that makes funds from 
potential mineral revenue payments available for expenditure without 
further appropriation. This provision is meant to ensure that the 
government is fairly compensated in the event that the valuation 
process underestimates the amount of mineral resource that is 
ultimately recovered, and we support this objective. However, the 
legislation addresses the exchange of lands with mineral interests, the 
value of which may not be fully realized until long after the exchange 
has taken place. We would like to work with the committee to ensure 
that the bill deposits the receipts into the Treasury, subject to 
future appropriation.
    Finally, we would like the opportunity to work with the sponsor and 
the Committee on miscellaneous technical items including maps for the 
areas to be exchanged, as well as clarifying several references within 
the bill text. In the case of lands to be transferred to or from the 
Secretary of the Interior, the maps should be completed by the BLM.
    Thank you for the opportunity to testify. I will be happy to answer 
any questions.
                                 ______
                                 
  Prepared Statement of Brent Wahlquist, Director, Office of Surface 
     Mining Reclamation and Enforcement, Department of the Interior

                                S. 2779

    Mr. Chairman and Distinguished Members of the Committee, thank you 
for the opportunity to submit testimony on S. 2779, a bill to amend the 
Surface Mining Control and Reclamation Act of 1977 (SMCRA), as amended. 
This bill would authorize States and Indian tribes that have not 
certified completion of their coal related abandoned mine land (AML) 
problems to expend funds received under section 411(h)(1) on non-coal 
related AML problems.
    While this legislation would apply to all uncertified states, it is 
of particular importance to three States (New Mexico, Colorado, and 
Utah) that have traditionally spent a substantial portion of their AML 
funds to address hazardous non-coal AML problems.
    We recognize that many states have used AML funds to support a 
variety of worthwhile goals in addition to reclamation of coal related 
health and safety issues. One of SMCRA's objectives is to provide 
funding to address these coal related issues. Accordingly, we are 
concerned that the bill would ultimately delay coal-related health and 
safety reclamation work that is a priority to ensuring the health and 
safety of people who live in or near our Nation's historic coalfields. 
Therefore the Administration cannot support the bill.

Background
    There are 21 uncertified States receiving grants under the 
abandoned mine land (AML) program. Together, they have a recorded 
inventory of over $3.1 billion of high-priority, coal-related AML 
problems (those representing health and safety hazards to the public) 
remaining to be addressed. Each of these uncertified States is now 
receiving grants from at least three sources. Two of these sources, 
State share funds (SMCRA 402(g)(1)) and historic coal share funds 
(SMCRA 402(g)(5)), have been allocated to uncertified States since 
1990. Historic coal share funds are allocated only to those States that 
have remaining high-priority coal problems in their inventory, while 
state share funds are allocated to any state that has not certified 
completion of all remaining coal AML problems even if it no longer has 
an inventory of high priority problems.
    Also, since 1990, funds from these two sources are the only funds 
that may be used for non-coal reclamation by uncertified states. The 
2006 amendments added Treasury payments (SMCRA 411(h)(1)), a third 
source, for repayment of unappropriated State share balances (prior 
balance replacement funds). However, these funds, which are paid out 
over seven years beginning in FY 2008, must be used for coal-related 
AML problems.
    In some cases, a fourth funding source is available. Before the 
2006 amendments were passed, SMCRA authorized all uncertified States 
with high-priority coal problems remaining to receive at least $2 
million annually. The 2006 amendments raised that level to $3 million 
over a four year phase in period. When the sources of funding outlined 
above total less than the minimum funding level, an amount necessary to 
reach that threshold is granted from funds otherwise designated for the 
Secretary of the Interior's (Secretary) use. Use of these funds is also 
limited to addressing high priority coal AML problems.
    Historically, New Mexico, Colorado, and Utah have spent about half 
of their AML grants on non-coal problems. These three States received 
approximately two-thirds of their fiscal year 2008 funding in prior 
balance replacement funds. It is important to note that the 2006 
amendments provide enough State share and historic coal share to allow 
each of these three States to maintain their current non-coal programs 
at historic levels. As mandatory funding under the 2006 amendments is 
fully phased in, these states will have substantially more funding 
available for non-coal AML work than they were spending on non-coal 
prior to the 2006 amendments.

S. 2779
    As introduced, S. 2779 would amend SMCRA to enable uncertified 
States to use prior balance replacement funds to reclaim non-coal 
problems. Since prior balance replacement funds are a major source of 
AML funding for uncertified states through FY 2014, this will 
substantially increase funds available for non-coal. However, since S. 
2779 does not increase overall funding available, any increase in 
expenditures by a State on non-coal problems will mean a corresponding 
decrease in funds spent to address coal related problems, thus delaying 
completion of high priority coal AML work shown in that State's 
inventory. This, in turn, would delay certification of completion of 
all coal problems for States that would increase spending on non-coal 
as a result of this bill.

Certification of Completion of Coal Reclamation
    Once a State certifies completion of its coal AML problems, it is 
no longer eligible for AML funds. Instead, it receives payments from 
the Treasury in an amount equal to what the State share would have been 
(as well as any remaining prior balance replacement funds if 
certification occurs prior to 2014). This foregone State share, along 
with the historic share that state had been receiving, will be 
distributed as historic coal share funds to the remaining uncertified 
States to clean up high priority coal problems. Thus, the funding to 
states with remaining high priority problems is increased each time 
another state certifies. On the other hand, certified states have broad 
discretion and very little accountability to OSM for how they use their 
grants, which can certainly all be used for non-coal AML work.
    In summary, while S.2779 will increase the funding available for 
non-coal AML problems for uncertified states, it will cause a 
corresponding delay in the completion of high priority coal AML 
problems in those states which spend more on non-coal problems as a 
result of this bill. Further, as states delay certification of 
completing their remaining coal problems, it limits funding that would 
otherwise be available to remaining uncertified states.

    Senator Wyden. Thank you very much, Mr. Nedd.
    What we are going to do--because I think we are going to 
have a vote in a little bit, I am going to ask a couple of 
questions about the Oregon bills, and I am going to recognize 
colleagues because I know they have concerns about the status 
of their bills. Then at the end, I am going to come back and 
ask some questions with respect to Arizona.
    Now, Mr. Nedd, we appreciate your support for the 
wilderness designations in Oregon. I know you have been in 
discussion with the Confederated Tribes of the Warm Springs 
Indian Reservation about more extensive land exchange 
opportunities so that we could boost the wilderness in there. 
Is it correct to say at this point that the Bureau of Land 
Management supports the concept of a larger exchange with the 
tribe?
    Mr. Nedd. Senator, we are very interested in working with 
you and with the tribe on the proposed exchange and agree that 
there is an opportunity for a larger exchange.
    Senator Wyden. One other question just for you, Mr. Nedd, 
before colleagues. You raise concerns with the land selected 
for what is called the McGreer exchange and the question of 
potential inequality. It is certainly my intent to work with 
you all on your concerns, but you did note in your testimony 
that the legislation provides for an equal value exchange, 
which is where we clearly wish to go. Is that not the kind of 
language you need to address the question of potential 
inequality?
    Mr. Nedd. Yes, Senator Wyden. Your legislation does provide 
that all exchanges are to be of equal value, and we strongly 
support your position on this. We simply felt we should point 
out that this particular exchange, the McGreer exchange, may 
require substantial modification.
    Senator Wyden. I think we want to continue those 
discussions with you because any proposed exchange--and we have 
dealt with I do not know how many during my time on this 
committee--is based on rough estimates prior to an actual 
appraisal being undertaken. So we are interested in working 
with you cooperatively, and I appreciate your comments.
    Let me just recognize colleagues so they can get questions 
in at this point.
    Senator Barrasso.
    Senator Barrasso. Thank you very much, Mr. Chairman.
    Mr. Nedd, I know you have people here for S. 2875 and for 
S. 2779. I think you mentioned there were some colleagues that 
you have with you that could help answer some questions.
    If I could go to S. 2875 first, I would like to read a 
quote to you from the Twin Falls Times newspaper, and it says, 
``We didn't want it. They brought it to us. If the Federal 
Government is going to bring it to us over our objections''--
and they are talking about the wolf--``then they need to pay 
for it.''
    That quote was from James Caswell, who at the time was the 
Administrator for the Governor of Idaho's Office of Species 
Conservation in regards to Idaho receiving Federal money 
through an earmark for Idaho's wolf compensation program. As 
you know, Mr. Caswell is now the Director of the Bureau of Land 
Management.
    Do you agree with the director's statement that the Federal 
Government should pay compensation to ranchers for introducing 
the wolf to Wyoming and Montana and Idaho over the States' 
objections?
    Mr. Nedd. Senator, I would like to refer to Mr. Ed Bangs 
who is here to answer any----
    Senator Barrasso. I see him smiling, and he is very happy 
to do that.
    Mr. Bangs. Thank you. I guess the position of the 
Administration is that there are some serious problems with the 
bill as written and we oppose it.
    Senator Barrasso. So do you agree, though, that the Federal 
Government should pay compensation to ranchers for introducing 
the wolf into these States?
    Mr. Bangs. I guess I am here to answer any technical 
questions I can. The Administration's position is that, no, 
there should not be compensation offered.
    Senator Barrasso. So you would disagree then with the 
statement of James Caswell, who is currently the Director of 
the Bureau of Land Management.
    Mr. Bangs. I would say that the Administration's position 
is that no compensation should be offered.
    Senator Barrasso. Reading the testimony that you submitted, 
Mr. Nedd--I know you did not have time because of the number of 
bills to go through each and every one of the testimonies in 
full--the testimony says, ``As wolf management is now a matter 
for the State governments, whether and how to use compensation 
programs to advance State management goals is most 
appropriately for State governments to decide.'' This seems to 
be implying that the management of the wolves is entirely a 
State issue. That is what I am hearing also from Mr. Bangs.
    There are people in Wyoming--and we have one of them as our 
guest today to talk about this--who would eradicate the wolves 
entirely. That would be their position. So if Wyoming wanted to 
adopt that position--that was our management plan--could we do 
it?
    Mr. Nedd. Senator, again, I would have to refer to Mr. Ed 
Bangs who is here to answer any questions.
    Mr. Bangs. I think the wolves could be eliminated. We 
eliminated them once. If that happened, what you would see is a 
relisting under the Endangered Species Act. So you would get 
the Federal Government involved again.
    Senator Barrasso. So then the Federal Government does want 
to manage the wolves, but they just do not want to provide 
assistance to those whose livelihoods are threatened.
    Mr. Bangs. I think the Federal Government wants to make 
sure that the wolves stay recovered and are managed as resident 
game species just like elk, deer, and other things are by the 
States.
    Senator Barrasso. Do these States have any say in the 
decision by the Federal Government to reintroduce the wolves 
into the State?
    Mr. Bangs. I think that they did. The State of Idaho helped 
prepare the EIS. We had the State involvement. I think in the 
end they all opposed wolf restoration, but in the early 
development stages, they certainly had a voice in the issue.
    Senator Barrasso. So they were forced upon the States in 
spite of the States not wanting them, but then you are willing 
to sit there and tell me and the members of this panel that it 
is now up to the States to deal with it on their own. Is that 
what you are really suggesting, that the Federal Government 
should have no responsibility for the damage that has occurred?
    Mr. Bangs. I think the issue is that the wolf population is 
recovered. The States of Idaho and Montana have been managing 
wolves under cooperative agreement with the Service for years 
while they were listed. Now that they are delisted, that 
management authority is transferred entirely to the States.
    Senator Barrasso. So the additional damage being done by 
wolves to livestock--the position of the Administration is we 
came in, we created this mess, we are not responsible. Now it 
is up to you to clean up and pay for it.
    Mr. Bangs. Actually there is mitigation for wolf damage in 
the form of USDA Wildlife Services who partners with the States 
to remove problem wolves. So there is mitigation for wolf-
caused damage even while delisted.
    Senator Barrasso. If I could move on to S. 2779, Mr. Nedd. 
This is the Surface Mining Control and Reclamation Act of 1977. 
One of the statements in your testimony raises some real 
concerns. You state, ``Certified States have broad discretion 
and very little accountability to the Office of Surface Mining 
for how they use their grants which can certainly all be 
used,'' it says, ``for non-coal AML work.'' If that is, indeed, 
the case, are you telling me that all of these hoops that 
certified States like Wyoming and Montana have to jump through 
are just that? Bureaucratic mazes that serve very little 
purpose and just slow down the distribution of money to the 
States?
    Mr. Nedd. Senator, I have Mr. Danny Lytton, who is Chief, 
Division of Reclamation Support, with the Office of Surface 
Mining. He will be glad to answer any questions.
    Senator Wyden. Let us do this. Let us recognize Mr. Lytton, 
but briefly because we have got Senator Tester and Senator 
Smith.
    Senator Barrasso. That will be my final question.
    Senator Wyden. Great.
    Mr. Lytton. Senator, first of all, let me just say that our 
Solicitor's Office has advised us that we must use grants to 
distribute the funds that certified States are getting. 
Recognizing that there is a tremendous amount of discretion 
that the certified States have in how they use their funds, we 
have actually changed our grant process for certified States in 
general. We require less information up front. We have cut in 
half the time it takes--time allotted for us to approve a 
grant. We do not require the listing or your show--certified 
States showing us what projects will be done. Finally, we 
cannot approve those projects. We are required to allow any 
project that falls within your purview, either through the 
State legislature or through the program's decisions. We are 
required to approve those projects. The only requirement that 
we have placed is that we approve the use of the fund for your 
purposes. In other words, we have to approve a grant and we do.
    Senator Barrasso. You can see, Mr. Chairman, the difficulty 
in dealing with a bureaucracy that says seven equal payments, 
an equal payment each year for 7 years, and it says nothing 
about a grant process and gives you this kind of an answer.
    Thank you, Mr. Chairman.
    Senator Wyden. Thank you, Senator.
    Senator Tester.
    Senator Tester. Yes, thank you, Mr. Chairman.
    I would assume, Mr. Nedd, you are going to refer all 
questions about the wolf mitigation bill to Mr. Bangs?
    Mr. Nedd. Yes, Senator.
    Senator Tester. Mr. Bangs, do you still work for the Fish 
and Wildlife Service, since the wolves have been delisted?
    Mr. Bangs. I do.
    Senator Tester. How long are you on the payroll for?
    Mr. Bangs. Until October 1 they told me.
    Senator Tester. OK, that is good. I would hope that you are 
not the sacrificial lamb here. No pun intended.
    I can tell you that this program is very, very important 
and it is somewhat disconcerting that the person who makes the 
presentation refers all questions to somebody who is going to 
be gone October 1. That is not to say anything negative about 
you, Mr. Bangs. You have done a great job in your capacity. I 
hope you get a job that is very, very good down the line.
    I will ask some questions revolving around the wolf 
program. Does the agency believe that public acceptance is an 
important part of wolf reintroduction?
    Mr. Bangs. Yes.
    Senator Tester. Do you think there will be public 
acceptance as long as cattle ranchers are having their cattle 
preyed upon by wolves with no mitigation funds for that?
    Mr. Bangs. If there was no mitigation, I think support for 
wolf recovery would go down.
    Senator Tester. Are Defenders of Wildlife still in the 
business, since the wolf has been taken off Endangered Species, 
of putting up money for predation?
    Mr. Bangs. In Wyoming and Idaho, yes. In Montana, no. They 
have turned that program over to the State for compensation.
    Senator Tester. Is it long-term? Are they going to continue 
to put money into those programs year after year?
    Mr. Bangs. I suspect not, no.
    Senator Tester. Do you think this will probably be the last 
year for it?
    Mr. Bangs. I would suspect so, yes.
    Senator Tester. So what are the impacts when we do not take 
care of predation with ranchers? What is going to be the long-
term impact on all the work that has been done for the last 10 
or 11 years?
    Mr. Bangs. I guess the wolf predation will still be taken 
care of. The Wildlife Service participates in mitigation, 
killing problem wolves. The States will have hunting seasons. 
So there is a lot of mitigation of wolf damage. The 
compensation itself----
    Senator Tester. Right.
    Mr. Bangs. Each of the States has a compensation program 
that they are trying to raise money for.
    Senator Tester. How successful do you think those States 
are going to be in raising money for wolf predation when both 
parties on both sides really do not have any obligation to step 
up to the plate?
    Mr. Bangs. I think raising private funds or funds within 
the States is going to be a tough row to hoe.
    Senator Tester. Thank you. So what role should the Federal 
Government be playing?
    Mr. Bangs. The Administration believes that the current 
bill in terms of compensation--we cannot support that. I might 
point out that in terms of mitigation, in terms of rider 
programs or something like that, there is Federal money through 
different grant programs available to the States for that 
currently.
    Senator Tester. Is the Administration aware that over the 
last 15 years, they have believed that public acceptance is 
critical for wolf introduction to be successful?
    Mr. Bangs. Yes.
    Senator Tester. Do you see any sort of diametric opposition 
to what you are saying and what the Administration is telling 
you to say?
    Mr. Bangs. I think the goal of the program was to get the 
wolf population recovered and delisted so the States can manage 
them just as they do other resident wildlife with deer, elk, 
that kind of thing.
    Senator Tester. Yes, but what about the compensation part 
of it? It is not a huge part of the whole overall program, but 
I think it is a critical part. Would you not agree?
    Mr. Bangs. I can see where you would feel that way.
    Senator Tester. You are very, very good at what you do, Ed. 
I can see why they put you up here.
    All kidding aside, I will just tell you this, and Senator 
Barrasso alluded to it. Idaho has had an earmark for $100,000 
for compensation for livestock losses. The reason that is 
important is because two of the folks, who I respect both very, 
very much, who are high up in the Department are from Idaho. 
Yet, the Department comes down and says, no, we are not in 
favor of this when in fact, if they were not in favor of this, 
why did they request the earmark and why did they get the 
earmark? Why did they utilize the earmark? Why did they not 
turn the money back? You do not have to answer that.
    Mr. Bangs. I do not really know.
    Senator Tester. You do not have to answer that.
    I would just ask this. I mean, go back to the people that 
you work with. I can tell you that I think it is totally 
unfair. All the points that Senator Barrasso brought up were 
dead-on. I think it is totally inappropriate and unfortunate 
that the Federal Government is walking away from this. I think 
it is terrible.
    I think the fact--and this is not to speak poorly of you, 
Mr. Bangs--that they did not send somebody higher up in the 
office that made this decision because quite honestly, I do not 
think you have bought into it either. You do not have to answer 
that either because the truth is it is compensation for a 
select few people that raise livestock. We are not talking 
about a lot of livestock, but it is the same people that get 
hammered every time. A select few people to get compensation is 
the right thing to do, and for the Department to say, no, we 
are going to wash our hands of it, it is a State problem now, 
is absolutely ridiculous. It is absolutely ridiculous.
    I appreciate the work you have done in Montana. You have 
done a great job. You need to influence the people above you 
for the next 3 or 4 months to step back and take a look at this 
and ask if this is really the right position because it is not. 
Unequivocally common sense will tell you that this is not the 
right decision to be making because if we think wolf 
introduction is the right thing to do, which I would guess the 
Department does, if we are going to keep public acceptance at a 
high level, this has to be a part of the equation. That is all 
I am going to say.
    I got to tell you I wish you would have sent--and this is 
nothing against you, Mr. Bangs, I wish you would have sent 
somebody from the Department that I could nail to the wall 
because it is pretty difficult when you got a guy who is going 
to be gone October 1.
    Thank you very much.
    Senator Wyden. Thank you, Senator.
    Senator Smith.
    Senator Smith. Mr. Nedd, can you speak for the BLM whether 
or not you believe that off-highway vehicle recreation demand 
is currently being met by the BLM's existing program in central 
Oregon?
    Mr. Nedd. Senator, I do not have first-hand knowledge and I 
cannot speak for the BLM on that.
    Senator Smith. I wonder if you can get someone from the BLM 
who has some knowledge of that--if they can get back to me with 
an answer whether they think that they are meeting that demand.
    Mr. Nedd. Yes, Senator.
    Senator Smith. Could you also get back to me with a list of 
all WSA's in eastern Oregon that have been studied and were 
deemed not suitable for wilderness designation?
    Mr. Nedd. Yes, Senator.
    Senator Smith. Thank you. That would be great.
    On a different issue, it is my understanding that the BLM 
has about 130 permits pending for solar energy development on 
public domain lands. Can you explain the backlog in processing 
these permits, and does the BLM need more resources to process 
these permit applications?
    Mr. Nedd. Senator, I will have to get back to you with the 
exact reasons for the backlog and other information, Senator.
    Senator Smith. That would be great. We need energy. Thank 
you.
    Senator Wyden. Thank you, Senator Smith.
    We do need to have a few matters on the record with respect 
to the Arizona legislation, 3157. So let me, if I might, start 
with you, Mr. Holtrop.
    As I understand it, all parties believe that S. 3157 would 
limit the review of environmental impacts prior to the 
conveyance of Federal land and would, instead, require the 
Secretary to conduct the EIS at a later date prior to 
commercial production at the proposed mine. As written in the 
bill, if the EIS showed that the mine would cause unacceptable 
environmental impact, would the Forest Service still have the 
authority to prevent that from occurring, having already 
conveyed the land?
    Mr. Holtrop. My understanding of the way the bill is worded 
is we would do an environmental impact statement that would be 
on those associated activities on the Federal lands that would 
be required to be looked at at that time. So what we would be 
looking at would be the impact of associated activities on the 
remaining Federal lands.
    Senator Wyden. Now, you testified, Mr. Holtrop, that the 
Forest Service supports the exchange, believes it can be 
offered in the public interest. How do you all go about making 
that determination without knowing what the potential impact is 
of the proposed mine?
    Mr. Holtrop. Mr. Chairman, that is a good question. I think 
the language of the testimony saying we believe that it is in 
the public interest--that the exchange is in the public 
interest--I will tell you the couple of things that I think we 
weighed when we looked at that. One was we looked at the 
benefits of the mine itself. We looked at the incredible 
resources that the lands that would be conveyed to the Federal 
Government would have with them, especially in a dry area of 
Arizona, the precious resource of water and riparian areas, as 
well as threatened and endangered cactus habitat and some 
things like that, and the fact that it is a 1.8 or 1.9 to 1 
acre-for-acre exchange coming into the public ownership. All of 
those things, I think, weighed together, lead us to the point 
of being able to say we believe, on balance, that this is in 
the public interest.
    Senator Wyden. Now, Mr. Holtrop, the Inter Tribal Council's 
testimony goes into a number of concerns about the impact of 
the proposed mine on the Apache Leap escarpment. My question 
is, is it possible that the subsistence that is anticipated as 
a result of the development of the mine would in your view 
significantly impact Apache Leap?
    Mr. Holtrop. I am not feeling like I am qualified to answer 
that question. As you know, the legislation includes a 
conservation easement to protect the Apache Leap. I think that 
that was part of the intent of the legislation, and I am not 
qualified to answer a question about subsistence.
    Senator Wyden. We will hold the record open on that because 
I think that is an important point, and it seems to me at some 
sort of basic level we really need to have a yes or no answer 
to that because if it is yes, we want to know how the exchange 
is in the public interest, even if Apache Leap is significantly 
impacted, and if no, we want to know how you all got about 
getting to that position. So we will hold the record open on 
that question.
    To be sensitive to Senator Kyl's concerns, can you have 
answers to those questions for us a week from today?
    Mr. Holtrop. I am sure we can.
    Senator Wyden. OK.
    Then one question for you, Mr. Nedd, and perhaps you have 
thoughts on this as well, Mr. Holtrop. It is our understanding 
that the Oak Flat Campground was administratively withdrawn and 
it appears that the Administration has the authority to revoke 
the withdrawal and undertake an administrative land exchange to 
facilitate the development of the mine. So our interest here 
is, is that your understanding, and if it is, why has the 
Department not pursued that?
    Mr. Nedd. Senator, I am not familiar with the specifics of 
the Forest Service withdrawal and would defer to the Forest 
Service on that specific----
    Senator Wyden. Mr. Holtrop, do you want to----
    Mr. Holtrop. I would be happy to address that. The 
withdrawal occurred, I believe, in 1955 or some time close to 
that, to protect the resources of the campground, the Federal 
investment in the campground. My understanding is that 
administratively a withdrawal like that could be revoked. There 
are other aspects of the exchange and the operation which are 
beyond our Federal authority to be able to deal with, things 
such as an exchange that involves more than one Federal agency, 
because there are lands that would become managed by the Forest 
Service, as well as by the Bureau of Land Management. We do not 
have the authority to handle something like that. The greater 
than 25 percent cash equalization is another thing that we do 
not have the authority to deal with. So there are other aspects 
of the bill that are beyond our administrative authority.
    Senator Wyden. All right. Thank you all.
    Senator Barrasso, do you have any questions about Arizona? 
Otherwise, we will excuse this panel and get on to the next 
one.
    Senator Barrasso. No specific questions about Arizona. 
Thank you, Mr. Chairman.
    Senator Wyden. OK.
    We thank all of you. We appreciate the cooperation of the 
Administration on all this legislation.
    David Salisbury, President and CEO of Resolution Copper, if 
you will come forward. Shan Lewis, President of the Inter 
Tribal Council of Arizona, if you will come forward. Roger 
Featherstone, Southwest Circuit Rider, Earthworks, if you will 
come forward.
    For all of you, so you will have a sense of what Senator 
Barrasso and I are juggling, there is an important vote 
scheduled for 4 o'clock. So we are going and try and get as far 
down the road. We have Mr. Featherstone, Mr. Salisbury. There 
is Shan Lewis. Very good. We will get as far with the three of 
you as we can and we will try to come back quickly afterwards.
    Again, if you can summarize your principal concerns, we are 
going to make your printed statements a part of the hearing 
record in their entirety.
    Mr. Salisbury, why do we not begin with you?

  STATEMENT OF DAVID SALISBURY, PRESIDENT, RESOLUTION COPPER 
                   MINING, LLC, SUPERIOR, AZ

    Mr. Salisbury. Mr. Chairman and members of the committee, 
my name is David Salisbury. I am the President of Resolution 
Copper based in Superior, Arizona.
    Thank you for the opportunity to testify in support of S. 
3157. This legislation represents an important step toward 
restarting a mine in Arizona's historic Copper Triangle Mining 
District.
    We also want to thank Senator Kyl for his longstanding 
leadership and support.
    Upon completion of this land exchange, we propose to 
invest, at considerable risk, the time and funding required to 
develop a deep underground mine. We believe the innovative and 
proven technology will allow us to build a block cave mine 
7,000 feet below ground with limited surface impact.
    Mr. Chairman, there are six main reasons why we believe 
this land exchange is in the public interest.
    First, S. 3157 provides fair value to the American 
taxpayer. The appraisal will be done by the Forest Service 
using Department of Justice methodology to determine the fair 
value of all land. Additionally, it provides full cash 
equalization. If the appraisal indicates we owe additional 
money, we will pay the difference to equalize the value. If, 
however, the valuation indicates that the value of the land we 
are exchanging is higher than the land we receive, we will 
donate the excess to the United States. Importantly, this 
legislation also includes a new, unprecedented value adjustment 
payment, which ensures that the Government will receive payment 
for any ore mined that was not included in the original 
valuation of the ore body.
    Second, this legislation delivers significant environmental 
benefits and safeguards to the region. It includes language 
confirming that an environmental impact statement, pursuant to 
NEPA, will be completed before we mine the ore body. Further, 
the parcels Resolution Copper would exchange to the Government 
are of high ecological value and were identified with the 
assistance of the BLM, Forest Service, and leading 
environmental NGO's like the Nature Conservancy and Audubon 
Arizona. Also, we plan to use tailings from our mine to reclaim 
an existing open pit mine in the region by filling it with our 
tailings and restoring the landscape.
    Third, we are listening to the suggestions and concerns 
from various stakeholders and doing our best to work with them. 
Since the House hearing last November, we have had more than 
300 meetings with stakeholders to address issues raised. S. 
3157 reflects changes suggested during these discussions. Here 
are a few examples.
    The Forest indicated that additional time and money would 
be required to relocate the Oak Flat Campground. This 
legislation doubles both the time and the money compared to the 
House bill.
    Concerns have been raised by Native American nations. So we 
have taken steps to ensure protection of the Apache Leap, to 
ensure access to areas for traditional and cultural activities. 
We acknowledge the sovereignty of the tribal nations and 
respect their requests for government-to-government 
consultations. We welcome the chance to work with them to 
address their concerns.
    We have addressed the mountain climbing community's request 
to transfer Resolution's Pond property to the Forest Service 
for future climbing. We have extended the duration of access to 
the Oak Flat area, and we will continue to work closely with 
the climbing community to provide additional opportunities.
    Fourth, the mine is expected to produce up to 20 percent of 
our Nation's anticipated copper demand. This is important now 
more than ever because, for instance, hybrid vehicles use 70 to 
100 percent more copper than conventional cars.
    Fifth, the mine will create significant economic prosperity 
for Arizona and the Nation. We anticipate spending $10 billion 
and generating 1,400 jobs in connection with mining operations, 
as well as several thousand construction-related jobs and a 
thousand more indirect jobs. Resolution is working closely with 
the Town of Superior and throughout the region to create a 
diversified economy so that economic upswing created by the 
mine will act as a catalyst for growth and help build a 
sustainable economy.
    I have submitted for the record a study which highlights 
the significant economic and fiscal benefits the project will 
generate, totaling in excess of $46 billion in economic 
activity and approximately $11 billion in taxes to various 
levels of government.
    Sixth, more important than our view that the project is in 
the public interest, many Arizona leaders, including Governor 
Napolitano, a significant majority of the Arizona legislature, 
county supervisors, mayors, city councils of the Copper 
Triangle, community leaders, and the Arizona Republic, and many 
other individuals and organizations have expressed their 
support for moving this legislation forward.
    In closing, this project represents a terrific opportunity 
for the State of Arizona and the Nation. We ask Congress to 
authorize this land exchange so that the promise of this 
project has a chance to be realized. We appreciate your 
consideration and respectfully request your prompt action to 
enact this legislation this year. Thank you.
    [The prepared statement of Mr. Salisbury follows:]

  Prepared Statement of David Salisbury, President, Resolution Copper 
                 Mining, LLC, Superior, AZ, on S. 3157

    Mr. Chairman and Members of the Subcommittee: My name is David 
Salisbury. I am the President of the Resolution Copper Mining LLC 
(``Resolution Copper''), which is a company headquartered in Superior, 
Arizona and owned by subsidiaries of Rio Tinto plc and BHP-Billiton 
plc. I am here in support of S. 3157, and to briefly describe the 
efforts we have made to address various issues since this Subcommittee 
held a hearing on similar legislation two years ago. The Southeast 
Arizona Land Exchange and Conservation Act of 2008, S. 3157, represents 
an important step toward the development of a large, underground copper 
mine in a historic mining district. This legislation would allow us to 
acquire sufficient acreage of National Forest land, known as the Oak 
Flat parcel, where much of our new underground mine will be located. 
Most of the land needed is already blanketed by unpatented mining 
claims which we or our predecessors have owned and maintained for 
decades. As you can see from the map* attached to my testimony, the Oak 
Flat parcel abuts, or is intermingled with, private land we already 
own. That private land was the site of the Magma underground copper 
mine, which operated from 1912 to 1996, and produced 25 million tons of 
copper ore.
---------------------------------------------------------------------------
    * Map has been retained in subcommittee files.
---------------------------------------------------------------------------
    In the late 1990's, exploratory drilling revealed the existence of 
a very large copper deposit located adjacent to the old mine workings, 
but at a far greater depth of 4,500 to 7,000 feet below the surface. 
This will require us to sink deep shafts and tunnels to access the ore 
body. Once we have done this, we will complete a model of the precise 
geotechnical conditions and determine if it is feasible to construct 
the mine.
    Developing a mine a mile to a mile and a half beneath the surface, 
where the temperatures are up to 175 degrees Fahrenheit, is not only 
technologically difficult, but also an extremely expensive and 
financially risky proposition. Initially it will involve $750 million 
in exploration and feasibility work. If the mine is feasible, 
Resolution Copper will spend at least $4 billion toward capital 
investment before mine construction is finished and we ship our first 
load of copper. Resolution Copper has not made the final determination 
as to the economic and technological feasibility of mining this ore 
body. Despite a high level of confidence on the part of our engineering 
team, it will require a $750 million investment before we can make this 
determination.
    To secure this type of investment, we believe it is critical both 
to possess an ownership interest in most of the land where we will be 
operating and to provide an adequate safety buffer around the mining 
area. Further, the area around the project is intermixed with public 
and Resolution's private lands preventing a safe and workable approach 
to mine permitting, development and operation. In addition, because we 
will intensively use the Oak Flat area for the mine, most of the land 
we are seeking to acquire, except for Apache Leap, will have a limited 
lifespan for continued public use in order to maintain safety for the 
public.
    We realize that our land exchange will result in the loss of a 
Forest Service campground and other public recreation, but believe that 
this legislation provides for a beneficial transfer of lands with the 
added potential of a mine that will only enhance the national interest 
in this exchange. Why? Because once operational, this mine would 
provide approximately 20 percent of the Nation's annual needs for 
copper from a safe, domestic source for approximately 50 years.
    Building upon the national interest I have just outlined, allow me 
to explain the significant economic and fiscal impact the mine will 
have. The ore body is located in a region with over 100 years of mining 
history known as the ``Copper Triangle.'' This region has suffered with 
high unemployment for a number of years and our mine is expected to 
bring 1,400 permanent, high quality, technical jobs directly affiliated 
with the mine (1,200 direct jobs and 200 contract jobs) and a large 
number of service related jobs to the region. Further, we anticipate 
the creation of several thousand jobs during the construction phase of 
the mine.
    Included with my testimony I have submitted the executive summary* 
of an economic and fiscal impact study prepared in April 2008 by 
Elliott D. Pollack & Company, and I would like to provide you with a 
few highlights directly from that report:
---------------------------------------------------------------------------
    * Document has been retained in subcommittee files.

  <bullet> The mine impact is estimated to last 66 years, with 16 years 
        of feasibility and preparation and 50 years of mining 
        operations.
  <bullet> The total economic impact of the 66 year project on the 
        State of Arizona, including the additional development of 
        residential, commercial, and industrial land in Superior, is 
        estimated to be $46.4 billion. During the peak years of mine 
        projection, the annual impact of the mine itself is estimated 
        to be $535.6 million. If the additional development of 
        residential, commercial and industrial land is considered, the 
        peak annual economic impact on the State is projected to be 
        $798.2 million. For a comparative perspective, studies have 
        estimated the economic impact of an NFL Super Bowl type event 
        to be approximately between $250 million and $500 million.
  <bullet> In terms of fiscal impacts, the project is estimated to 
        generate total federal, state, county, and local tax revenue in 
        excess of $10.7 billion.

    It is important to understand that all of the fiscal and economic 
impacts were based on the assumption that copper is priced at $1.30 per 
pound (which was based on the long-term price as calculated by the 
Arizona Department of Revenue). Today, copper is trading at over $3.50 
per pound, so the assumptions in this study are very conservative.
    As I indicated, the planned mine will be a very deep underground 
mine utilizing a proven method of mining called block caving. Unlike an 
open pit mine, it will have minimal waste rock dumps. We plan to ship 
the ore from Oak Flat via underground tunnel to an existing open pit 
mine site in the area. We then expect to process the copper ore at that 
site and deposit the tailings to fill up one or more existing open pits 
from closed mines, and then reclaim and re-vegetate those pits. We 
believe that undertaking will significantly benefit the environment. In 
addition, Senator Kyl has included subsection 4(h) in this legislation 
to expressly confirm that before we open the mine, as already required 
by existing law, the entire operation and its environmental impacts 
will be subject to full review under the National Environmental Policy 
Act.
    In developing the land exchange proposal in S. 3157, we have worked 
with the United States Forest Service, the Bureau of Land Management 
(BLM), the Arizona Game & Fish Department, and numerous Arizona 
conservation organizations to insure that the lands we are conveying to 
the United States have greater environmental and other public values 
than the lands we are receiving at Oak Flat. In S. 3157, Resolution 
Copper will convey nine parcels of land, totaling approximately 5,634 
acres, to the United States in return for the Oak Flat parcel. Whereas 
most of Oak Flat is relatively flat, and has no permanent water--the 
nine parcels we have assembled for exchange have exceptionally rich 
ecological, recreational and other values, and many of them have 
significant year-round water resources. I want to emphasize that these 
parcels were recommended to us by The Nature Conservancy, The Audubon 
Society, the Sonoran Institute and in consultation with the BLM and the 
US Forest Service. The attributes of these offered lands include:

          1) A new rock climbing parcel near Oak Flat which has just 
        been added to the exchange;
          2) Seven miles of river bottom and riparian land along both 
        sides of the free flowing San Pedro River, which is one of the 
        most important migratory bird corridors in the United States 
        (as requested by the BLM at the November 2007 hearing on H.R. 
        3301 in the House Subcommittee on National Parks, Forests, and 
        Public Lands, this parcel will be immediately added to the 
        existing San Pedro Riparian National Conservation Area);
          3) Two miles of trout stream and other fish and wildlife 
        habitat along East Clear Creek in the Coconino National Forest;
          4) Possibly the largest, and most ancient, mesquite forest 
        (or bosque) in Arizona;
          5) Nine hundred and fifty-six acres of extremely diverse 
        grassland habitat in the AppletonWhittell Research Ranch--an 
        existing preserve jointly managed by the Forest Service, BLM 
        and the Audubon Society inside the Las Cienegas National 
        Conservation Area; and
          6) Four in-holdings in the Tonto National Forest which have 
        significant riparian, recreational, cultural, historic and 
        ecological amenities including populations of the endangered 
        Arizona hedgehog cactus.

    S. 3157 also provides that Resolution Copper must convey all nine 
parcels to the United States, regardless of value. If the nine parcels 
appraise at a higher value than the Oak Flat parcel, we will donate the 
excess value to the United States.
    Accordingly, this land exchange will result in very significant net 
gains to the United States in: 1) river bottoms and riparian lands; 2) 
habitat, or potential habitat, for threatened, endangered and sensitive 
species; 3) habitat for innumerable species of flora and fauna; 4) 
important bird areas; and 5) year-round water resources--a rarity in 
many parts of Arizona.
    Mr. Chairman, we have also agreed to several provisions in S. 3157 
that are designed to assure that the taxpayers receive full fair market 
value in this land exchange and that any facilities or activities we 
displace at Oak Flat land are adequately replaced, or improved upon. I 
will briefly describe these key provisions:

  <bullet> S. 3157 requires that the existing Forest Service campground 
        at Oak Flat, which has 16 developed campsites, will be replaced 
        with a new campground or campgrounds. Based on testimony 
        presented at the hearing in the House last fall the US Forest 
        Service, we have increased the amount we will pay for the 
        replacement campground(s) from $500,000 to $1 million and 
        increased the time for establishing the new campground(s) from 
        2 years to 4 years. The bill now provides that the US Forest 
        Service will continue to own and operate the Oak Flat 
        Campground for 4 years after bill enactment.
  <bullet> Portions of the Oak Flat parcel and adjacent areas, 
        including areas of our existing private land, are used for rock 
        climbing. To accommodate these activities, we have agreed to 
        two changes in the legislation. First, as mentioned earlier, we 
        have now added our 95 acre Pond parcel to the land exchange. 
        Second, we have dropped the immediate closure of certain other 
        areas from the legislation and we will work at keeping them 
        open for climbing for as long as it is safe to do so.
  <bullet> Resolution Copper has committed to the working with 
        neighboring Native American communities. Resolution Copper also 
        acknowledges the sovereignty of the San Carlos and respects 
        their request for government-to-government discussions. The 
        exchange provides protections for the portion of the Oak Flat 
        parcel that comprises Apache Leap, which is an area of cultural 
        and historic importance to Apache and Yavapai tribal nations. 
        Likewise, S. 3157 requires that the JI-Ranch parcel we will 
        convey to the US Forest Service in the exchange will be 
        available to the Apache or Yavapai for acorn gathering.
  <bullet> Subsection 5(a) provides that all appraisals will be 
        conducted in accordance with U.S. Department of Justice 
        appraisal standards, which are used for all Federal land 
        transactions. The Forest Service will write the appraisal 
        instructions and all appraisals must be formally reviewed and 
        approved by the agency. This means that the appraisal process 
        will be under the government's complete supervision and 
        control.

    Finally, we are aware of the mining law reform legislation which 
passed the House and is pending in the Senate. While the Federal 
appraisal process to be used for this land exchange fully incorporates 
royalty considerations, as required by the Justice Department 
standards, and the lands and any cash equalization we convey to the 
United States in the exchange will constitute a full upfront royalty 
payment under the appraisal process, we have agreed to go a step 
further. Namely, section 10 of S. 3157 now provides that if the 
cumulative production from our mine ever exceeds the production assumed 
by the appraiser, we will pay a ``value adjustment payment'' on any 
excess production. In doing that, the public will be protected in the 
event the appraiser errs in the mine production assumptions or if 
subsequent mining operations discover and produce more ore than 
originally assumed. We believe this is an eminently fair proposal 
which, by definition, fully protects against potential production 
errors in the appraisal process.
    That completes my testimony. I very much appreciate the opportunity 
to testify before you today and stand ready to answer any questions the 
Subcommittee may have.

    Senator Wyden. Thank you very much.
    Mr. Lewis, let us go to you next.

  STATEMENT OF SHAN LEWIS, PRESIDENT, INTER TRIBAL COUNCIL OF 
                      ARIZONA, PHOENIX, AZ

    Mr. Lewis. Mr. Chairman and members of the subcommittee, my 
name is Shan Lewis. I serve as President of the Inter Tribal 
Council of Arizona. Our members include 20 American Indian 
tribes, nations, and communities in Arizona on matters of 
international, national, and statewide importance to the 
tribes. I also serve as the vice chairman of the Fort Mojave 
Indian Tribe which has tribal lands in Arizona, California, and 
Nevada.
    I speak today on behalf of the Inter Tribal Council of 
Arizona, and it is with deep concern that we respectfully 
oppose the passage by the Senate Energy and Natural Resources 
Committee and the Senate of S. 3157, as introduced on June 18, 
2008.
    We must say at the outset, as Chairman Wendsler Nosie of 
the San Carlos Apache Tribe and President Bear on behalf of the 
Fort McDowell Yavapai Nation testified before the House on 
November 1, 2007, that the Federal agencies involved have 
failed to consult with us on a government-to-government basis 
on this matter. In this regard, this hearing is quite 
premature. No consultation has occurred. No environmental 
impact statement has been developed, and Resolution Copper does 
not even know if the mine is feasible.
    The Forest Service only announced on June 25, 2008 that 
Resolution Copper has filed a proposed plan of operation for a 
pre-feasibility study for the mine to be conducted around Oak 
Flat, the land Resolution Copper asked you to convey to it now. 
Comments on this pre-feasibility study are not due until July 
18, 2008.
    S. 3157 would direct Federal agencies to literally 
dismember a federally established recreation campground 
authorized during the presidency of President Dwight D. 
Eisenhower in an area within ancestral Indian tribal lands that 
are of unique cultural, spiritual, and archeological 
significance to American Indian tribes in the region.
    This project would deplete and contaminate water resources 
from nearby watersheds and aquifers, leaving in its wake long-
term and in some cases permanent religious, cultural, and 
environmental damage. Such destruction of the earth will remain 
long after Resolution Copper and its foreign-owned parent 
companies, Rio Tinto plc and BHP-Billiton, Ltd. have taken 
their profits from the copper ore and water, which it has no 
right, and have left the area. As American Indian tribes, we 
have seen this pattern repeated all too often and oftentimes 
with tragic consequences for our people and natural resources.
    Aside from the unequivocal surface destruction that would 
occur on lands under which the mining is proposed to take 
place, given the unpredictable reaction of nature and the 
extent of damage of block and cave mining has on the surface of 
land, contrary to claims by the mining companies involved, 
there is not a soul on this earth who can with certainty assure 
that Apache Leap will not be damaged by this method of mining, 
nor that it would potentially jeopardize the highway running 
through the area, nor the water resources of other people in 
the region. They can guess, estimate, and surmise, but they 
cannot guarantee. We ask then why would the United States 
permit this to happen when it is the trustee of our people, our 
cultures, our interests, and our homelands, as well as the 
steward of forest lands involved that belong to people of the 
United States.
    We strongly request and urge that you and your colleagues 
of the Senate Energy and Natural Resources Committee resist 
being pressured into giving these foreign entities such 
incredible rights to land and resources at the expense of so 
many environmental land stewardship and trust responsibilities 
for which your committee has its own responsibilities.
    ITCA and the San Carlos Apache Tribe, White Mountain Apache 
Tribe, Yavapai Apache Nation, Tonto Apache Tribe, Hualapai 
Tribe, Hopi Tribe, Fort McDowell Yavapai Nation, and many other 
tribes will submit more extended comments for the record of 
this hearing.
    I thank you, Mr. Chairman, and the subcommittee for 
allowing me to speak today.
    [The prepared statement of Mr. Lewis follows:]

 Prepared Statement of Shan Lewis, President, Inter Tribal Council of 
                    Arizona, Phoenix, AZ, on S. 3157

    Mr. Chairman and Members of the Subcommittee:
    My name is Shan Lewis. I serve as President of the Inter Tribal 
Council of Arizona. Our members include twenty American Indian Tribes, 
Nations and Communities in Arizona on matters of international, 
national and statewide importance to the Tribes. I also serve as Vice-
Chairman of the Fort Mojave Tribe, which has Tribal lands in Arizona, 
California and Nevada. Several ITCA Tribes have lands in more than one 
state.
    I speak today on behalf of the Inter Tribal Council of Arizona. It 
is with deep concern that we respectfully oppose the passage by the 
Senate Energy and National Resources Committee and the Senate of S. 
3157 as introduced on June 18, 2008.
    We must say at the outset (as Chairman Wendsler Nosie of the San 
Carlos Apache Tribe and President Bear on behalf of the Fort McDowell 
Yavapai Nation testified before the House on November 1, 2007) that the 
Federal agencies involved have failed to consult with us on a 
government to government basis about this matter. Under the United 
States Constitution, and our treaties, agreements, and Congressional 
and Executive policy, we request that the United States consult with us 
on a government to government basis about this matter prior to any 
decision to move forward. In this regard, this hearing is quite 
premature. No consultation has occurred. No environmental impact 
statement has been developed, and Resolution Copper does not even know 
if the mine is feasible.
    The Forest Service only announced on June 25, 2008 that Resolution 
Copper had filed a proposed ``plan of operation for a pre-feasibility 
study'' for the mine to be conducted around Oak Flats, the land 
Resolution Copper asks you to convey to it now. Comments on the pre-
feasibility study are not due until July 18, 2008.
    Senate Bill 3157 would direct federal agencies to literally 
dismember a federally established recreation campground authorized 
during the presidency of President Dwight D. Eisenhower in an area 
within ancestral Indian Tribal lands that are of unique cultural, 
spiritual and archeological significance to American Indian tribes in 
the region. It would facilitate a serious and highly damaging assault 
on the water, wildlife, and other natural as well as archeological and 
historic resources of the area by using highly surface-destructive 
block and cave mining all in the name of making the mining operation 
cheaper for the foreign multinational corporations that seek to extract 
the minerals from the ground there.
    Although we are not opposed to mining in general, this form of 
mining and mining in this location does not make sense, is offensive to 
us, and would pose a danger to many important values of the region. 
Further, the proposed mining operation would cause the collapse of the 
surface of the earth on the public lands owned by the American People 
and endanger the historic terrain at Apache Leap, Oak Flat, and Devils 
Canyon as well as the surrounding countryside.
    The project would deplete and contaminate water resources from 
nearby watersheds and aquifers leaving in its wake long-term, and in 
some cases, permanent religious, cultural and environmental damage. 
Such destruction of the Earth will remain long after Resolution Copper 
and its foreign-owned parent companies, Rio Tinto, PLC and BHP 
Billiton, Ltd. have taken their profits from the copper ore and water 
to which it has no right, and have left the area. As American Indian 
Tribes, we have seen this pattern repeated all too often and oftentimes 
with tragic consequences for our people and natural resources.
    This mining operation by Rio Tinto and BHP call for a land exchange 
that entails taking public land located in a particularly sensitive 
area and transferring it to the subsidiary of these two foreign 
conglomerates. To us, it is inappropriate for the United States to go 
to such extraordinary lengths to accommodate these foreign interests' 
desires to mine an ore body with such profound adverse impacts.
    These mining companies have sought to piece together a handful of 
small conservation projects in the state that may be meritorious 
individually in an attempt to soften the huge environmental blow that 
the mining project would deliver to the environment of the area. The 
proponents, in essence, advocate that the Congress agree to sacrifice 
the surface lands and the water that flows through their subsurface on 
lands immediately adjacent to Apache Leap; that is, to ``look the other 
way,'' so as to consciously permit this substantial insult to the lands 
and the resources involved to advance, just to facilitate the less 
expensive form of mining to benefit Rio Tinto and BHP.
    Aside from the unequivocal surface destruction that would take 
place on lands under which the mining is proposed to take place, given 
the unpredictable reaction of Nature and the extent of damage of block 
and cave mining on the surface of land, contrary to claims by the 
mining companies involved, there is not a soul on the Earth who can 
with certainty assure that Apache Leap will not be damaged by this 
method of mining, nor that it would potentially jeopardize the highway 
running through the area, nor the water resources of other people in 
the region. They can guess, estimate, and surmise . . . but they cannot 
guarantee. We ask, then, why would the United States permit this to 
happen when it is the Trustee for our People, our cultures, our 
interests, and our Homelands as well as the steward of forest lands 
involved that belong to the people of the United States?
    These foreign interests, clearly concerned about bottom-line 
matters rather than cultural and related matters of indigenous peoples, 
are apparently willing to promise almost anything to obtain more lands 
owned by the American public today for the self-interests of their 
shareholders. We urge that should not be the driving force or deciding 
factor in the Congress's consideration of this ill-considered venture.
    The environmental consequences to the lands in the proposed mining 
area as well as the harm to spiritual, cultural, archeological, and 
historic resources from the proposed mining by these huge foreign 
mining companies is to us, simply not something that our Trustee should 
willingly and consciously countenance and support all in the name of 
what is the ``cheapest'' way for these mining companies to turn a 
profit on resources. This land and its environmental beauty and 
resources are National treasures. There are time that our government 
should just say no and this is one of them. This type of mining in this 
location should not occur.
    We strongly request and urge that you and your colleagues on the 
Senate Energy and Natural Resources Committee resist being pressured 
into giving these foreign entities such incredible rights to lands and 
resources at the expense of so many environmental, land stewardship, 
and trust responsibilities for which your committee has such solemn 
responsibilities.
    ITCA and the San Carlos Apache Tribe, White Mountain Apache Tribe, 
Yavapai-Apache Nation, Tonto Apache Tribe, Hulapai Tribe, Hopi Tribe, 
Fort McDowell Yavapai Nation and many other Tribes will submit more 
extended comments for the record of this hearing.
    We thank the Chairman and the Subcommittee.

    Senator Wyden. Thank you very much, Mr. Lewis.
    Where we are, we have a vote on the floor of the Senate 
now. So Senator Barrasso and I will go over and make that vote. 
It is my intention to come back. Then we will go to you, Mr. 
Featherstone. Then I will have some questions for the three of 
you. Senator Barrasso may have some as well.
    Then for the third panel, which will be Mr. Price from 
Daniel, Wyoming, and Mr. Edwards from Montana, Senator Tester 
will chair.
    So our thanks to all of you for the patience. I know that 
you have come on a particularly chaotic day here in the Senate, 
and just know we will be back as soon as we can.
    With that, we are in recess until after this vote. Thank 
you.
    [Recess.]
    Senator Wyden. Thank you all for your patience. We will 
hear now from Mr. Featherstone. Please proceed.

   STATEMENT OF ROGER FEATHERSTONE, SOUTHWEST CIRCUIT RIDER, 
                     EARTHWORKS, TUCSON, AZ

    Mr. Featherstone. My name is Roger Featherstone. I am the 
Southwest Circuit Rider for Earthworks based in Tucson, 
Arizona. My territory covers the States of Arizona, California, 
Colorado, Nevada, New Mexico, and Utah.
    I would like to start by thanking Senator Wyden for holding 
this hearing.
    I would also like to say I am delivering my written and 
oral testimony today also on behalf of the Grand Canyon Chapter 
of the Sierra Club.
    Earthworks is a nonprofit, nonpartisan environmental 
organization dedicated to protecting communities and the 
environment.
    We are strongly opposed to S. 3157. This bill was written 
to benefit Rio Tinto and BHP-Billiton, two huge foreign mining 
companies, for the express purpose of expediting the building a 
mine in Arizona. These companies have formed a wholly owned and 
controlled subsidiary called Resolution Copper Company. This is 
the height of special interest legislation.
    This bill does not benefit the taxpayer. It does not 
benefit the environment, and if passed, it would set a 
dangerous precedent of mining companies going straight to 
Congress for legislative relief from laws that they and every 
other mining company have had no trouble in following in the 
past. Every other mining company in the United States that 
wants to build a mine goes through an established process that 
has been around since 1872. Instead of circumventing that 
process and going to Congress with this bill, what Rio Tinto 
and BHP should be doing is writing a plan of operations for a 
mine and then submitting it to the U.S. Forest Service for 
consideration. This would allow the public to participate in 
this process to help the Forest Service decide whether the mine 
design is a good one and should be permitted.
    Besides being unnecessary, there are numerous problems with 
this bill. The bill would override an executive order signed by 
President Eisenhower 50 years ago that recognized the value of 
having Oak Flat Campground as a haven for recreation and many 
other purposes.
    The bill would trample on the rights of the Native American 
community by giving away to a foreign corporation land that has 
been used for generations for cultural and spiritual practices.
    The bill purports to contain a NEPA provision, but upon 
closer examination, it does nothing but reiterate what is 
currently law. It does not allow a NEPA examination of the land 
exchange itself. If does not allow a NEPA examination of the 
mine proposal. All this NEPA language does is say that if 
Resolution Copper wants even more Federal land than what they 
would obtain in this land exchange for a road or other such 
structure, then an environmental impact statement would be 
prepared for that feature alone.
    This version of the bill also purports to include some sort 
of royalty. Again, this sounds good on paper, but when you look 
closer, you find several flaws. The companies would hire and 
pay for an appraiser that would set the royalty amount, set the 
method of royalty, and would also attempt to determine the 
amount of copper in the ground that could be mined. There would 
be no public input into the appraiser's decision. Only the 
Department of the Interior would oversee the appraisal, and as 
my written testimony points out, they have a track record of 
undervaluing public lands. If the appraisal comes in low or the 
royalty amount were set low, the public would be out of luck.
    If a royalty is to be meaningful at all as part of this 
bill, Congress should set the royalty amount, the royalty 
method, and the method for determining the quantity of mineral 
upon which that royalty is based.
    Further, S. 3157 makes it clear that the land surface will 
be given no value in the appraisal. Considering the ecological 
and cultural values of Oak Flat and the surrounding areas, at 
the very least the appraisal and any royalty should be set 
high. Maricopa Audubon Society in Arizona has done an 
extensive, on-the-ground survey of the parcels included in the 
exchange. While some of them have some ecological value, 
Maricopa Audubon Society has found that they do not equal the 
environmental and cultural value of the Oak Flat, Apache Leap, 
Devil's Canyon area that we would lose. This legislation could 
help address the question of the value of the land the public 
would lose, but it is silent on that point.
    In conclusion, this bill is bad public policy that benefits 
corporations at the expense of the taxpayers and the 
environment. This bill should not make it past this hearing.
    Thank you again for your time, and I look forward to your 
questions.
    [The prepared statement of Mr. Featherstone follows:]

  Prepared Statement of Roger Featherstone, Southwest Circuit Rider, 
                         Earthworks, Tucson, AZ

    Earthworks is a non-profit, non-partisan environmental organization 
dedicated to protecting communities and the environment from the 
adverse impacts of mineral development. Our national office, based in 
Washington D.C., provides support to citizens across the country and 
around the world. Our field offices in Arizona and Montana assist 
communities throughout the western United States concerned about the 
impact of mineral development in their backyards.
    Earthworks supports responsible mining policies and practices and 
recognizes that some mining companies seek to operate in a manner that 
protects our environment.
    The Sierra Club is America's oldest, largest and most influential 
grassroots environmental organization. Inspired by nature, the Sierra 
Club's members--including 14,000 in Arizona--work together to protect 
our communities and the planet. The Sierra Club's mission is to 
explore, enjoy, and protect the wild places of the earth; to practice 
and promote the responsible use of the earth's ecosystems and 
resources; to educate and enlist humanity to protect and restore the 
quality of the natural and human environment; and to use all lawful 
means to carry out these objectives. The Sierra Club's Grand Canyon 
Chapter has been actively involved in protecting public lands in 
Arizona for more than 40 years.
    We appreciate the opportunity to express our view in front of the 
Subcommittee about S. 3157, the Southeast Arizona Land Exchange and 
Conservation Act of 2008 (Oak Flat Land Exchange).

                               BACKGROUND

    Resolution Copper Company (RCC)--a wholly foreign-owned subsidiary 
of Rio Tinto and BHP, two of the largest mining companies in the 
world--is potentially planning to develop a deep underground copper 
mine. RCC seeks to acquire Oak Flat, Apache Leap, and surrounding 
public lands for its private use through this land exchange bill. There 
are many significant problems posed by this unusual bill. For example, 
if approved, more than 3,000 acres of the Tonto National Forest will 
become private property and forever off limits to recreationists and 
all those who enjoy public lands. Privatization of this land would end 
public access to some of the most spectacular outdoor recreation and 
wildlife viewing areas in Arizona. If a mine is developed, this land 
would be affected by massive surface subsidence, leaving a permanent 
scar on the landscape among other lasting and ongoing damage.
    The Oak Flat Campground was recognized by the Eisenhower 
Administration as an important recreational resource in 1955, and 
specifically placed off limits to future mining activity. This unique 
area is a world-class natural resource for birding, hunting, hiking, 
camping, rock climbing, bouldering, canyoneering, picnicking, 
responsible OHV driving, and other recreational uses. Oak Flat receives 
tens of thousands of visitors each year. On the eastern border of Oak 
Flat is Devil's Canyon, and the waters of Queen Creek, one of the crown 
jewels of Arizona's state trust lands, with some of the finest 
remaining riparian habitat in the state.
    The Oak Flat Campground, Apache Leap, and the surrounding area are 
very important for recreation and respite to the citizens of the town 
of Superior and a large percentage of Superior residents oppose the Oak 
Flat Land Exchange.
    Oak Flat, Apache Leap, Devil's Canyon, and the surrounding area 
have long been an important cultural site for Western Apaches as well 
as for the Fort McDowell Yavapai tribe. The Tonto National Forest has 
discovered at least a dozen archeological sites in and around Oak Flat. 
Apaches continue to use the Oak Flat area to gather acorns and pine 
nuts that are highly valued traditional and ceremonial foods. Making 
Oak Flat private land would forever eliminate those Apache traditional 
cultural and religious uses of that unique area. Apache Leap is an 
historical land known as the Apache's Masada. It is hallowed grounds 
where many dozens of Apaches leaped to their deaths when trapped by the 
US Army.
    The bill contains no meaningful environmental studies. Furthermore, 
RCC has not yet filed a mining plan and has offered scant and often 
conflicting information about (1) what will become of Oak Flat, Apache 
Leap, and environs; (2) where the mountains of mining tailings will 
ultimately reside; (3) where the enormous amounts of water needed for 
mining will come from and be discharged; (4) how endangered species 
(such as the Arizona hedgehog cactus, echinocereus triglochidiatus 
arizonicus) will be protected and preserved; and (5) how necessary 
cultural resources will be protected. Importantly, the bill makes no 
mention of the subsidence that could occur if RCC is allowed to mine 
this area as it intends. Much has yet to still be dealt with in terms 
of environmental considerations.
    This bill is at best premature. Before we can decide on the merits 
of any exchange, the public must review and debate a plan of operation 
for an actual mine. Only if, after full review of a plan of operations 
and alternatives, a decision is made to move forward with a mine, 
should it be determined if a land exchange is needed.
    For this, and other reasons listed below, we are opposed to the 
land exchange in its current form.

                      LOSS OF OAK FLAT CAMPGROUND

    Oak Flat campground was recognized by President Eisenhower as an 
important area back in 1955, when he signed Public Land Order 1229 
which specifically put this land off limits to future mining activity 
and reserved it for camp grounds, recreation, and other public 
purposes. Oak Flat provides many recreational opportunities for 
Arizonans, including for those in the local communities, and for others 
from around the country. Recreational activities in the area include 
hiking, camping, rock climbing, birding, bouldering and more.
    Oak Flat is a key birding area. Four of the bird species that have 
been sighted at Oak Flat are on the National Audubon Society's watch 
list of declining species that are of national conservation concern 
including the black-chinned sparrow, Costa's hummingbird, Lewis' 
woodpecker, and gray vireo. The endangered Arizona Hedgehog cactus 
(Echinocereus triglochidiatus var. arizonicus) also inhabits the Oak 
Flat area and is threatened by this proposed mine.
    In addition to privatizing this important area, S. 3157 also 
rescinds P.L.O. 1229. In Section 9 of the bill, titled ``MISCELLANEOUS 
PROVISIONS'', it revokes any public land order that withdraws Federal 
land or the land to be conveyed to Arizona State Parks It is disturbing 
to see this withdrawal of the protection for Oak Flat. Considering all 
the pressures on our public lands, the important services and 
opportunities they provide, and the important respite from the 
increasing urbanization they provide, it is a bad precedent and a bad 
message for the Congress to give up to a mining company an area 
protected by President Eisenhower more than 50 years ago.

                       THREATS TO DEVIL'S CANYON

    Devil's Canyon is located in the Tonto National Forest and on State 
Trust Lands near the proposed mine, just northeast of the town of 
Superior. It flows into Mineral Creek which is a tributary of the Gila 
River. Devil's Canyon provides important and all too rare riparian 
habitat in a state where much of our riparian habitat has been degraded 
or destroyed--most estimates indicate that more than 90 percent has 
been lost to water diversions, groundwater pumping, and other 
activities. It is an area enjoyed by hikers and climbers and those 
seeking some relief from the heat. Sycamores and Arizona alders thrive 
on Devil's Canyon's water and also provide valuable habitat for 
wildlife.
    Considering its proximity to the proposed mine and the amount of 
water the mine would utilize, between 17,000 and 19,000 acre feet of 
water per year, the risks of dewatering Devil's Canyon are significant. 
Banking Central Arizona Project water at a remote location as the 
company is currently doing will not protect this important riparian 
area.

                  NO MEANINGFUL ENVIRONMENTAL ANALYSIS

    For the first time, this version of the Oak Flat land exchange bill 
mentions the National Environmental Policy Act (NEPA). While this may 
sound like a step forward, the bill language does not change the status 
quo.
    There would be no NEPA analysis on the land exchange. The bill 
forbids any NEPA analysis of impact except for commercial production 
and then ONLY if there were a Federal nexus to what would become RCC 
private land. The very fact that the entire section that deals with 
NEPA is titled ``POST-EXCHANGE PROCESSING'' makes it clear that no NEPA 
would occur until the land exchange was a done deal. At that point, the 
bill clearly states that NEPA would only happen ``regarding any Federal 
agency action carried our relating to the commercial production...'' 
This is already the case. A mine on private land that, for example, 
wanted to build a road across Federal land would require NEPA on that 
action. The only real difference this ``NEPA'' section would make is 
that an EIS would need to be done instead of a simpler Environmental 
Assessment.
    Even if this provision would somehow invoke a NEPA analysis on a 
mine design (and this would be highly unlikely), the exchange and the 
mine would already be a done deal and the NEPA analysis would be moot 
at best and more likely a complete waste of taxpayer money done simply 
to give RCC some extra ``window dressing.''.
    There would still be no analysis in the bill of the impacts on the 
land traded out of public ownership, including impacts from mining or 
other uses of the land on adjacent lands.
    There is plenty of time to undertake the full public review of any 
possible mine under Oak Flat and Apache Leap. Full public review and 
input would show that the area is critically important to Western 
Apache and others--a point that is being glossed over in the current 
rush to approve the exchange.
    S. 3157 allows Resolution Copper Company to bypass the National 
Environmental Policy Act (NEPA), as would be required if this land 
exchange was evaluated through the administrative process. An 
administrative exchange would require a NEPA Environmental Impact 
Statement on the exchange itself, including an examination of 
alternatives, the environmental impacts, the cumulative impacts 
(including past and anticipated impacts in the area), and possible 
mitigation of the impacts. This type of analysis helps the public 
better evaluate whether they are getting a fair exchange and also 
evaluate the true environmental impacts of such an exchange. A NEPA 
analysis can identify a less environmentally harmful alternative as 
well. It is clear that Resolution Copper Company (RCC) will benefit 
enormously from this exchange. It is clear that the public would not 
get a fair return on the loss of Oak Flat, the possible damage to 
Devil's Canyon, and the threats to Apache Leap.
    Because there is no NEPA process associated with the exchange 
itself, there is no opportunity for the public to review a Mining Plan 
of Operation up front.
    There are key questions outstanding on this proposal which make it 
impossible to say the exchange is in the larger public's interest. 
Where would all mining waste go? What is the plan for the mine 
tailings? Is this a sulfide ore, which is often the case for ore that 
is below the water table? If it is, how are they going to address the 
acid mine drainage from the rock dumps? How are they going to process 
the ore? At one point they suggested using the leach pad at Pinto 
Valley, but if their estimates on the amount of ore are accurate, they 
could only process a fraction of the ore at that leach pad. Are they 
going to smelt the ore? If so, where? Clearly there are significant air 
quality issues associated with that, not to mention considerable energy 
use.
    If done properly and with a solid open public process, an 
environmental analysis can inform the proposed action. A study after 
the fact does not allow that, plus there will be no opportunity to 
choose the no action alternative or a less environmentally damaging 
alternative. We will not know the effects of this proposed mine on 
Devil's Canyon until after the fact. We will not know if it is really 
necessary for the public to give up Oak Flat in the exchange or if they 
can mine this ore body without it until after the deal is done.
    The study after the fact might make people feel better about the 
deal, but its value is negligible, at best, as it will not change the 
outcome. The exchange will not be modified.
    If the information that Resolution Copper Company has provided on 
this proposed mine is accurate, this mine will be the largest mining 
operation in Arizona. It would be larger than the Phelps Dodge (now 
Freeport McMoRan) Morenci Mine and one of the largest working copper 
mines in the United States. To allow the company to circumvent the 
National Environmental Policy Act on such a large mine that has great 
potential to negatively affect the surrounding environs and that has so 
many unanswered questions associated with it, would be potentially 
harmful to Arizonans and United States taxpayers.

                              SHAM ROYALTY

    Section 10 of this version of the land exchange contains a 
provision for RCC to possibly pay a royalty to the Federal government. 
While this provision may look good on the surface,, it is essentially 
an attempt to ``greenwash'' the bill to make it more palatable to 
decision-makers.
    There is no mention in the bill of either the royalty amount or the 
royalty method. We have attached to our written comments copies of 
reports EARTHWORKS has prepared showing the problems with different 
kinds of royalties. Congress should, at the very least, specify both 
the royalty amount and define the royalty calculation method. Royalty 
amounts paid on private lands in the United States are as high as 18 
percent. Especially since Oak Flat and Apache Leap are so important to 
the public (including Native American communities, recreationists, and 
for conservation purposes)purposes) the royalty amount should be enough 
to attempt to compensate for these losses. Especially since the bill 
language makes it clear that the appraiser will not be placing a value 
on the surface estate of Oak Flat and Apache Leap.
    The bill places the entire burden of setting the rate and method of 
the royalty to the appraiser and out of the hands of Congress and the 
public. This is bad policy. Since most appraisers that are experts in 
setting royalties spend the majority of their time working for the 
mining industry, there is a high likelihood that, without oversight by 
Congress or the public, that the royalty amount would be set far too 
low. The way the bill is written, only RCC and the Department of 
Interior will have any input into setting the royalty amount or method.
    This royalty section also does not specify the quantity of mineral 
production used in the appraisal calculations or any analysis of how 
the estimate was calculated. Again, the company (who would be 
responsible both in hiring and paying for the appraisal) would wish to 
lowball these calculations to avoid paying money up front for the value 
of minerals taken out of the public domain.
    A critical issue that is not addressed by this legislation is the 
value of the lands that RCC will acquire. There is no real discussion 
of the known and anticipated mineral values on the US Forest Service 
(public) lands. It is difficult to understand how this land exchange 
could move forward without solid appraisals, including on the value of 
the copper itself.
    The Mineral Report and Feasibility Study help provide the basis for 
the appraisal. The value of the exchange cannot possibly be properly 
evaluated without that.

                 INHERENT PROBLEMS WITH LAND EXCHANGES

    In particular, this land exchange bill does little to ensure that 
the land trade would fairly compensate the American public for the loss 
of Oak Flat and Apache Leap. The bill requires that an appraisal be 
completed within one year, yet the company itself will have no idea of 
the full value of the minerals that are now held in the public trust. 
This is particularly important given that the royalty payments in 
Section 10 of the bill are based on this appraisal.
    There is no mandate that RCC build a mine if the exchange were to 
be approved. If the company decides not to mine, Rio Tinto and BHP 
would be able to enter into the real estate development business. If 
this bill passes, the land will be private land, allowing mining 
companies to sell the land for condominiums or golf courses. Rio Tinto 
is currently planning a massive housing development on its mine land 
outside of Salt Lake City that could house as many as 500,000-600,000 
people. BHP is planning a large subdivision for 3,500 at its mine site 
near San Manuel. There is nothing to stop RCC from using this bill as a 
grab of public land under the guise of mining.
    While land exchanges can be a tool for conservation, it is a 
limited tool and the pitfalls are many. It should be used very 
judiciously. Even with an administrative exchange that would include 
examination of alternatives and would look at the environmental 
impacts, it is difficult to determine if the public's interest is 
really being served. Even though the federal land management agencies 
are required to do thorough reviews and ensure that a trade is in the 
public interest, there are significant problems. The General Accounting 
Office (GAO) issued a report in June 2000 where it examined a total of 
51 land exchanges, most of which occurred in the west (BLM and the 
Forest Service: Land Exchanges Need to Reflect Appropriate Value and 
Serve the Public Interest, GAO/RCED-00-73, June 2000.) The GAO auditors 
found that often the public lands were being undervalued while the 
private lands were being overvalued, resulting in significant losses to 
taxpayers. The agency also found that many of these exchanges had 
questionable public benefit.
    The GAO discovered that there were some exchanges in Nevada in 
which the nonfederal party who acquired federal land sold it the same 
day for amounts that were two to six times the amount that it had been 
valued in the exchange. While that would not necessarily be the case 
here, we do know that the non-federal party is likely to make billions 
of dollars off this land, far short of what the public will get in 
return.
    While the GAO was examining administrative exchanges, it noted that 
there are inherent problems with exchanging lands no matter the 
mechanism. In particular, it noted that there are no market mechanisms 
to address the issues relative to value for value.
    Land exchanges have been very controversial in Arizona, which may 
be one more reason that large corporations do not want to go through 
the National Environmental Policy Act process which includes 
significant public involvement. Arizonans have made it clear how they 
feel about land exchanges by rejecting six times land exchange 
authority for the Arizona State Land Department.
    In 2003, an independent entity, the Appraisal and Exchange Work 
Group, was formed to review Bureau of Land Management (BLM) land 
exchanges. The Work Group's report concluded that BLM's land appraisals 
were inappropriately influenced by the managers wanting to complete the 
deals and that these unduly influenced appraisals cost the public 
millions of dollars in lost value in exchanges with private entities 
and state governments.
    One land swap resulted in an ethics violation investigation of 
Kathleen Clarke, the BLM Director at the time. The proposed San Rafael 
Swell land exchange would have cost federal taxpayers $100 million 
because the BLM lands were so undervalued. The Office of Inspector 
General's Report on the San Rafael Land Exchange found that several BLM 
employees devalued the public lands and kept information from Congress.

                              RECLAMATION

    There is no discussion about reclamation or closure of a mine in 
the bill. If the land were privatized, Arizona state law would allow 
the company itself to insure the cost of reclamation. This type of 
self-guaranteed bond leaves the taxpayers vulnerable if the mining 
company is to go bankrupt. We should learn from the example of the 
bankruptcies of ASARCO and other mining companies. Without cash up 
front for reclamation, the taxpayer would be left responsible for 
reclamation costs.

                     CATERING TO SPECIAL INTERESTS

    RCC has gone to great lengths in this bill to attempt to 
accommodate several interest groups. The bill bends over backwards to 
provide incentives for rock climber support of the bill. Yet in spite 
of this effort, all but a few climbers oppose the exchange. The bill's 
sponsors have offered parcels of land that would benefit only certain 
conservation organizations. Yet, the bill locks other groups out of 
areas traditionally used by the public. Not only would Native Americans 
be locked out of traditional-use areas, but so would recreationists and 
birdwatchers. Such a divide and conquer strategy of talking to and 
appeasing only certain special interest groups is not the way to 
conduct good public policy.
    In addition, RCC has used what could certainly be considered 
strong-arm tactics in eliciting letters of support from local 
governments including the town council and Mayor of Superior. If 
similar tactics, including working behind the scenes to force the 
firing of individuals opposing the Land Exchange, were used in other 
countries, Americans would be outraged. Such behavior is hardly 
consistent with an environmentally and socially conscious corporate 
citizen.

                                SUMMARY

    There is no need for a land exchange in order for RCC to move 
forward with plans to mine on public land. The 1872 Mining Law, which 
governs hard rock mining on public land, makes it clear that RCC has 
the ability to propose a mine on public land. Of the 183 major hard 
rock mines in the US that have opened since 1975, 137 have operated on 
public land.
    The real solution is to put this land exchange bill on hold and ask 
RCC to submit a Plan of Operation to the U.S. Forest Service so that an 
Environmental Impact Statement can be written to cover all the 
alternatives in the project. RCC has stated that it will not be ready 
to mine for at least 10 years, giving the Forest Service and the public 
plenty of time to scrutinize the mine plan and come up with a solution 
that benefits the mining company, recreationists, and the traditional-
use tribal interests.
    Unfortunately, this land exchange bill leaves many affected parties 
out of decision-making process. The bill takes the decision from the 
many and puts it in the hands of a few, undercutting good decision-
making that would involve and benefit the public and surrounding 
communities. Rather than working out the details behind closed doors, 
RCC should allow for full disclosure and scrutiny. This will allow any 
environmental issues--such as subsidence, water use, and pollution 
issues--to be dealt with early on in the process. It will also allow 
RCC to fully consult with the tribes and other constituencies that will 
be affected by the exchange. There seems to be only one reason this 
bill is being rushed through the process--the companies know that the 
only way to get what they want is to circumvent America's tried and 
true public process by asking Congress to mandate a quick fix.
    This land exchange bill would set a chilling precedent, allowing 
for the revocation of similar land withdrawals such as parks, 
recreation areas, and wildlife refuges. Public lands such as Oak Flat 
that are set aside for recreation should remain protected for future 
generations. This land exchange bill would sacrifice the interests of 
Arizonans and all Americans, to benefit a mining company. Twenty years 
from now--if a mine is built and ceases operation and the jobs once 
again leave--what will be the fate of these towns and landscapes? We 
strongly urge you to protect these public lands for the public's future 
use and preserve the unique opportunities for Arizonans that the Oak 
Flat area provides.
    Recently the public has spoken loudly on several occasions about 
keeping America's public lands public. This is just another land grab 
under the guise of mining. Do not let this happen. There is time to do 
this right.

    Senator Wyden. Thank you all. I just have a couple of 
questions at this point.
    For you, Mr. Salisbury, S. 3157 would lift a withdrawal and 
provide for the conveyance of this Oak Flat Campground, this 
popular campground. That is certainly part of the debate 
surrounding the legislation. Is the withdrawal and the 
conveyance of that national forest land essential to the 
development of the mine or could you proceed to develop the 
mine without it?
    Mr. Salisbury. Thank you, Mr. Chairman. The known ore body 
that we have abuts the campground boundaries. Therefore, the 
mineral exclusion of the campground prohibits us from exploring 
and identifying what the extent of the ore body is. Therefore, 
as we look at the ability to fully develop a mine plan, to 
fully develop a plan of operations, we would be unable to carry 
that work out without knowing what the ore body extent is and 
what its extent is that extends under the campground. So 
therefore, that is why we need the campground in order to be 
able to drill under there and determine what the ore body 
capacity is.
    Senator Wyden. So on a yes or no with respect to my 
question, you would say that you could not develop the mine 
without it.
    Mr. Salisbury. The ore body, because it abuts to the 
campground--it would not be advisable for us to move forward 
with the mine development without knowing what is under there, 
and the exchange is essential to the development of the mine.
    Senator Wyden. So the answer is yes.
    Mr. Salisbury. The answer is yes. The exchange is essential 
to the full development of the mine.
    Senator Wyden. Now, it is my understanding that a number of 
people, including the Governor and members of the congressional 
delegation, have contacted you to urge you to include in the 
exchange a piece of property along the lower San Pedro River, 
an important piece of property evidently. It is near the Town 
of San Manuel that is owned by your minority partner in the 
project, BHP-Billiton.
    Can you tell the subcommittee why you have not included 
that piece of property in the proposal?
    Mr. Salisbury. We have a relationship with BHP-Billiton as 
a minority partner where we have encouraged them to consider 
that addition. However, we have no control absolute over their 
inclusion of that in this bill. While we have encouraged their 
participation and they do participate in the Lower San Pedro 
Working Group, we can only encourage and solicit their 
participation or consideration of that, but we cannot command 
them to make that parcel a part of this exchange.
    Senator Wyden. Now, Mr. Featherstone suggested that 
Resolution Copper should develop a plan of operations and 
alternative before a decision is made on whether to move 
forward with the land exchange. In your mind, is that a 
feasible approach?
    Mr. Salisbury. Because we do not understand and cannot 
drill under the campground area, we can only do a partial 
design of a mine. It is important for us to know precisely the 
mineral capacity, the mineral quality, the geotechnical 
capacity that exists there in order for us to fully complete a 
mine design. This includes the determination of the degree of 
subsidence that may exist under the mine.
    May I just respond to an earlier question, chairman, if I 
might? Our infrastructure exists between the mine ore body and 
the Apache Leap. Therefore, any degradation to the Apache Leap 
would disable our mine. We would not be able to continue. So 
therefore, we are confident and our experience tells us in this 
mining process we know how to control, that we know how to 
monitor this kind of mining activity, and we will protect the 
Leap.
    Senator Wyden. Mr. Featherstone, do you want to respond to 
the answer Mr. Salisbury gave to my question?
    Mr. Featherstone. The question of subsidence or the 
question of whether they need the campground?
    I would point out that in respect to the campground, 
President Eisenhower--and reiterated by President Nixon--knew 
very well that this was in the middle of a mining district and 
felt that the values of that campground far outweighed any 
mineral extraction values. So now we are hearing that another 
mining company wants this area and we should just roll over and 
give it to them.
    So I do not believe that--I mean, I think it is clear that 
the Apache Leap area--or the Oak Flat Campground can be 
sterilized in a mining operation, just as they would sterilize 
Apache Leap, and a mine could continue in that area, as the Old 
Magnum Mine happened, without interrupting or bothering that 
campground.
    Senator Wyden. Just one last question. Mr. Lewis, are the 
tribes opposed to the legislation under any circumstance, or 
are there a set of changes that would make the tribes support 
it?
    Mr. Lewis. I think right now with the current legislation 
that the tribes oppose, I do not think we are at the point 
where anything could be put into legislation to change our 
minds. We hope that a full, comprehensive environmental study 
be done to determine whether or not this project is even 
feasible. Obviously, government-to-government consultation 
would be part of that also.
    Senator Wyden. All right. I have finished my questions 
about Arizona. I know Senator Tester is very anxious to talk to 
Mr. Edwards and Mr. Price.
    Senator Craig, did you have questions that you wanted to 
offer now? Because if you do, I think I may have Senator Tester 
chair. I will yield the gavel.
    Senator Craig. Mr. Chairman, I am here primarily under the 
same interest that Jon is. So why do we not proceed to that?
    Senator Tester. If I might, Mr. Chairman. I did not hear 
the testimony of these three fine gentlemen, with the exception 
of Roger Featherstone. I do have a couple questions for David 
Salisbury, though.
    Senator Wyden. Then let us do this. I am going to--because 
I think fairly shortly we will move to the third panel, I will 
turn the gavel over to you, Senator Tester, for any questions 
you have of this panel and, Senator Barrasso, if you have any 
questions of this panel, and that will wrap up this panel. Then 
we will go on with the additional witnesses.
    Senator Tester. I just have two very simple questions for 
you. Do you know the size of the ore body, David Salisbury? Do 
you know the size of the ore body?
    Mr. Salisbury. We have been exploration drilling the 
property since 2004. We have just completed and publicly 
released a statement that indicates that there is an inferred 
reserve. This is according to standards that are required by 
the SEC--an inferred reserve of 1.3 billion tons of ore 
containing 1.5 percent copper and .04 molybdenum. So we do have 
an idea of what there is there on an inferred basis, yes.
    Senator Tester. How deep is the ore body?
    Mr. Salisbury. It ranges from a depth of 7,000 feet up to 
4,000 feet below the surface at the present time. That is our 
knowledge.
    Senator Tester. Thank you very much.
    No other questions? Then I will release you three guys. 
Thank you for your testimony. Thank you for being here.
    We will call forward Mr. Edwards and Mr. Price. While they 
are getting situated, I want to thank Mr. Edwards and Mr. Price 
for being here today. I appreciate the trip. It is a long haul 
from Montana and Wyoming to get out here. So I appreciate you 
guys making the effort.
    We look forward to your testimony, and once you get 
situated, Mr. Edwards, you can start with your testimony. Your 
complete testimony will be a part of the record. I will ask you 
to summarize as best as possible because we have got some 
questions, and we are getting into the day pretty good. I am 
sure you guys want to probably get somewhere tonight too. So, 
Mr. Edwards, you go ahead and go and summarize your high 
points. Thank you.

    STATEMENT OF GEORGE EDWARDS, LIVESTOCK LOSS MITIGATION 
    COORDINATOR, MONTANA DEPARTMENT OF LIVESTOCK, HELENA, MT

    Mr. Edwards. Mr. Chairman and members of the committee, 
thank you for the opportunity to testify before you today.
    The Gray Wolf Livestock Loss Mitigation Act of 2008 is 
similar to Montana's livestock loss reduction and mitigation 
program. Through our program, we are looking for ways to fund 
prevention efforts and livestock losses due to gray wolves in 
our State. Montana law also contains provisions so that we will 
be able to include Montana Indian tribes, provided they have 
adopted a wolf management plan that is consistent with 
Montana's State wolf management plan.
    During the 2007 Montana legislative session, the Livestock 
Loss Reduction and Mitigation Board was created to administer 
programs for mitigation and reimbursement of livestock losses 
by wolves. This board is currently attached to the Montana 
Department of Livestock. Our mission is to help support Montana 
livestock communities by reducing the economic impacts of 
wolves on individual producers by reimbursing their confirmed 
and probable losses and helping to reduce their losses by 
approving projects and funding programs that will discourage 
wolves from killing livestock.
    Our program's purpose is to acknowledge the importance of 
economic viability and sustainability of individual livestock 
owners who are negatively affected by wolf recovery.
    Our program is based on the belief that both government and 
livestock owners want to take reasonable and cost effective 
measures to reduce losses and that livestock producers should 
not incur disproportionate impacts as a result of recovery of 
Montana's gray wolf population.
    We began to process claims as of April 15 and pay 100 
percent of the market value for confirmed and probable losses. 
All confirmed and probable losses are verified by USDA Wildlife 
Services personnel. Prior to beginning our claims process, a 
private organization, Defenders of Wildlife, had been paying 
claims. Defenders of Wildlife has made a donation of $50,000 in 
April 2008 and has pledged to donate another $50,000 in 2009. 
Without this donation, we would be unable to pay claims for 
livestock losses as of July 1, 2008.
    The fiscal note for Montana's legislation creating our 
program estimated losses caused by wolves to be $200,000 
annually. Since this legislation was originally drafted in 
2006, the number of wolves in Montana has increased by 34 
percent. Actual confirmed and probable livestock losses have 
more than doubled since this legislation was introduced.
    Livestock owners are shouldering an economic burden beyond 
their control. This legislation will help address funding of 
livestock losses and activities to reduce predation. Prevention 
programs in this legislation are critical to our livestock 
industry and we want to be able to implement them. Hopefully, 
being able to fund preventative methods will reduce the 
financial and emotional toll to our livestock owners.
    Programs like Montana's livestock loss reduction and 
mitigation program, with the help of Federal funding, will 
allow wolves and livestock to coexist. Help me help them and 
thank you for the support of this bill.
    [The prepared statement of Mr. Edwards follows:]

    Prepared Statement of George Edwards, Livestock Loss Mitigation 
        Coordinator, Montana Department of Livestock, Helena, MT

    Mr. Chairman and members of the Committee, thank you for the 
opportunity to testify before you today.
    The Gray Wolf Livestock Loss Mitigation Act of 2008 is similar to 
Montana's Livestock Loss Reduction and Mitigation program. Through our 
program, we are looking for ways to fund prevention efforts and 
livestock losses due to gray wolves in our state. Montana law also 
contains a provision so that we will be able to include Montana Indian 
Tribes provided that they have adopted a wolf management plan that is 
consistent with Montana's state wolf management plan.
    In 2005, Montana entered a memorandum of understanding (MOU) that 
allowed the state to implement it's approved plan within federal law 
and guidelines in place at the time. The MOU allowed Montana and the 
Indian Tribes to lead wolf conservation and management activities 
within their respective boundaries. In its 2007 Annual Report, Montana 
reported over 420 wolves in about 73 packs and 39 breeding pairs, with 
demonstrated distribution among Montana's portion of all three Northern 
Rocky Mountain subpopulations.
    In keeping with Montana's tradition of broad-based citizen 
participation in wolf conservation and management, a diverse, 30-member 
working group met 4 times in 2005. The working group was comprised of 
private citizens, representatives from non-governmental organizations, 
and representatives from state and federal agencies. A smaller 
subcommittee continued to meet in 2006. This group finalized a 
framework which became the basis for legislation in the 2007 Montana 
Legislature.
    During the 2007 Montana Legislative session, a bill to establish 
the framework of the working group was introduced and passed (HB364). 
The legislation created the Livestock Loss Reduction and Mitigation 
Board to administer programs for the mitigation and reimbursement of 
livestock losses by wolves. It also established the quasi-judicial 
board, its purpose, membership, powers and duties, and reporting 
requirements. The Board is administratively attached to the Montana 
Department of Livestock, but its role and duties are wholly independent 
from Montana Fish, Wildlife and Parks and the Montana Board of 
Livestock.
    Late in 2007, the Governor appointed the Board. The legislation 
also codified much of the actual draft framework in state law. It 
directed the Board to establish a program to cost-share with livestock 
producers who are interested in implementing measures to decrease the 
risk of wolf predation on livestock. It also directed the Board to 
establish and administer a program to reimburse livestock producers for 
losses caused by wolves. While some details of the grant program (loss 
reduction) and the reimbursement program (loss mitigation) are 
established in statute, the Board is in the process of establishing 
additional details through a rule-making process, which will include 
public comment opportunities.
    Board makeup consists of seven members appointed by our Governor. 
Three members were selected from a pool of names recommended by the 
Montana Department of Livestock, another three members were recommended 
by Montana Fish, Wildlife and Parks and one member from the general 
public.
    Gray wolves are firmly established in Montana. The long term 
presence of wolves is dependent upon comprehensive programs that 
carefully balance complex biological, social, economic and political 
aspects of wolf management. One challenge that must be addressed in 
seeking this balance is that gray wolf recovery has and will continue 
to result in the loss of personal property and income to livestock 
owners.
    Our mission is to help support Montana livestock communities by 
reducing the economic impacts of wolves on individual producers by 
reimbursing their confirmed and probable wolf-caused losses and helping 
to reduce their losses by approving projects and funding programs that 
will discourage wolves from killing livestock.
    Our programs purpose is to acknowledge the importance of economic 
viability and sustainability of individual livestock owners in Montana 
who are negatively affected by wolf recovery and to ensure a viable, 
well distributed gray wolf population that meets recovery goals and is 
managed similar to that of other large carnivores. The program was 
created to fulfill a compensation provision of Montana's Gray Wolf 
Conservation and Management Plan.
    More specifically, the purpose of the loss reduction and mitigation 
programs are:

  <bullet> to proactively apply prevention tools and incentives to 
        decrease risks of wolf-caused losses;
  <bullet> to provide financial reimbursements to livestock owners for 
        losses caused by wolves.

    The program is based on the belief that both government and 
livestock owners want to take reasonable and cost effective measures to 
reduce losses, the acknowledgement that it is not possible to prevent 
all losses, and that livestock producers should not incur 
disproportionate impacts as a result of recovery of Montana's gray wolf 
population.
    To help fund this program, Montana legislators created a trust fund 
that may collect up to five million dollars. The livestock loss 
reduction and mitigation trust fund is to be funded with gifts, grants, 
appropriations, or allocations from any source.
    In designing this program legislators envisioned using a trust 
fund, private donations, state appropriations and federal 
appropriations to provide loss reduction grants and payments for losses 
and mitigation efforts.
    The Montana legislation creating this program provided $60,000 
appropriation from the general fund in fiscal year 2008 for one full 
time employee, operating expenses to establish the board and board 
activities. Another $60,000 is appropriated for FY 2009. $30,000 was 
placed into a fund for fiscal year 2008 for our program to begin loss 
payments. Currently, there are no funds appropriated in our trust fund.
    We began to process claims as of April 15th and pay 100% of the 
market value for confirmed and probable losses. All confirmed and 
probable losses are verified by USDA Wildlife Services personnel. Prior 
to beginning our claims process, a private organization, Defenders of 
Wildlife, had been paying 100% for confirmed losses and 50% for 
probable losses.
    Defenders of Wildlife has made a donation of $50,000 in April 2008 
and has pledged to donate another $50,000 in 2009. Without this 
donation we would be unable to pay claims for livestock losses as of 
July 1, 2008.
    The loss reduction element is intended to minimize losses 
proactively by reducing risk of loss through prevention tools such as 
night pens, guarding animals, or increasing human presence with range 
riders and herders.
    The fiscal note for the legislation creating our program estimated 
losses caused by wolves to be $200,000 annually. Since this legislation 
was originally drafted in 2006, the number of wolves in Montana has 
increased by 34%. Actual confirmed and probable livestock losses have 
more than doubled since this legislation was introduced. Only a small 
fraction of predator-killed livestock are ever found. Loss figures in 
USDA Wildlife Services reports only reflect a fraction of predator 
related losses because no entity is able to verify all causes of 
livestock loss. As wolf populations increase, wolf/human conflicts are 
expanding on private land, other lands and across jurisdictions. The 
number of gray wolves is significantly increasing. Losses are occurring 
at a rapid pace and the importance of being able to fund prevention 
efforts becomes more vital to our livestock industry.
    As with this bill, Montana's program covers cattle, swine, horses, 
mules, sheep, goats, and livestock guard animals.
    The Montana Livestock Loss Reduction & Mitigation Program covers 
losses due to gray wolves. Losses due to coyotes, grizzly bears, black 
bears, mountain lions and red fox are not currently part of our 
program.
    The following is a breakdown of animals killed in Montana by wolves 
since 2006:

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Loss numbers are supplied by USDA Wildlife Services. 2008 numbers 
reflect only an eight month long timeframe. This is very early in the 
summer and most livestock are just going to summer range where a lot of 
predator related losses historically occur.
    Our program offers a transparent approach to our operations. All 
livestock loss claims begin when a livestock owner calls USDA Wildlife 
Services to investigate a loss. When it has been determined that the 
loss is caused by wolves, Wildlife Services personnel send the 
livestock owner an investigative report and our loss reimbursement 
application. The livestock owner then has the option of submitting a 
claim to our office. We use a weekly USDA market report to determine 
livestock values for commercial livestock. Registered livestock values 
are determined by sales receipts of similar age and sex at public or 
private sales for that registered breed.
    The livestock owners of Montana, Wyoming and Idaho are shouldering 
an economic burden beyond their control. This legislation will address 
funding of livestock losses and activities to reduce predation. At the 
present time we don't have the necessary funding to offer preventative 
programs. Prevention programs in this legislation are critical to our 
livestock industry and we want to be able to implement them. Livestock 
losses are occurring at a rapid pace and we are having great 
difficulties in raising funds to keep up. Hopefully being able to fund 
preventative methods will reduce the financial and emotional toll to 
our livestock owners.
    Benefits to the general public are immeasurable. Our three state 
regions offer the ability for our children and future generations to 
see wolves in their natural habitat.
    We also need to keep our nations agricultural producers 
economically sound. Programs like Montana's Livestock Loss Reduction & 
Mitigation Program with help from federal funding will allow wolves and 
livestock to co-exist. Help me help them and thank you for your 
support.

    [Additional information has been retained in subcommittee files.]

    Senator Tester. Thank you, George. I appreciate your 
testimony. We will have questions after Mr. Price gets done 
with his.
    Mr. Price.

           STATEMENT OF CHARLES C. PRICE, DANIEL, WY

    Mr. Price. I am, of course, Charles Price from Wyoming, and 
Senator Wyden is not here, but Senator Tester, I got the 
invitation from Senator Wyden. So I will thank him for the 
invitation.
    Senator Tester. Good to have you here.
    Mr. Price. John Barrasso or Senator Barrasso. I knew him as 
Dr. Barrasso in Wyoming. Thank you.
    I guess I am addressing you on behalf of myself, the Upper 
Green River Cattle Growers Association, and the Wyoming Stock 
Growers Association and, to the best of my ability, the people 
or citizens of Wyoming who are being impacted by these large 
carnivores. In my discussion, it will be both grizzly bears and 
wolves because we are impacted by both of them.
    I am a member of the Upper Green River Cattle Association, 
an association of 16 cattle ranchers who graze cattle in the 
Upper Green River area. This area is within about 50 miles of 
the Yellowstone Park. The numerical information that I am 
presenting today is based on the Upper Green River Cattle 
Association records from 1990 to 2004. I have also extracted 
information from 2005 to 2007 so that you will get an idea of 
the complete losses.
    The details of this information are presented and analyzed 
in a draft of a paper that we are working on for publication. I 
have brought a number of copies of this paper today, and I left 
those with Senator Barrasso's office and you can obtain them. 
It has got detailed analysis, statistical analysis, to support 
the numbers that we have generated in this report. I feel 
pretty confident that the information is good.
    We identified a predation problem in 1995 and began to 
compile a consistent record of the calf losses starting in 1990 
using association members' records. Prior to 1995, we had no 
known grizzly or wolf predations, although as we look back, we 
recognize we did have a low level of predation earlier.
    In 1995, we had our first confirmed grizzly bear predation, 
and it is important to know what a confirmed kill or predation 
is. A confirmed predation kill or damage is one in which the 
responsible agency, U.S. Fish and Wildlife Service, U.S. 
Wildlife Services, or the Wyoming Fish and Game, examines the 
damaged animal and confirms that it is damaged by a particular 
predator and issues an affidavit to the owner of that animal. 
So it is a third party confirmation.
    Analysis of our records shows that calf losses increased 
with the expansion of grizzly bears and wolves into our grazing 
area. From 1995 to 2004, there were 29,693 calves that were 
grazed on the allotment. Out of that, there were 1,332 calves 
that were lost to all causes, but the predator losses for 
grizzly bears were 520 in that period of time. Wolves, having 
just come in at that time, were 177 losses of those calves to 
those predators.
    Although there have been and are still various levels of 
compensation for livestock loss due to predation, these 
previous compensation programs fall short. Our analysis 
estimates that the uncompensated impact to producers in our 
allotment amounts to $22,500 for that period of 1995 to 2004. 
Compensation is usually based on a confirmed kill. However, 
only a fraction of the calves damaged or killed are actually 
found and confirmed. In the case of grizzlies, our study shows 
only 1 in 3.8 calves are found. In the case of wolves, it is 
even worse than that. It is 1 in 6.3. This is based on our 
finding. This leads to the concept of a compensation factor, a 
multiplier that can be applied to the number of confirmed kills 
to fairly compensate producers for their predator losses.
    As I said, I extracted information from 2005 to 2007, and 
from that period of time, we had 59 confirmed grizzly kills, 35 
wolf kills. Using the multipliers of 3.8 for the grizzlies, 
means that there were 224 calves killed by grizzlies in that 3-
year period. For wolves, using the 6.3 multiplier, there were 
221 calves in that period that were killed by wolves. Using 
this estimation, I estimate that over 1,100 calves were killed 
from 1995 to 2007. Now, you can think about that a little bit. 
If a calf is $500, that is simple. That is over a half a 
million dollars of loss, direct loss, to the livestock owner. 
It is not including the management problems that occur.
    The grizzly bear and reintroduced wolf have expanded into 
areas where they are increasingly conflicting with human 
activity. Both species are represented as having a large 
national support from the public. Yet, the burden of the damage 
these species cause falls on a very small number of 
individuals. The result is that a few citizens are being driven 
into ruin by the implicit and unfunded mandate.
    To be fair, the Wyoming Fish and Game has been proactive in 
providing compensation for the grizzly damage at 3.5 to 1. With 
the delisting of the wolf, they are taking responsibility for 
it, and the compensation factor is set at 7 to 1. This is based 
on an Oakley study in Idaho that established that it was more 
like 7 to 8, and it was a very intense study. However, since 
the animals are of national public interest, I think the public 
interest should financially bear some of the burden that these 
few people that are being impacted do.
    Inadequate compensation results in resistance to large 
carnivore recovery programs. The development of compensation 
programs that fairly reimburse livestock producers for their 
losses is therefore a necessary component of large carnivore 
recovery programs.
    Thank you for your attention and the opportunity to comment 
here.
    [The prepared statement of Mr. Price follows:]

           Prepared Statement of Charles C. Price, Daniel, WY

        ECONOMIC IMPACTS OF LARGE CARNIVORE PREDATION ON CALVES

    Impacts of grizzly bear (Ursus arctos) and gray wolf (Canis lupus) 
predation on calves in the Upper Green River Cattle Allotment in 
western Wyoming were quantified utilizing records of the number of 
animals grazed and the number lost from 1990-2004. Confirmed predations 
by grizzly bears began in 1995, while the first confirmed wolf 
predation was in 2000. A ``Confirmed Predation'', is defined as 
predation that is identified by a responsible agency, USDI-Fish & 
Wildlife Service, USDA-Wildlife Services, Wyoming Game & Fish 
Department (WGFD), as a predator damaged (2) animal for which an 
affidavit is issued to the owner of the animal. Our analysis indicates 
that calf loss increases coincide with grizzly bear and gray wolf 
arrival and population establishment. From 1995 through 2004, 29,693 
calves grazed on the allotment. Of the 1,332 calves lost to all causes, 
an estimated 520 calves were lost to grizzly bear predation and 177 
calves were lost to gray wolf predation.
    Analysis of past and current grizzly and wolf compensation programs 
with respect to the reimbursement of producers estimated the value of 
the uncompensated financial impact on the allotment to be $222,500 for 
the period 1995-2004 (Ref. 1. pp 11-12).
    Only a fraction of the predated calves are actually found and 
confirmed as predator damage. Based on our findings, only one damaged 
calf is found and confirmed for every 3.8 grizzly bear damaged calves, 
in the case of wolves only one damaged calf is found and confirmed for 
every 6.3 wolf damaged calves. This leads to the concept of a 
compensation factor, a multiplier that can be applied to the confirmed 
calf losses to fairly compensate livestock producers for damage to 
their livestock by large carnivores.
    While the information is not in Ref. 1, I extracted the predator 
damage data from our records for the years 2005-2007. There were 59 
confirmed kills for grizzly bears and 35 for wolves. Using the 3.8 and 
6.3 multipliers yields 224 and 221 calves lost to grizzlies and wolves 
respectively for the 2005-2007 period. Using this information I 
estimate that over 1142 calves have been lost to grizzly bear and wolf 
predation for the 1995-2007 period.
    The grizzly bear and reintroduced wolf have expanded into areas 
where they are in increasing conflict with human activity. Both species 
are represented as having a large national support from the public; 
yet, the burden for the damage these species cause falls on a very 
small number of individuals. The result is that a few private citizens 
are being driven into ruin by an implicit unfunded mandate. To be fair 
the WGFD have been proactive in providing compensation for the grizzly 
damage, 3.5 to 1, and with the delisting of the wolf they are taking 
responsibility for it with a compensation factor of 7 to 1. However, 
since these animals are of national public interest the public should 
support their interest financially.
    Inadequate compensation results in resistance to large-carnivore 
recovery programs. The development of compensation programs that fairly 
reimburse livestock producers for losses is therefore a necessary 
component of carnivore recovery efforts. Our analysis suggests that 
disciplined grizzly bear management coupled with adequate compensation 
for bear caused damage by the Wyoming Game and Fish Department is 
effective in minimizing conflict and resistance by private citizens.

          Reference 1: ``Quantifying economic impacts of large 
        carnivore predation on calves in the Upper Green River Cattle 
        Allotment of western Wyoming'', DRAFT, March 12, 2008; Albert 
        P. Sommers, Charles C. Price, Cat D. Urbigkit, Eric M. 
        Peterson.*
---------------------------------------------------------------------------
    * Document has been retained in subcommittee files.
---------------------------------------------------------------------------
          Reference 2: ``Damaged'' refers to a calf that may be killed 
        or so badly mauled it can't be economically salvaged.

    Senator Tester. I want to thank you both for being here and 
for your testimony. I think we will just go right down the 
line. I will be last. Senator Craig, go ahead.
    Senator Craig. First and foremost, let me thank you, Jon, 
and you, John, too who introduced this legislation. It is 
critically necessary and important, and I am very supportive of 
it in that respect.
    Idaho, Montana, and Wyoming together over the last good 
number of years have felt the brunt of the reintroduction of 
the Canadian gray wolf, and finally, through exceptional 
efforts on the part of a variety of people, we have got it to 
the point of delisting and our States bringing in management 
plans. I am extremely proud of the State of Idaho and the 
cooperative effort of their management plan with both ranchers 
and public lands interests, environmental communities, pro-wolf 
interests. I think we can manage that wolf.
    I think, Mr. Price, you stated it well. There is a public 
interest out there. At the same time, there has to be a 
reality. Our greatest problem is the fact that up until now, 
the wolf has no known predator, and therefore, he has become so 
used to the human species that we are not viewed as a threat. 
So his separation from us, staying in the back country, is 
almost nonexistent. Wolves are seen all over Idaho today. Of 
course, as a result, domestic livestock grazing of all forms is 
taking a fairly heavy hit. At the same time, so are all of our 
wildlife that are the prey base of the wolf.
    Instead of asking questions, let me make this statement 
primarily to the Senators because I think it is a good window 
to look through that may address some of the issues of this 
legislation.
    Because I serve on the Appropriations Committee, I have 
been able to get an appropriated earmark, one of those evil, 
bad things, for Idaho on an annualized basis since 2006, 2006, 
2007, 2008, averaging about $1.2 million going to Idaho. This 
is broken up, and DOI directs about $750,000 of it to the 
Office of Species Management, about $200,000 to research on 
ungulates, about $400,000 to mitigation collars, and $100,000 
to compensation for loss. There is an estimated $200,000 need 
because the compensation is in part money left over. So 
therefore, some of our losses to our ranchers--they get pennies 
on the dollar.
    My guess is in Idaho alone, we are in need of about $1.5 
million/$1.6 million a year. Now, if you spread that across the 
three States, I think we are similar to each other in the sense 
of total costs. I mean, I think it is reasonable to assume a 
bill like this could cost us somewhere in the range of $4 
million or $5 million annualized. I do not see that as a big 
price to pay, in all fairness, to bringing about reasonable 
management and the cooperative between the States and the Feds 
and the U.S. Fish and Wildlife Service as it relates to 
managing these animals and developing a good management 
program.
    So I thank both of you for the introduction of the 
legislation and you gentlemen for being here to testify.
    I lost this fight. Your predecessor, Conrad Burns, and I 
kept wolves out of introduction for a good long while until the 
Administration changed and one Secretary of the Interior came, 
whose name will go unmentioned. I chose not to speak his name 
anymore. He ignored the law and did what he did. We now have 
the situation that we are trying to deal with in a balanced 
way.
    I do not think my attitude toward wolves has changed any 
since that day, but I do recognize reality and the need to 
build a balanced plan of management that keeps as whole as 
possible our domestic livestock industry in the State while 
recognizing the presence of the wolf.
    So I give you that as some thoughts, Mr. Chairman. This is 
a realistic approach. If it is a public desire to have these 
wolves in our States, then there ought to be a public 
commitment to help us manage them at the cost of the American 
taxpayer.
    Thank you all.
    Senator Tester. Thank you, Senator Craig, and we think it 
is a realistic approach too.
    Senator Barrasso.
    Senator Barrasso. Thank you very much, Mr. Chairman.
    Mr. Price, I appreciate you being here all the way from 
Wyoming. Could you visit with us just a little bit about how 
far back your family goes in Wyoming in ranching and your 
family's history with wolves in Wyoming?
    Mr. Price. Yes. My grandfather homesteaded on the Green 
River in the late 1800s, and I guess I will say he was one of 
the ranchers that pursued and helped remove wolves from 
Wyoming. I can tell you stories about it, but it goes back.
    I have my grandfather's homestead in my ranch. I still have 
the homestead. I have donated some of the buildings on it to 
museums and stuff. So it goes back over 100 years. The ranch 
was awarded here this previous year the Centennial Ranch Award 
for the State of Wyoming. They awarded all the ranchers who 
still had family living on the original homestead an award 
within the State, which I was grateful to get.
    Senator Barrasso. So when they proposed reintroducing 
wolves, you had a history, you had a background. I assume that 
you made predictions as to what would happen if wolves were 
reintroduced, and Fish and Wildlife officials made predictions 
about what would happen. Could you talk a little bit about what 
those predictions were and how they differed?
    Mr. Price. You have to realize that when I came back to the 
ranch, there were still some of the old people alive there that 
had dealt with the wolves. Of course, we were strongly opposed 
to the reintroduction of the wolves because they knew what the 
problems were. I mean, they almost predicted what was going to 
happen. Now, I had never run into the wolves myself personally, 
but they knew. Some of those people were still alive.
    So we resisted it strongly. I think you will recognize that 
Wyoming did strongly resist that, finally caved in kind of, 
because those wolves were turned loose before they should have 
been before all the hearings and things were done. So they were 
kind of forced on us.
    Senator Barrasso. Did the wolves stay in Yellowstone?
    Mr. Price. Hell, no.
    Senator Barrasso. No surprise there. That is what you 
predicted. Right?
    Mr. Price. Yes. We knew that.
    But I will say this. They planted them in Yellowstone in 
1995, and on the Upper Green, I was the first person of the 
association to have a confirmed wolf kill in 2000. So it took 
them 5 years to expand that far. From there, the number has 
just escalated. We are now getting confirmed kills. You heard 
some of the numbers. In 2005-2007, we estimate we have got 
kills, confirmed kills, of 35, but then you multiply it, and we 
are talking over 200 head of calves that are destroyed.
    Senator Barrasso. How far out of the park are you talking? 
You are not talking about right next to the border of the park.
    Mr. Price. We are about 50 miles from the park, the closest 
point of the association grazing area to the edge of the park.
    They are down around the ranch. They run around down there. 
We do not have as many problems. I have never had a kill down 
on the Green River itself, but up a little closer in the 
forested area, yes.
    Senator Barrasso. Now, you heard the testimony from the BLM 
today. I do not know if you want to comment on things you 
heard. Do you believe that the Federal Government has a 
responsibility? They said they do not believe that they do in 
terms of compensating ranchers.
    Mr. Price. I will just repeat what I have said. These were 
introduced as a public interest, a national public icon. If you 
remember the words that were used, this is an icon of the wild, 
and the public was interested in it. They were put into the 
Yellowstone with the prediction that they would not go very far 
outside of Yellowstone. As I remember reading some of the early 
literature, they estimated like 15 bovine cattle would be 
killed a year, something less than 100 head of sheep killed a 
year. Shoot. I got 15 last--well, not last year, but I mean, I 
have got a lot more than 15 killed.
    Senator Barrasso. That was their total number predicted.
    Mr. Price. That was their total number. I mean, that 
included Idaho, Montana, and Wyoming. You know what has 
happened. They are everywhere. The game populations are down. 
The moose population--I am on the Green River. The moose 
population on the Green River has stayed relatively constant, 
but I have land up in the western Wyoming range.
    Senator Barrasso. So what happened essentially is 
everything you have predicted and nothing about what Fish and 
Wildlife predicted.
    Mr. Price. They underpredicted the damage, also 
underpredicted how fast those wolves would multiply. They also 
greatly underestimated the range of those animals.
    Senator Barrasso. Thank you very much, Mr. Price. I am very 
delighted that you could come here and share your story with 
the Senate.
    I think, Senator Tester, my time is expired. Thank you.
    Senator Tester. Thank you, Senator Barrasso.
    I have a few questions for Mr. Price and a few questions 
for Mr. Edwards.
    You said that there are 16 ranches in the Green River 
Cattle Association. Does your ranch have more losses than 
others or is it----
    Mr. Price. It is statistical. Some years one of us will be 
hit. Realize there is a twofold process. One is getting the 
animal confirmed.
    Senator Tester. Right.
    Mr. Price. Sometimes we have had ranchers that have lost 
calves and never had an animal confirmed.
    Senator Tester. They never saw the calf?
    Mr. Price. Never found a calf that they could identify. 
Yet, their losses are consistent with predation. In fact, that 
is the first thing you see. All of a sudden, your losses jump 
up.
    Senator Tester. You must have kept track of your losses 
pre-1995.
    Mr. Price. Yes.
    Senator Tester. What percentage were they at pre-1995?
    Mr. Price. Roughly 2 percent.
    Senator Tester. What are they now?
    Mr. Price. It varies from year to year.
    Senator Tester. On average.
    Mr. Price. In the 5 or 6 percent range.
    Senator Tester. How far south of the park do the wolves 
basically prey on cattle, on sheep?
    Mr. Price. One hundred miles south toward Kemmerer, and 
they have moved over into the Big Horns. There are wolves 
there. They have moved down toward Laramie. I think there is 
some in the Snowy Range down there. So hundreds of miles.
    Senator Tester. But the whole State of Wyoming is not 
impacted as of yet.
    Mr. Price. Not impacted hard. You understand we are in a 
dual classification, and they are going to get burned when they 
get out of that trophy game area.
    Senator Tester. Got you. OK, thank you, Mr. Price. I 
appreciate you being here and appreciate the work you do. I too 
farm the land my grandfather homesteaded, and there are very 
few of us left. So I appreciate that.
    Mr. Edwards, do you think compensation for losses is 
important?
    Mr. Edwards. Extremely important. We need to keep the 
livestock owners on that land, keep that land in production to 
feed our Nation.
    Senator Tester. Is there any other reason why you think it 
is important?
    Mr. Edwards. It also gives an economic viability to the 
tourism industry in Montana as well.
    Senator Tester. Defenders of Wildlife dollars--I touched on 
that a little bit with the BLM. It was not the BLM fellow. It 
was the Fish and Wildlife fellow. He indicated and I just want 
you to confirm, do you anticipate the Defenders of Wildlife 
dollars--you talked about $50,000 in 2008, $50,000 in 2009--
continuing into 2010, 2011, 2012?
    Mr. Edwards. At this time I have no way of knowing. They 
initially--when they contacted me and said they were willing to 
make the donation, it was based on the fact that Montana had 
started a compensation program.
    Senator Tester. How available is the money out there in the 
private sector for compensation?
    Mr. Edwards. So far, I have not been able to get another 
donation beyond Defenders of Wildlife.
    Senator Tester. How long have you been working on it?
    Mr. Edwards. Approximately 7 months since the program 
began.
    Senator Tester. Hopefully, there are some folks listening 
today that might throw you some dough. But I am not going to 
hold my breath on that either.
    What will happen if the compensation goes away? What will 
happen if the States cannot afford to pick this up, if the 
private sector does not pick it up, and the Federal Government 
does not step up to the plate? What happens?
    Mr. Edwards. We will have producers that literally go out 
of business.
    Senator Tester. Is it going to affect all producers or just 
a select few?
    Mr. Edwards. It is hard to predict at this time. There is 
the potential to affect all the producers in our State. Wolves 
travel great distances and are filling into the blank areas 
now.
    Senator Tester. Mr. Bangs talked about a USDA program that 
has dollars in it for predation. Are you able to access those 
dollars?
    Mr. Edwards. No, I am not.
    Senator Tester. Have you tried?
    Mr. Edwards. I have been trying, yes.
    Senator Tester. You cannot access them.
    Mr. Edwards. No.
    Senator Tester. Supposedly they are there but you cannot 
get to them.
    Mr. Edwards. What he was describing was Wildlife Services 
coming in and removing wolves that are causing a problem in our 
State. It was not expanded onto like alternative pastures, 
fencing, other mitigation efforts.
    Senator Tester. So that money is pretty well focused. It is 
not readily available. If you have a rancher that has some 
cattle or sheep loss, you cannot go to USDA and say, hey, I 
need 1,000 bucks or 10,000 bucks.
    Mr. Edwards. No, I cannot.
    Senator Tester. I have no more questions. Do you, Senator 
Barrasso?
    Senator Barrasso. No. Thank you very much, Mr. Chairman.
    Senator Tester. I just want to thank both you gentlemen for 
coming. I make--and so does Senator Barrasso--a trip back, 
every weekend in my case, and it is not an easy shot, 
especially when you got haying to do and you got money to 
raise. So thank you guys both for being here. I appreciate the 
work you do. Thank you.
    This committee is adjourned.
    [Whereupon, at 5:27 p.m., the hearing was adjourned.]


                               APPENDIXES

                              ----------                              


                               Appendix I

                   Responses to Additional Questions

                              ----------                              

      Responses of Joel Holtrop to Questions From Senator Bingaman

                                S. 3157

    Question 1. At the hearing, Mr. Salisbury indicated that the mine 
could not go forward without the revocation of the Oak Flat withdrawal 
and the conveyance of that land. As a follow-up to Chairman Wyden's 
question regarding the environmental review provided for in S. 3157, if 
the EIS required by section 4(h) revealed that the mine would cause 
unacceptable environmental impacts, would the Forest Service still have 
authority to prevent those impacts from occurring given that the 
withdrawal already will have been revoked and the land conveyed?
    Answer. The Forest Service would not have this authority because it 
no longer has jurisdiction once the federal land is transferred to 
private ownership. However, development must comply with state or local 
surface management regulations. The Forest Service would continue to be 
responsible for conducting environmental analyses, reviewing, and 
approving any proposals for ancillary activities related to the mining 
development, such as roads, or rights-of-way for electric lines and 
pipelines, that would take place on the adjacent National Forest System 
lands.
    Question 2. In follow-up to another question Chairman Wyden asked, 
do the Forest Service's experts believe it is possible that the 
subsidence that is anticipated as a result of the development of the 
mine will significantly impact Apache Leap?
    Answer. At this point, we are unable to assess the impact of any 
subsidence on Apache Leap. Resolution Copper is currently conducting 
pre-feasibility studies and assessing the mining methods to be 
utilized. Although block caving has been mentioned as the possible 
mining method, we do not know if this is the only mining method under 
consideration. Because the mining development will occur on non-federal 
lands, there is no requirement for the company to submit a plan of 
operations to the agency. As a result, the Forest Service will not have 
supporting data from a plan of operations to evaluate the impact of the 
operation so we suggest that inquiry be made to Resolution Copper to 
provide more detailed technical data regarding its project to you and 
your staff.
    Question 3. If the Forest Service cannot predict whether 
significant impacts to Apache Leap may occur or if it believes that 
such impacts are possible, then is it correct that the Forest Service 
believes that the exchange would be in the public interest despite 
those impacts?
    Answer. It is the Department's view that, on balance, the exchange 
as a whole is in the public interest. The National Forest System lands 
identified for exchange contain significant ore deposits of copper, 
silver and gold. This area is historically important to the economic 
vitality of Arizona and today remains an active mining area, 
contributing significantly to the nation's mineral production.
    In addition, most of the non-federal properties that would be 
acquired have high public resource values and would benefit from public 
ownership. The Forest Service could protect the riparian habitat, 
archeological sites, two miles of a permanently flowing trout stream, a 
year-round pond, and an endangered cactus species on the acquired 
lands. Further, as part of the exchange, a conservation easement for 
the Apache Leap escarpment would be transferred to the federal 
government by Resolution Copper.

 Responses of Joel Holtrop to Questions From Senator Bingaman Barrasso
                   on rainbow family gathering in wy

    Mr. Holtrop, I'm sure you're aware that your agency recently played 
host to a Rainbow Family gathering in Wyoming. This event has been 
deeply troubling to the people of Wyoming.
    The Rainbow Family brought nearly 10,000 people to one meadow in 
the Bridger-Teton National Forest. The group did not have a permit and 
were allowed to camp helter-skelter all over the Big Sandy. This forced 
the Boy Scouts to cancel a national gathering planned on that site. And 
it displaced livestock grazing, cabin owners, recreationists and lodge 
visitors.
    It is unacceptable that this group--or anyone--would be exempted 
from the rules that all public land users must follow. The people of 
Wyoming were forced to deal with the impacts while these folks went on 
with their unauthorized gathering.
    Enough is enough. We are expecting you to make this right for 
displaced users in Wyoming. And the Forest Service must handle this 
group differently next year.
    No state should have to endure this kind of double standard. 
Everyone using public lands must follow the same rules.
    Question 4. Can you provide the Committee a detailed explanation of 
the steps that the agency has taken to force the Rainbow Family to 
obtain the proper permits over the last decade?
    Answer. To enhance the agency's ability to require compliance with 
the noncommercial group use permit requirement and to administer the 
permit, the Forest Service established an internal oversight committee 
to build relationships with the Rainbow Family, to monitor 
implementation of the noncommercial group use rule, and to make 
recommendations for improvements in implementation of the rule and 
administration of large group gatherings. The agency's goal is to 
provide a national, consistent approach to all large group gatherings. 
A National Incident Management Team was formed to provide consistent 
enforcement of the noncommercial group use permit requirement and 
effective noncommercial group use permit administration.
    The following steps have been taken during the last ten years to 
enhance implementation of the noncommercial group use rule, which 
requires a permit for gatherings that involve 75 or more people, and to 
obtain the Rainbow Family's compliance with the rule:

  <bullet> Town Hall Meetings have been held to allow the public to 
        comment on any concerns they may have, due to the large group's 
        presence and impacts on their community.
  <bullet> Continual discussions with the Rainbow Family on compliance 
        and permit requirements have occurred each year from the local 
        to the national level, including discussions with the Chief of 
        the Forest Service and the Under Secretary for Natural 
        Resources and Environment.
  <bullet> Local line officers and special uses personnel have met with 
        the Rainbow Family to discuss the group's and the agency's 
        concerns and to obtain compliance with the permit requirement 
        and other Forest Service regulations.
  <bullet> Forest Service Law Enforcement and Investigations Staff 
        (LEI) have met with state and local law enforcement officials 
        to address potential issues and to coordinate their efforts and 
        resources to minimize impacts on national forest resources, 
        public safety, and the local community and to obtain the 
        Rainbow Family's compliance with federal, state, and local law.
  <bullet> LEI has met with the local United States Attorney's Office 
        to gain its support and assistance with prosecuting Rainbow 
        Family gathering participants when permit requirements are 
        ignored. In the past, cooperative efforts between the Forest 
        Service and United States Attorney's Offices to gain compliance 
        through law enforcement have been successful.
  <bullet> The Forest Service has made numerous arrests and issued 
        hundreds of citations at Rainbow Family gatherings for 
        violations of law, including failure to obtain a noncommercial 
        group use permit.

    Question 5. If a family group, or church group, or the Boy Scouts 
want to hold a large (more than 50 person) picnic on the National 
Forests are they required to have a permit to hold that event?
    Answer. Per Forest Service regulations at 36 CFR Part 251, Subpart 
B, noncommercial groups are required to obtain a free permit if their 
event will involve 75 or more people, either as participants or 
spectators. If a group event involves fewer than 75 people, a permit is 
not required. Applications for a noncommercial group use permit must be 
submitted at least 72 hours before the event. The Forest Service must 
respond within 48 hours of receipt of a noncommercial group use 
application; otherwise, it will be deemed granted.

S. 3157, TO PROVIDE FOR THE EXCHANGE AND CONVEYANCE OF CERTAIN NATIONAL 
 FOREST SYSTEM LAND AND OTHER LAND IN SOUTHEAST ARIZONA, AND FOR OTHER 
                                PURPOSES

    I note the bill would limit the full environmental reviews 
typically carried out to analyze and approve a land conveyance, but it 
would provide that ``before commencing production in commercial 
quantities of any valuable mineral from the Federal land conveyed to 
Resolution Copper. . ., the Secretary shall publish an environmental 
impact statement ... regarding any Federal agency action carried out 
relating to the commercial production.''
    Question 6. Is this a common requirement that your agency has seen 
in the past for other land exchanges that involve mining?
    Answer. Section 4(h) is not a typical provision. It requires the 
agency to prepare an environmental impact statement after the land 
exchange is completed for federal agency actions related to commercial 
mineral production that would be carried out on non-National Forest 
System lands. In the vast majority of cases in which USDA has 
discretion in completing a land exchange, the Forest Service typically 
conducts NEPA analyses before land is exchanged out of federal 
ownership. Congress does not typically direct the agency to comply with 
NEPA after an exchange is completed.
    Additionally, it is unclear what additional requirements the bill's 
sponsor intended to impose with this language. Normally, the Forest 
Service would not prepare an environmental analysis of activities that 
are proposed to be carried out solely on private land. On its face, 
section 4(h) would require the agency to prepare an EIS for ``any 
federal agency action carried out relating to the commercial 
production.'' However, an activity related to commercial production 
carried out by Resolution Copper on the land that it receives in the 
exchange would not be considered to be a federal agency action. If the 
mineral development is confined to private land, the agency would not 
be required to prepare an EIS under section 4(h).
    However, if the company needs to use NFS land for ancillary 
activities related to the mining development, such as rights-of-way for 
electric lines, pipelines, or roads, section 4(h) could be read to 
require the agency to prepare an EIS for these activities. While agency 
approval of these types of ancillary activities on NFS lands would 
normally require compliance with NEPA regardless of the direction in 
section 4(h), the provision could be read to mandate preparation of an 
EIS (as opposed to an EA) for the authorizations. Additionally, the 
language could obligate the agency to consider the environmental 
consequences of the entire non-federal action in the EIS. Given the 
scope of this exchange and the complexity of the proposed mine, 
clarification of the direction in section 4(h) would aid the Forest 
Service in complying with the requirements of the bill.
    Question 7. In your view, does this establish a precedent that you 
will have to carry out on other mining-related land exchanges?
    Answer. No. The legislation is limited solely to this exchange and 
carries no other precedential value.
    Question 8. Section 10 of S. 3157 provides for a value adjustment 
payment, whereby Resolution Copper would pay the United States a 
royalty for produced minerals if their value exceeds what was projected 
for purposes of valuing the Federal land at the time of the conveyance.
    Is there precedence for this requirement?
    Answer. We are not aware of any precedent.
    Question 9. Is it common for companies to agree to provide a 
royalty or even a partial royalty, as called for in Section 10 of S. 
3157 for hard rock mining?
    Answer. Not in our experience.
    Question 10. S. 3157 directs the Secretary of Agriculture to convey 
approximately 3,025 acres of the Tonto National Forest to Resolution 
Copper for approximately 1,445 acres of private land to be managed by 
the Forest Service and approximately 4,189 acres to be managed by the 
Bureau of Land Management.
    I see that the federal government is getting about 1.86 acres in 
return for every acre they give up in this exchange.
    Do you expect that the appraisals will show balance in value when 
they are completed?
    Answer. We expect the outcome to be an equal value land exchange. 
We expect that our appraisals will show an approximate balance in 
value. However, we note that in the event that the appraisals indicate 
otherwise, the bill provides for cash payment that would exceed the 25% 
limitation in the Federal Land Policy and Management Act.
    Question 11. The legislation provides the Secretary four years to 
design and construct one or more campgrounds in the area to replace the 
Oak Flat Campground that would be conveyed for the mine.
    Are there other comparable areas to put a campground in the area?
    Answer. Thus far, we have identified three possible locations for 
the replacement campground, but are concerned that each location 
presents challenges related to access, potential mining-related 
hazardous materials, and cultural sites. We would also like to discuss 
alternatives, such as enlarging or improving existing campgrounds in 
the area.
    Question 12. Might the replacement have a water source which would 
be a significant improvement over the existing campground?
    Answer. The Forest Service is still analyzing potential alternative 
campgrounds. One of the alternative places suggested by the proponent, 
the JI Ranch property, is on a floodplain which would not be suitable 
for a campground. Availability of water for domestic use would be an 
attractive feature of any proposed site.
                                 ______
                                 
    Responses of David Salisbury to Questions From Senator Barrasso

    Question 1. Mr. Salisbury, could you walk us through how much time 
and money has been expended by your company to get to this point 
regarding this mine?
    Answer. Exploration work began in 2001 and Rio Tinto became manager 
of the project in 2003.
    As of June 2008, $290 million has been invested in the Resolution 
Copper Project. Of this over $15 million has been spent on reclamation 
work on the 100-year old Superior mine site. Resolution Copper has 
recently received approval for $652 million (in addition to what has 
already been spent) to construct a new shaft.
    This shaft, reaching 7000 feet below the surface, is an important 
step in the development of the mine and will allow the pre-feasibility 
team to further study the rock conditions and help us determine if the 
mine is feasible. Resolution Copper has not made the final 
determination as to the economic and technological feasibility of 
mining this ore body.
    If we proceed, Resolution Copper will spend approximately $4 
billion toward capital investment before mine construction is finished 
and we ship our first load of copper.
    Question 2. As I understand the legislation, Senator Kyl is asking 
you to do several things that no other company has done to develop this 
mine, including a more complicated NEPA process, paying a royalty for 
the copper if you ever do mine it, providing a conservation easement to 
Apache Leap, and giving the federal government nearly 1.86 acres for 
every one acre that you get back. Are you aware of all these 
requirements and is your Company willing to agree to them?
    Answer. We are aware of the environmental and financial 
requirements in S. 3157. Resolution Copper agrees to fully comply with 
all of these measures.
    The company supports the public comment and review process included 
in NEPA and welcomes the opportunity to participate in this process. 
Resolution Copper feels that this process is consistent with our 
corporate commitment to transparency and community engagement.
    Resolution Copper understands the importance of the value 
adjustment payment in the bill. Resolution Copper is prepared to pay 
this value adjustment payment to the United States on any production 
from the mine which exceeds the production assumed in the appraisal. 
The royalty rate will be any rate enacted by Congress prior to December 
31, 2012, or the rate assumed in the appraisal if Congress does not 
enact a Federal royalty.
    The company recognizes the importance of Apache Leap as a scenic 
and historical monument. Resolution Copper supports the preservation of 
Apache Leap and the protections called for in S. 3157.
    Finally, the emphasis on the exchange was assuring equal value for 
the properties. The selection of the parcels in this exchange was 
conducted in consultation with the Forest Service, BLM, and leading 
NGOs. Resolution Copper believes in the conservation value of the 
properties in S. 3157 and looks forward to seeing them preserved for 
future generations.
    Question 3. Can you tell us more about the public land order and 
its significance for your project?
    Answer. Public Land Order (PLO) 1229 was executed in 1955. The 
withdrawal order was signed by an assistant secretary of the Interior 
Department, and included numerous other campgrounds, picnic areas, fire 
lookouts and other administrative sites. The Forest Service has 
provided testimony to both the House of Representatives and the Senate. 
In both cases, this testimony reflects that the Oak Flat withdrawal was 
one of a series of routine withdrawals made to protect campgrounds and 
other government facility investments from disruption by other 
development. During the July 9th hearing before the Subcommittee on 
Public Lands and Forests on S. 3157, National Forest System Deputy 
Chief Joel Holtrop testified that the purpose of PLO 1229 was to 
protect, ``the Federal investment in the campground (page 56, line 6 of 
the hearing transcript).'' In l971, the withdrawal was modified to 
allow disposal of the area by land exchange and other means, and that 
is what Resolution Copper is asking Congress to do. Copies of both 
orders have been attached to this testimony.*
---------------------------------------------------------------------------
    * Documents have been retained in subcommittee files.

                              Appendix II

              Additional Material Submitted for the Record

                              ----------                              

       Statement of Michael O. Hing, Mayor, Town of Superior, AZ,

                                S. 2466

    Mr. Chairman and Members of the Subcommittee:
    I am Michael Hing, Mayor of Superior, Arizona. I am pleased to 
submit this testimony on behalf of the Town of Superior concerning S 
2466.
    My roots in Superior are deep. I was born and raised there. My 
grandparents opened their grocery store in the 1920s and I operate it 
now with other members of my family. As a small businessman and active 
community member, I've witnessed the town's success during boom times 
and its decline during busts. I plan to usher in a positive future for 
the town, and this land exchange is crucial to that future.
    Please allow me to explain what I mean. When the Magma Mine was 
operating, our town was prosperous and grew to 7,500 people. Jobs were 
plentiful and Superior made a name for itself But we depended only on 
the mine for our well-being. Then, in 1987, Magma closed. Our community 
was devastated. The effects are lingering to this day. Our population 
shrank by more than half, to 3,500 residents. Major social problems 
surfaced as employment plummeted and people lost hope. Crime and drug 
use skyrocketed. Schools for our children lost funding, compromising 
our ability to provide a solid education. The mine left an 
environmental mess for others to clean up.
    As mayor, I've absorbed an important lesson from witnessing that 
civic trauma. I know to never rely completely on mining again. Our 
economy needs to be diversified.
    That's why I am so pleased that Resolution Copper Company has come 
to Superior. The company discovered a significant ore body 7,000 feet 
below the old Magma Mine. With such a major discovery, Resolution 
could've swept in to Superior with a flourish of promises and new 
mining jobs and then abandoned us when the ore was exhausted. But from 
the day company representatives first arrived, they have looked to the 
town's future. They approached me with ways to build up our economy and 
to do it right. The company is just in the early stages of eventually 
extracting the ore, but its representatives are already helping the 
town plan for the day the mine closes.
    The company works with our schools, boosting math and science 
education to elementary-age children and providing summer jobs and 
college scholarships to older youth. They have spent and are continuing 
to spend millions in voluntary efforts to clean up, reclaim and improve 
their land and facilities. They helped arrange economic development 
meetings with the Arizona Department of Commerce to shape a workable 
plan that will diversify our economy in mining services, manufacturing, 
tourism, recreation and other businesses. They hire local contractors 
and provide job training to local citizens. They are working to beef up 
our infrastructure, including establishing Superior as a wireless 
Internet zone. If this land exchange legislation is successful, 
Superior will gain valuable property we can use for even more economic 
development. In short, from the beginning, Resolution Copper has worked 
with Superior and other area communities with a vision of sustainable 
development.
    The company's willingness to build Superior's future is very 
important to our partnership. But even more importantly, company 
officials have been completely transparent about their operations. The 
company formed a citizens' committee to help town residents stay 
informed of company activities and to give our input. They routinely 
ask our opinions and include us in crucial discussions.
    I testify before you today as a partner with Resolution Copper. The 
land exchange legislation before you is critical to our shared vision 
of the future. Resolution must complete the land exchange before it 
invests $2 billion in mine development.
    I will not bore you today with every detail of the exchange, which 
will streamline the now-fragmented ownership of 3,000 acres in the Oak 
Flat area. Suffice it to say that the town, the state, the governor, 
and members of our Congressional delegation including Senators Jon Kyl 
and John McCain and Rep. Rick Renzi, agree that Resolution Copper 
should acquire the land, including campgrounds and rock-climbing areas. 
In return, the non-federal properties that Resolution has assembled to 
convey to the United States for the exchange are spectacular in their 
contribution to wildlife habitat, protection of streams and other water 
resources, endangered species habitat, land conservation, and 
opportunities for recreation.
    Allow me to describe some of the other environmental benefits that 
S 2466 will include for Superior, surrounding communities and the State 
of Arizona.
    First, Section 6 of S. 2466 permanently protects the Apache Leap 
escarpment, an environmental landmark above Superior that dominates our 
landscape. The Superstition Land Trust and Resolution Copper, working 
with the town, support the language of S. 2466 which insures that the 
Apache Leap escarpment is never disturbed by development and remains as 
it is today. Additionally, Resolution will spend up to $250,000 to 
provide public access, trails, or trailheads to Apache Leap, if the 
Land Trust, local Indian tribes and town deem it appropriate.
    Second, Resolution, the town, and the U.S. Forest Service have been 
working together to identify a replacement campground or campgrounds 
for an existing 14-site Forest Service campground at Oak Flat. S 2466 
requires the Secretary of Agriculture to design and construct one or 
more replacements in the Globe Ranger District, and requires Resolution 
to pay up to $500,000 for them.
    Third, Resolution will compensate for the loss of recreational rock 
climbing at Oak Flat. The company funded a large-scale search to find a 
bigger and better climbing area. The resulting find, less than 20 miles 
away at Tam O'Shanter Peak, has sparked interest from climbers all over 
the world. The Arizona State Parks Board and the Arizona Legislature 
have recognized this incredible find and are pursuing a new State Park 
there devoted to climbing. A bill is moving through the Arizona 
Legislature to authorize the park's creation, assuming that S. 2466 is 
enacted.
    The land exchange also creates new economic opportunities for 
Superior, which, as you can see from the map attached to testimony, is 
largely surrounded by the Tonto National Forest. S 2466 provides the 
town with an opportunity to acquire some of this adjacent property from 
the United States to meet anticipated growth.
    Also, the Town's 30-acre cemetery is located on an isolated parcel 
of federal land managed by the Tonto National Forest. While hundreds of 
our forefathers have been buried there for the past century, no 
authorization exists for our cemetery. S. 2466 allows the Town to 
acquire this parcel at fair market value from the Forest Service.
    Additionally, the Town owns a 265-acre parcel, which has a small 
landing strip. The property has a reversionary interest, so if it ever 
stops being used as an airport, it will be returned to the U.S. 
government. The Town wants to acquire this reversionary interest, and 
S. 2466 provides for a sale of the interest to the Town at fair market 
value. Moreover, S 2466 provides that the Town may acquire up to 181 
additional acres of land contiguous to the airport, also at fair market 
value, and in a manner that provides the United States with manageable 
boundaries on retained parcels. These airport parcels represent a 
significant opportunity for the Town in terms of future growth, 
economic diversification and development. And future airport uses have 
been protected by the Arizona Department of Transportation. The 
department's 5-year capital improvement plan includes the ability to 
relocate the airport if we choose.
    Finally, S. 2466 provides that if the lands offered by Resolution 
exceed the appraised value of the federal Oak Flat parcel, any excess 
value can be applied to the Town's purchase of the cemetery and airport 
parcels. Both Resolution and the Town are anxious for the Town to 
acquire these properties.
    Mr. Chairman, as our governor has stated, the new mine is projected 
to produce 1,000 jobs during construction and 400 to 600 permanent 
jobs, plus more than a thousand related and indirect jobs. The economic 
impact of the new mine will allow us to grow in a way that ensures a 
future for our children and grandchildren. The possibilities the mine 
holds for Superior and Arizona are among the many reasons that Gov. 
Napolitano is joining us in strongly supported this land exchange.
    Thank you for the opportunity to testify today. I would also like 
to thank the members of our Congressional delegation, including Sen. 
Kyl and McCain, and Rep. Renzi, for their efforts in bringing this 
legislation to fruition and our state delegation for promoting the 
creation of a state park. The town of Superior urges your thoughtful 
consideration and timely passage of S. 2466, so that this land 
exchange, which is so important to our future, can be implemented at 
the earliest possible date.

                                S. 3157

    Mr. Chairman and Members of the Subcommittee:
    My name is Michael Hing. I am the Mayor of Superior, Arizona--a 
small town in Pinal County, about 65 miles southeast of Phoenix. I 
would like to address the committee in support of the Southeast Arizona 
Land Exchange and Conservation Act of 2008. I firmly believe that this 
land exchange is in the best interest of the public.
    This land exchange represents an unprecedented opportunity to 
improve the long term economic vitality of the state and the region. 
Additionally, this exchange would transfer to the citizens of the 
United States thousands of acres of conservation properties. These 
properties offer permanent protection to endangered species, 
preservation of key riparian habitats, and conservation of some of 
Arizona's most valuable lands.
    In addition to the ecologically valuable land exchange, Resolution 
Copper Company leads the industry in taking action on a variety of 
fronts to benefit and protect the environment. From their cutting edge 
and forward-thinking water management and water procurement strategies 
to their close working partnerships with the Arizona Trail Association, 
Audubon Arizona, Boyce Thompson Arboretum, and The Nature Conservancy, 
Resolution Copper Company continually focuses on tangible ways to be 
better stewards of Arizona's precious natural resources. One excellent 
example is their ongoing $50 million rehabilitation effort to restore 
1,500 acres of land affected by previous mining operations in Superior.
    I provided testimony to this committee in 2005, of which I have 
attached a copy. In my previous remarks, I discussed the importance of 
speedy passage of the land exchange to the economic and social well 
being of Superior and neighboring communities. It is my belief that the 
present version of this legislation is an even better deal for the 
public.
    Currently vast numbers of Superior residents are forced to commute 
into the Phoenix metro area and nearby towns to find employment. The 
lack of stable local employment has taken its toll on the residents of 
Superior. Families that have resided here for multiple generations are 
moving away. This situation has not improved since the last time I 
addressed this committee.
    Families and businesses across Arizona are feeling the impact of 
the decline of the real estate market and the rising costs of energy. 
At the same time, state revenues have been negatively impacted, 
resulting in an estimated $1.6 billion deficit predicted for fiscal 
year 2009. In order to secure our State's long term employment and 
economic future, it is both prudent and reasonable to approve the 
Southeast Arizona Land Exchange Conservation Act.
    Elliott D. Pollack and Company--commissioned by Resolution Copper--
prepared an economic study recently. This study provides a preview into 
the enormous economic and fiscal impacts of the construction and 
operation of the mine project. The study predicted a jarring $46.4 
billion of economic activity to the region. This is exactly the shot in 
the arm needed by Superior.
    Mining towns have seen their share of boom and bust. We have 
learned from this and in partnership with Resolution Copper have 
already taken steps to diversify our economy. I believe our plan for 
the future will coupled with the economic development generated by the 
mine, will allow Superior to develop a sustainable economy.
    To mark this partnership, the town and Resolution Copper have 
entered into a landmark agreement providing funding for programs that 
will help Superior enhance business and residential opportunities.
    The land exchange will also allow Superior to acquire lands 
adjacent to the town. Mr. Chairman, Superior is only 4 square miles and 
is almost completely surrounded by public lands. The lands Superior 
will acquire through the exchange are crucial to attracting new 
development and will provide significant opportunities for us.
    I believe Congress has an excellent opportunity to provide an ideal 
balance between the expansion of jobs, local and state revenues, and 
diverse economic activity while conserving ecologically sensitive and 
pristine lands for future generations. Following several years of in 
depth research, study, and debate we submit to you our sincere hope 
that this legislation can be swiftly approved so that the remarkable 
economic impacts of this exchange can begin to be fully implemented and 
realized.
    I appreciate your consideration of this very important bill.
                               attachment
                                          Town of Superior,
                                       Superior, AZ, June 27, 2008.
Hon. Senator Ron Wyden,
Chairman, Public Lands and Forests Subcommittee, Committee on Energy 
        and Natural Resources, 230 Dirksen Senate Office Building, 
        Washington, DC.
    Dear Chairman Wyden, As Mayor and on behalf of the Council of the 
Town of Superior, Arizona, I would like to address the Committee 
signifying the Town's fullest support for the Southeast Arizona Land 
Exchange and Conservation Act of 2008, S.3157, introduced in the Senate 
of the United States Congress. The Town recognizes Resolution Copper 
for its investments and efforts towards enhancement of our regional, 
state, and national economy.
    As leaders of our community, the Council and I have always 
recognized the important role played by the copper industry since the 
birth of our State and its invaluable contribution to the development 
and strengthening of our region's, state's, and the nation's economy. 
In addition, Superior recognizes and appreciates the level of support 
and local commitment provided by Resolution Copper.
    The Town of Superior has a comprehensive understanding of the 
evolving environmentally sound technologies and preventive measures 
incorporated by all new mining developments, operations, and closures, 
along with deepest appreciation for the mines' individual and 
collective contribution to the economy, productive employment, creation 
of the support industries, and to the overall quality of life of each 
affected town, city, county, region, state, and our nation over the 
last 100 years.
    Mr. Chairman, I would like you to know that Superior has a 
comprehensive understanding of and fully supports the Southeast Arizona 
Land Exchange and Conservation Act of 2008 including the positive gain 
to the taxpayers and people of our nation by approval of the proposed 
exchange, due to the gain realized in further preservation of natural 
resources, land, and the inherently present flora and fauna for the 
enjoyment and heritage of generations to come, in return for exchanging 
the gained land for the acreage needed by the Resolution Copper 
Company's mine to facilitate its operations over the next three decades 
or more.
    The Town of Superior is in hill support of S. 3157 and in full 
support of the Resolution Copper Company's Plans and Operations to 
develop the new copper mine in the area of Oak Flat.
            Sincerely,
                                           Michael O. Hing,
                                                             Mayor.
                                 ______
                                 
    Statement of John Keedy, President, Arizon Mountaineering Club, 
                        Phoenix, AZ, on S. 3157

    As the President of the Arizona Mountaineering Club (AMC), the 
oldest and largest rock climbing and mountaineering club in Arizona 
with nearly 400 active dues paying members and literally 1,000's of 
past members, I want to take this opportunity to communicate our 
continuing concerns about the Southeast Arizona Land Exchange and 
Conservation Act of 2008 (Senate Bill S. 3157) introduced recently by 
Senator Jon Kyl.
    Resolution Copper Mining, LLC will, over time, eliminate much of 
the rock climbing in the area of Oak Flat and the Queen Creek Canyon, 
destroy the present Oak Flat Campground and prevent access to many of 
the other areas that are frequented by rock climbers. These rock 
climbing areas have been developed over many years with literally 
thousands of routes being bolted for safety and for sport climbing. 
Additionally there are thousands of bouldering routes where bolts is 
not required. All this will be lost if the Southeast Arizona Land 
Exchange and Conservation Act of 2008 is passed without consideration 
of these valuable assets and reasonable accommodations for the loss of 
those climbing areas made to climbers.
    Having worked with Queen Creek Coalition over the past several 
months and supporting efforts to preserve climbing opportunities in the 
Oak Flat area, the AMC Board of Directors supports the items presented 
in their position paper as listed below:

          Queen Creek Coalition (QCC) has as its goal maximum climbing 
        and recreational opportunities in the Queen Creek area. Our 
        greatest want and desire is to continue alongside the mining 
        operations as it has been in the past. We have been asked to 
        assemble items that we want with respect to the mining 
        activities proposed.
          Accordingly, we want:

  <bullet> A mining technique that is consistent with and abides by 
        existing protections, maintains surface integrity, complies 
        with all environmental regulations, and respects multi-cultural 
        traditions.
  <bullet> A contiguous, permanent, publicly accessible recreational 
        and conservation area of lands encompassing Apache Leap, Queen 
        Creek Canyon, and Devils Canyon and all appropriate 
        infrastructure including but not limited to trails, roads, 
        parking, information kiosks, restrooms, etc.
  <bullet> Fee Simple transfer of ``The Pond,'' ``Atlantis,'' and other 
        privately held lands along Apache Leap, in Queen Creek Canyon, 
        and any in Devil's Canyon surrounded by or adjacent to the 
        contiguous area to either federal, state, or other 3rd party 
        entity approved by the QCC.
  <bullet> The full and complete funding and follow-through for a State 
        Park dedicated to climbing at Tam O'Shanter. This includes but 
        is not limited to proper access roads and infrastructure.
  <bullet> Roads and infrastructure for the ``Inconceivables,'' ``Land 
        of the Lost,'' ``Steamboat Mountain,'' ``The Drip,'' and ``The 
        Homestead.''
  <bullet> Campgrounds, recreational access points, and necessary 
        infrastructure for the area north of ``The Pond'' and at the 
        ``Inconceivables.''
  <bullet> Coexistence agreement and climbing management plan for 
        permanent, public recreational use of any lands involved with 
        the ``land trade.''

          Definitions, Assumptions, and Stipulations

          1) Roads are defined as a minimum of all-weather surface, 
        2WD, with full permanent, continuous, legal, no-cost to the 
        user access and rights to be located as determined by QCC. 
        Roads are to be built to specifications of the public entity 
        that will be responsible for maintenance and repair.
          2) All lands transferred to the public or a 3rd party shall 
        be transferred in Fee Simple to a transferee approved by QCC.
          3) All lands within the Contiguous area shall be withdrawn 
        from uses other than recreation and conservation.
          4) All agreements will be made in writing.
          5) All the foregoing, bulleted items shall be written into 
        the land exchange bill.
          6) Funding for all items shall not be borne by the public or 
        come from public monies.
          7) Infrastructure shall mean all items necessary to create, 
        replace, and maintain rock climbing routes, hiking trails, 
        internal access roads, trailheads, bouldering fall surface 
        preparation, etc.

    We welcome the opportunity to discuss our position.
                                 ______
                                 
Statement of Manuel Ortega, Chairman, The Concerned Citizens & Retired 
               Miners Coalition, Superior, AZ, on S. 3157

    The Concerned Citizens and Retired Miners Coalition is a group of 
citizens who: 1) reside in Superior, Arizona, or do not reside in 
Superior, Arizona, but are affiliated with relatives who are residents; 
2) are retired hard-rock miners who previously worked in the now non-
operational mine in Superior, Arizona, and were displaced due to mine 
closure or personal disability; or 3) are individuals who are concerned 
that important U.S. public recreational land will be conveyed to a 
foreign mining company for private use.
    The Concerned Citizens and Retired Miners Coalition realizes that 
Superior, Arizona, was born as a mining community and has lived through 
the mining booms and busts of the Silver King Mine, the Queen Mine, the 
Belmont Mine, the Magma Mine and the Broken Hill Proprietary Mine over 
the history of our 100 plus years. Because we recognize that mining is 
a large part of our history and will potentially be a larger part of 
our future, we are not opposed to mining. In fact, we strongly support 
responsible mining policies and practices in and around our community. 
However, we believe that S. 3157 is unacceptable as it presents serious 
negative impacts to us and our surrounding community as it seeks to 
circumvent the important National Environmental Policy Act review and 
analysis process. We also believe that there is no need for a land 
exchange for the mine to move forward with their plans to mine this 
area.
    We appreciate and thank you for the opportunity to express our 
views and voice our concerns about S. 3157, the Southeast Arizona Land 
Exchange and Conservation Act of 2008 (Oak Flat Land Exchange) that 
will profoundly affect our community.

  OAK FLAT LAND EXCHANGE AND LOSS OF IMPORTANT PUBLIC CAMPGROUND AND 
                           RECREATIONAL AREAS

    Resolution Copper Mining, LLC, a foreign-owned mining company, is 
planning a massive block-cave mine and seeks to acquire Oak Flat 
Campground and the surrounding public lands for its use through this 
land exchange bill. If they succeed, the campground and an additional 
2,300 acres of the Tonto National Forest will become private property 
and forever off limits to recreationists and other users. Privatization 
of this land would end public access to some of the most spectacular 
outdoor recreation and wildlife viewing areas in Arizona. It would 
deprive the Town of Superior, currently land-locked at only 4 (four) 
square miles, from economic diversification in and around our 
community. It would also deprive the San Carlos Apache Tribe of their 
religious burial ground ceremonies and their age-old cultural 
attachments to the area.
    Located just 5 miles east of Superior, Oak Flat is an important 
part of our history and our economic diversification. It has long been 
prized for its recreational variety. This area is exquisite and easily 
accessible to millions of visitors from the Phoenix and Tucson 
metropolitan areas, as well as the outlying areas of Gold Canyon, Queen 
Valley, Florence, Kearny, Winkelman, Hayden, Globe, Miami, Top of the 
World and Superior. It is significant to our neighbors, the Apache 
people, for their cultural values and religious heritage.
    The Oak Flat Campground, Apache Leap, and the surrounding area 
important to the Apaches who gather acorns and pine nuts that are used 
both traditionally and ceremonially. Apache Leap is an historical land 
known as the Apache's Masada. It is there that many Apaches leaped to 
their deaths rather than be captured by the U.S. Army approximately 125 
years ago. One of our local historians, Christine Marin, PhD, Archivist 
and Historian for Arizona State University and who is a former resident 
of Globe, Arizona, and still has family in Superior, Arizona, recently 
published an article in the Copper Country News dated June 11, 2008. In 
her article entitled, ``Apache Leap Legend: Now We Have `The Rest of 
the Story','' Dr. Marin indicated that the story of the Apache warriors 
is verified by two historical publications. We believe that these lands 
have significant import to the Apaches and that their wishes should be 
carefully considered and respected.
    You, our Federal legislators, are being asked to give up these 
publicly owned lands that have been in trust for the American and 
Native peoples since 1955, when President Eisenhower signed BLM Public 
Land Order 1229. This Order specifically put Oak Flat off-limits to all 
future mining activity. In 1971, President Nixon issued BLM Public Land 
Order 5132 to modify PLO 1229 and allow ``all forms of appropriation 
under the public land laws applicable to national forest lands--except 
under the U.S. mining laws.'' These two executive orders from two 
different Republican administrations both mandated that these lands 
were to be preserved in perpetuity with special emphasis on prohibiting 
mining activities on Oak Flat.
    A decision regarding these public lands should be made with utmost 
knowledge and care. Once these lands are lost to the public, they can 
never be regained.
    We are particularly concerned that a legislated land exchange of 
the Oak Flat Campground and surrounding area would bypass necessary and 
meaningful environmental impact studies. We fear that cultural 
resources will not be protected. We believe that subsidence will occur 
and that it will adversely affect our community. We don't have any 
information regarding RCC's proposed disposition of the massive amounts 
of tailings that will be produced and where they will reside. We are 
terrified that there will be downstream pollution that will affect the 
Town of Superior and everyone who depends upon the nearby aquifers for 
drinking water. Our local water supplier recently imposed an additional 
``arsenic surcharge.'' While The Magma Mine was operational, local 
residents were told that there was no pollution or effects on the water 
supply. Now, 20 years later, we find that there was--and continues to 
be--a price to pay for giving a foreign-owned mining company carte 
blanche because we trusted the mine explicitly.
    It is for these reasons and many more that we oppose the Oak Flat 
land exchange legislation.

        WATER, THE ENVIRONMENT, AND DESTRUCTION OF LAND SURFACE

    The Concerned Citizens and Retired Miners Coalition believes it is 
critical that Hydrology Surveys, Environmental Impact Studies, 
Subsidence Analyses and Transportation and Circulation Plans be 
conducted PRIOR to discussion of any land exchange and/or different 
use.
    Resolution Copper Company's Environmental Impact Assessment 
Manager, Bruce Marsh, indicated to one of our Coalition Members that 
the new mine would utilize 40,000 acre feet of water per year. He 
further indicated that they would be buying excess water from the 
tribes and other sources, however, they are merely banking those water 
rights and the sources are not secured. This is a concern because: 1) 
Arizona is still in the grip of a 13-year drought with dwindling 
Central Arizona Project supplies, and we do not have any assurances 
that water will still be available when Resolution Copper Company 
begins mining in the next ten (10) years; 2) Superior is located in the 
Maricopa AMA rather than the Pinal AMA, and Phoenix metropolitan area 
water supplies depend upon the Queen Creek aquifers; 3) The close 
proximity of the Queen Creek aquifer to a massive mining operation will 
negatively disrupt the underground water flow; and 4) Neither the State 
of Arizona nor the local residents should have to bear the burden of 
restoring clean and sustainable water utilized by mining.
    The Concerned Citizens and Retired Miners Coalition have been 
concerned about the issue of subsidence by virtue of Resolution Copper 
Company's proposed block-cave mining method and its effect on the Oak 
Flat Campground, the Apache Leap escarpment, and the Town of Superior. 
Resolution Copper Company has finally admitted to ``minimal 
subsidence.'' However, they admittedly have chosen this method of 
mining as it is the least expensive and quickest method to approach 
this massive ore body. Experts have demonstrated that there will be 
irreparable destruction to the surface utilizing the block-cave method 
of mining. This is absolutely unacceptable.
    Resolution Copper Company has not yet determined the manner in 
which the tailings will be accumulated. Since there will be a 
considerable volume of tailings that will be created by this method of 
mining, The Concerned Citizens and Retired Miners Coalition is 
concerned about the contamination associated with this activity. We are 
also concerned regarding reclamation of these tailings upon mine 
closure.
    S. 3157 does mention the National Environmental Policy Act (NEPA) 
but the bill does not provide for even the most basic study and 
analysis of these issues and concerns prior to obtaining the land 
exchange. Furthermore, if the land exchange is granted, the National 
Environment Policy Act study and analysis process will be by-passed.
    The Concerned Citizens and Retired Miners Coalition believes that 
Resolution Copper Company should not be exempt from the required 
national permitting studies and analyses that have been required of the 
other mines in the area by virtue of a land exchange. No other mining 
corporation in this area has been allowed to bypass the Federal NEPA 
process.
    If the start-up timeframe proposed by Resolution Copper Company is 
correct, then there is plenty of time to conduct the full public review 
process. Additionally, if Resolution Copper Company is as 
``transparent'' as they profess, they should welcome this endeavor to 
put all the ``cards on the table'' and hear everyone's input.
    We also believe that details of the project and potential impacts 
(Mining Plan of Operation) should be made available to our residents 
and to the general public up front. We continually hear that Resolution 
Copper Company will make this plan available later--after the Oak Flat 
land exchange. We feel that if the land exchange is of utmost 
importance, Resolution Copper Company should accelerate production of 
their plan NOW--before the Oak Flat land exchange.

    PUBLIC RESPONSE OPPOSING THE FEDERAL LAND EXCHANGE OF OAK FLAT 
                   CAMPGROUND, AND SURROUNDING AREAS

    The Concerned Citizens and Retired Miners Coalition began gathering 
signatures opposing the Federal Land Exchange of Oak Flat Campground 
and surrounding areas in March of 2007 and obtained 90 hard-copy 
petitions from the public over a 4-month period. Of the 692 individuals 
who signed, 315 were Superior residents and 377 were concerned citizens 
residing outside of Superior, Arizona. Additionally, we initiated an 
on-line petition process and to date have gathered 3,943 signatures 
world-wide opposing the Oak Flat land exchange.
    On June 29, 2007, we hand delivered a cover letter, copies of the 
petitions and photographs of some of the spectacular scenery in this 
public land use area to Arizona Governor Janet Napolitano, the Superior 
Town Council, as well as each of Arizona's Senators and Representative 
to the United States Congress.
    We entertained dialogue with Superior Mayor Michael Hing, who 
indicated he wrote a letter to Congressman Grijalva in May of 2007 
expressing some concerns and issues with the land exchange and 
requesting delay of bill until such time that the Town of Superior and 
Resolution Copper Company worked out a number of issues that materially 
impact the Town and its citizens. On August 16, 2007, Mayor Hing sent a 
similar letter, requesting delay of the bill, to Governor Napolitano 
and each of Arizona's U.S. Congressmen. Subsequently, the Vice Mayor 
and one additional Councilwoman attended our meetings to hear our 
concerns.
    At a Special Town Council meeting held on August 23, 2007, the 
Council approved a letter written by Rosie Cordova, Superior Town 
Manager, to John Rickus, President of Resolution Copper Company, LLC, 
with a proposed Memorandum of Agreement regarding issues that 
materially impacted the Town and its citizens. Subsequently, on 
September 6, 2007, the Town Council approved a second letter be sent to 
the Governor and each of the Arizona's U.S. Congressmen--again 
requesting a delay of the bill and indicating that there were ``other 
serious reservations due to a multitude of environmental concerns that 
may adversely affect the land, water and air quality of our 
community''.
    The following Town Council meeting held on September 20, 2007, was 
dedicated to a Resolution Copper Company presentation of their 
September 10, 2007, letter to Mayor Michael Hing indicating their 
disappointment in the recent developments from the Town Council 
regarding our (sic Resolution Copper Company's) land exchange and 
letter of August 24, 2007, and proposed a revised Memorandum of 
Understanding. The room was filled with a multitude of Resolution 
Copper Company supporters who presented petitions in support of the 
Resolution Copper Company land exchange. Some of these petitions were 
being signed before, during and after the Town Council meeting that was 
held in a public building. I have never know our local officials to 
allow any signature gathering for petitions to occur in a government 
building--at a government meeting.
    During this meeting, public comments were provided by various 
individuals that were disparaging toward certain members of The 
Concerned Citizens and Retired Miners Coalition. Members of The 
Concerned Citizens and Retired Miners Coalition were not allowed to 
make any comments in support of our views and were heckled during their 
public comments. (Subsequent to this meeting, comments were directed to 
various employers asking that the employees opposing the land exchange 
be fired!) Signatures on petitions supporting Resolution Copper Company 
were obtained in the Town Council chambers prior to and during the 
meeting. Of the 386 individuals who signed, 163 were Superior residents 
with the remaining 223 individuals living outside the Town.
    The Town council voted unanimously to support the Resolution Copper 
Company Memorandum of Understanding and agreed to write a letter to the 
Arizona U.S. Congressional delegation in support of the land exchange. 
The Mayor indicated that the Council felt compelled to vote positively 
since so many people turned out at the meeting who supported the land 
exchange. This did not make any sense since The Concerned Citizens and 
Retired Miners had provided more than twice as many local signatures in 
opposition to the land exchange!
    Many changes have occurred over the past three (3) months--to 
include replacing Mr. John Rickus as President of Resolution Copper 
Company. The new President, Mr. David Salisbury, came on board and 
quickly led the Superior Town Council through the execution process 
(and corresponding photo opportunity) of the above-mentioned Memorandum 
of Understanding. Mr. Salisbury has also provided a great deal of 
information regarding the abundant stakeholder meetings held and the 
positive response that they have received regarding their Superior 
Project.
    In fact, at a Town Council meeting in April, 2008, Mr. Salisbury 
indicated that Governor Napolitano was now in full support of the 
Resolution Project. The Concerned Citizens and Retired Miners Coalition 
contacted Governor Napolitano's office subsequent to this council 
meeting and were told, NO, the Governor still has concerns regarding 
the project and that her position has not changed. Why would Resolution 
Copper Company misstate the Governor's position?
    April 30, 2008, Resolution Copper Company included several 
signatures from Arizona's pool of local legislators in a sign-on 
letter. Interestingly enough, 14 of the legislators who originally 
signed on with Resolution Copper Company formally rescinded their sign-
on on May 20, 2008, stating they did not have full information on the 
proposal at that time. This is again representative of RCC's strong-arm 
tactics in obtaining support without providing full disclosure. We are 
proud to know that these 14 researched RCC's position, obtained facts 
regarding the proposed land exchange and had the integrity to formally 
rescind their sign-on. We hope you do the same.
    The Concerned Citizens and Retired Miners Coalition attendees find 
the RCC meetings to contain more ``smoke and mirrors'' than 
transparency. Any attempt to ask specific questions regarding their 
plan of operation, environmental impacts, other studies and the like 
are met with clear and concise statements and data provided by firms 
hired and paid by Resolution Copper Company. A frequent answer to 
questions is that RCC will provide the information, details, copies and 
the like after the land exchange. That answer is unacceptable.
    Resolution Copper Company hangs the promise of jobs over local 
residents and government officials heads. Many individuals and 
officials have bought into that theory. The Concerned Citizens and 
Retired Miners Coalition does not agree that our legislators, local 
officials or townspeople should be so anxious to support a land 
exchange because of a promise that may never materialize. We strongly 
urge everyone to ask difficult questions and expect that the process of 
the American people be respected. We ask that you do not act so 
cavalierly regarding some of our most important resources.

     THREAT TO THE TOWN OF SUPERIOR'S ECONOMIC DIVERSIFICATION AND 
                             SUSTAINABILITY

    Many members of our Coalition have lived through the boom and bust 
cycle of mining. After closure of the Magma/BHP mine in the 1990s, many 
people fled the community in search of jobs, medical treatment 
facilities and amenities that were not available in Superior. Voters 
taxed the political body to create a more diversified and sustainable 
economic basis for its residents. The Town received grants to develop 
an Industrial Park, a low-income housing subdivision, a new swimming 
pool, second fire station, airport, rest stop and numerous parks and 
trails. These projects were initiated to create jobs for our local 
residents, to increase state-shared revenue and local taxes and to 
encourage eco-tourism.
    The Concerned Citizens and Miners Coalition believes that in order 
to sustain growth and development, we cannot rely on any one industry 
to support us. Mining has an allure and historical ties in our 
community. However, just as in the past, mining has a short life. We 
cannot base our future on one single industry or employer.
    While Resolution Copper Company has promised great hope for another 
``boom,'' they do not willingly embrace annexation into our town 
limits, they have purposely depreciated their land values in 
anticipation of the land exchange and they have strong-armed our 
government officials and management into accepting less than adequate 
compensation for future use of the Town's services and support.

                                SUMMARY

    Resolution Copper Company has divided this community by demanding 
that the Town Council speak for the residents of Superior in unwavering 
support of a land exchange that is not necessary in order for 
Resolution Copper Company to mine. Behind the scenes, their 
representatives have attempted to force the firing of individuals 
opposing the Land Exchange. Those individuals who question Resolution 
Copper Company in any fashion are deemed to be ``anti-mine.'' 
Businesses deemed ``anti-mine'' are not supported by Resolution Copper 
Company, their employees or agents--in fact RCC employees are urged to 
boycott! These strong-arm tactics should not be allowed to pervade a 
community already distraught from previous ``boom and bust'' mining 
cycles.
    S. 3157 does not represent a land exchange that is in the broader 
public interest. It is clear to The Concerned Citizens and Retired 
Miners Coalition that Presidents Eisenhower and Nixon believed that 
they were protecting Oak Flat from big business interests in acquiring 
public lands for development, mining and transportation. Oak Flat has 
been important enough to protect from mining and other elements for 
over 50 years, and it should not be so easily conveyed to a foreign-
owned mining interest. This land exchange sets a terrible precedent.
    The Concerned Citizens and Retired Miners Coalition strongly urges 
the Public Lands and Forests Subcommittee of the Senate Energy and 
Natural Resources Committee to ensure that the concerns of all public 
interests are addressed prior to consideration of any Federal land 
exchange. We believe you should protect these public lands for the 
public's future use and preserve the unique opportunities for 
Arizonans--and especially Superiorites--that the Oak Flat area 
provides.
    For these and many other reasons, we oppose S. 3157, the Southeast 
Arizona Land Exchange and Conservation Act of 2008 and feel that it 
should be rejected.
    Thank you for your time and consideration.
                                 ______
                                 
Statement of Benny R. Wampler, Acting Director, Virginia Department of 
          Mines, Minerals and Energy, Richmond, VA, on S. 2779

    My name is Benny Wampler and I serve as Acting Director of the 
Virginia Department of Mines, Minerals and Energy (DMME). I appreciate 
the opportunity to submit this statement for the record with respect to 
the legislative hearing on S. 2779, a bill to amend the Surface Mining 
Control and Reclamation Act of 1977 (SMCRA) to clarify that uncertified 
States and Indian tribes have the authority to use certain payments for 
certain noncoal and acid mine drainage reclamation projects.
    Virginia fully supports the statements submitted by The Interstate 
Mining Compact Commission (IMCC) and the National Association of 
Abandoned Mine Land Programs (NAAMLP), organizations of which Virginia 
is a member, to the Committee at the July 9, 2008, hearing. We strongly 
urge Congress to clarify the current misinterpretation for the acid 
mine drainage (AMD) set aside program. Section 402(g)(6) has, since 
1990, allowed a state or tribe to set aside a portion of its AML grant 
in a special AMD abatement account to address this pervasive problem. 
Virginia recently celebrated the completion of a $3.4 million AMD 
remediation project, partially funded with AML dollars, to treat two 
impaired streams in the Powell River watershed. The Powell River is one 
of the most ecologically diverse streams in the nation and is home to 
29 species of rare mussels and 19 species of rare fish.
    OSM's recent policy (and now regulatory) determination is denying 
the states the option to set aside moneys from that portion of its 
grant funding that comes from ``prior balance replacement funds'' each 
year to mitigate the effects of AMD on waters within their borders. AMD 
has ravaged many streams throughout the country, but especially in 
Appalachia. Given their long-term nature, these problems are 
technologically challenging to address and, more importantly, are very 
expensive. The states need the ability to set aside as much funding as 
possible to deal with these problems over the long term.
    We therefore urge the Committee to amend S. 2779 to correct the 
current policy interpretation by Interior and allow the use of 
unappropriated state and tribal share balances (``prior balance 
replacement funds'') for the AMD set aside, similar to the use of these 
balances for noncoal work. Suggested amendatory language is attached to 
our statement.
    Thank you for the opportunity to submit this statement on S.2779. 
We welcome the opportunity to work with you to complete the legislative 
process and see this bill, as amended, become law.
  Suggested Amendment to S. 2779 to include the AMD set-aside account 
                      (Amendments are in italics)

                                 A BILL

          To amend the Surface Mining Control and Reclamation Act of 
        1977 to clarify that uncertified States and Indian tribes have 
        the authority to use certain payments for certain noncoal and 
        acid mine drainage reclamation projects.
          Be it enacted by the Senate and House of Representatives of 
        the United States of America in Congress assembled,

                  SECTION 1. ABANDONED MINE RECLAMATION.

                          (a) Limitation on Funds.--Section 409(b) of 
                        the Surface Mining Control and Reclamation Act 
                        of 1977 (30 U.S.C. 1239(b)) is amended by 
                        inserting ``or section 411(h)(1)'' after 
                        ``section 402(g)''. Section 402(g)(6)(A) of the 
                        Surface Mining Control and Reclamation Act of 
                        1977 (30 U.S.C. 1232(g)(6)(A)) is amended by 
                        inserting ``or section 411(h)(1)'' after 
                        ``paragraphs (1) and (5)''.
                          (b) Use of Funds.--Section 411(h)(1)(D)(ii) 
                        of the Surface Mining Control and Reclamation 
                        Act of 1977 (30 U.S.C. 1240a(h)(1)(D)(ii)) is 
                        amended by inserting ``section 402(g)(6)'' 
                        before ``section 403'' and inserting ``section 
                        409'' after ``section 403''.
                                 ______
                                 
 Statement of Nancy Freeman, Executive Director, Groundwater Awareness 
                           League, on S. 3157
    There are several serious considerations why the land exchange 
proposed in SB 3157 is not a good idea for the public or the Native 
Americans in the region.

          1) U.S. mining companies always go through the National 
        Environment Policy Assessment (NEPA) to be able to mine on 
        public lands. Why should Resolution with the legacy of its 
        parent corporations' horrific environmental records be an 
        exception? They want the land to become private--with no 
        justification at all.
          2) The nearby Apache Leap, a site of history of Native 
        American heroes, should be protected and not be disturbed. The 
        site should be made a national monument.
          3) Oak Flat campground was set aside for protection by 
        President Eisenhower in 1955. With the population growth and 
        need for urban recreation, there is no reason to change that 
        status--which is still in force.
          4) Tailings Disposal: There is no place to put the waste 
        tailings without spoiling the landscape for several miles, 
        which will amount to a pile equivalent to a 20 story-building 
        spread over 2,389 acres.
          5) Cavity size: The underground cavity is estimated to be a 
        mile in diameter and 3,000 plus feet high. Is there an 
        insurance company that will provide insurance there will be no 
        collapses or air blasts?
          6) Resolution Copper projects a use of 40,000 acre feet = 13 
        billion gallons of water per year. The Superior area does not 
        have this amount of groundwater; the old small-scale mining 
        company was piping water from 15 miles away by Florence. They 
        can contract for up to 36,000 af per year of CAP excess water--
        WHEN and IF it is available.
          7) The proposed mine site is in an incredibly beautiful areas 
        of Arizona, with oaks, riparian areas and a stream that 
        provides a home of hundreds of sycamores. It is claimed that 
        the private lands for exchange have endangered species. 
        However, I have inquired of the Nature Conservancy and Senator 
        Kyl for a list of the endangered species on the exchange lands. 
        I have not received a reply from either party.

    For a comprehensive analysis of the situation, see http://
www.mining-law-reform.info/Congressional Report.htm, which was sent to 
the Energy and Natural Resource Committee and Public Lands and Forests 
subcommittee on July 7, 2008.
    Why am I concerned? I live in mining territory and know what it 
does to the territory. I have spent over 1,000 hours collecting data 
and attending hearings, so that a local copper mine will stop its 
pollution to the water that is delivered in my own home. A picture is 
worth a thousand words. A bird's eye view is available on Google Earth 
maps.
                     elaboration on points 1 and 2
1) Necessity of NEPA process
    For some 25 years, U.S. companies have been mining on public lands 
with public process and environmental oversight. Records show that even 
with the NEPA process, there are serious contamination to groundwater, 
soil and air. (www.mining-law-reform.info/EIS REPORT.pdf) Why should 
Resolution Copper, a subsidiary of Rio Tinto, whose Kennecott 
operations have created the biggest groundwater toxic plume in the U.S. 
at Salt Lake region of Utah, be granted the ability to mine without 
public process and oversight? This week a report came out that a Rio 
Tinto/Kennecott operation in Nevada is accused of inaccurate mercury 
reporting: www.kiplinger.com/print.php?storyid=479706
    In 1997, a massive blowout of the sulfuric acid leach pads into 
Pinto Creek's adjacent riparian watershed occurred at the BHP copper 
mine just a few miles east of Resolution Copper's proposed mining site. 
Pinto Creek empties into the Roosevelt Lake, which provides a potable 
drinking water supply. See photo below:*
---------------------------------------------------------------------------
    * Photos have been retained in subcommittee files.
---------------------------------------------------------------------------
    Further, since this area is owned the other parent companies, BHP, 
Resolution Copper officials have proposed that they pipe the tailings 
waste up to this region, which is already a WQARF (Water Quality 
Assurance Revolving Fund) site. For further information, see www.g-a-
l.info/Remedial Action.htm
2) Tailings Disposal
    There is no place to put the waste tailings without spoiling the 
landscape for several miles. Augusta projects that they will be 
processing 110,000 tons of ore per day. Since the ore only has less 
than 3% copper and moly combined, the daily dump will be some 100,000 
tons of waste. When put in a pile 200 ft. high (20-story building), it 
will require 2,389 acres for disposal over the life of the mine. The 
tailings impoundment in my home town of Green Valley covers 3,600 acres 
and grows higher by 8 to 10 feet per year.
                                 ______
                                 
Attachment.--Environmental Impact of Proposed Mining Project at Apache 
                 Leap and Oak Flats, Superior, Arizona

Note: This report is available on-line at www.mining-law-reform.info/
Congressional%20Report.htm

    A foreign company Resolution Copper, a joint venture corporation 
formed by a British and Australian Company, is attempting to get an Act 
of Congress to undo the protection that President Eisenhower gave to 
certain public lands in Public Land Order 1229 in 1955, including Oak 
Flat in Tonto National Forest in Arizona. Oak Flat is just as unique 
today as it was then. Further the mining operations would more than 
likely impact a traditional Indian historical site, Apache Leap.
    Although this region is not on designated Native American 
reservation land, it has historical, traditional significance for the 
Native Americans who have lived in the region for generations. It is a 
historical site of Apache heroes, rather like Custer's ``last stand''--
which has been made a National Monument.
    The proposed exchange lands do not in any way equal the sacrifice 
of Oak Flat, Apache Leap, and Queen Creek, which abound with unique 
flora and fauna. The proposed sites are principally over-grazed 
abandoned ranches that offer no uniqueness of bird, animal or plant. 
For details, see Attachment One: Land Exchange Properties.
    The exchange will limit the environmental oversight and the public 
process that proceeds with mining projects on public lands. One can not 
help but conjecture the motives of a mining company that is trying to 
convert public land into private land--when in fact public land is 
readily available for mining.

                Profits Made From Mining on Public Lands
top mining companies on blm land in the u.s.--ranked by acres affected 

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Tribal Coalition: The tribes of the region of formed a coalition to 
preserve the sanctity of the region. They have sent a letter of 
President Bush requesting that he continue to protect the region, which 
has been protected by former President Eisenhower. As you can ascertain 
by the above map, the mining site is to occur on the backside of the 
formation. See Attachment Two: Tribal Coalition Letter to President 
Bush
    An online petition has been posted this week so that others can 
express their support the efforts of the Tribal Coalition to save their 
traditional sacred site of Apache Leap. People across the U.S. are 
rallying to the cause. To date, there are 3941 signatures See on-line 
petition: http://www.petitiononline.com/mod_perl/signed.cgi?coop2468
    Impacts of mining: There are certain considerations that a person 
not familiar with mining practices would need to know before making any 
decisions concerning facilitating mining operations on or near these 
two sites.

          1) Mining is not a sustainable operation. The impact on the 
        area where the waste is dumped is more than considerable. Using 
        the figures of Resolution Copper, they will mill some one 
        billion tons, which have only some 3% copper. The other 97% has 
        to be dumped somewhere. If the tailings are stacked, they will 
        cover 2,389 acres at a height of a 20 story building. For 
        details, see Attachment Three: Volume of Tailings
          2) Water impact. This region has two streams that flow 
        seasonally, but with some permanent pools--a rarity in Arizona. 
        To construct any project that could drawdown the water table--
        thus emptying the creeks and streamlets--would be devastating 
        to the birds and other wildlife, as well as the trees and other 
        plant life. Even with the National Environmental Policy 
        requirements and oversight, it has been shown by recent 
        research that the Environmental Impact Statements 
        underestimated the impact on water in 76% of the cases studied. 
        For details, see Attachment Four: Predicting Water Quality 
        Problems at Hard Rock Mines
          Another issue is that Resolution Copper will need to pump 
        nearly two billion gallons of toxic water out of the old Magma 
        Mine ``shaft 9'' before they start new operations. They planned 
        to discharge the water into a stream that flows behind Boyce 
        Thompson Arboretum State Park. After objections over sulfate 
        levels by the Arboretum management, Resolution now plans to 
        pipe the toxic water to Queen Creek, dilute it with water from 
        the CAP canal, and have the area farmers use it. At this time, 
        the residents of that region do not want the contaminated water 
        to get into their groundwater table. Department of 
        Environmental Quality as notified and is requiring Resolution 
        Copper to obtain a discharge permit.
          3) Probability of subsidence: The company asserts that there 
        will be no subsidence with a tunnels running through terrain 
        4,000 to 7,000 feet deep and sq feet long and wide. 
        Nevertheless, they would not give a guarantee to Access Fund of 
        no impact to the Oak Flat climbing area and they plan to close 
        the region for recreational use. The bottom line on subsidence: 
        It's totally non-predictable.
          Madan Singh, Director of the Arizona Department of Mines and 
        Mineral Resources reports, ``Subsidence is an inevitable 
        consequence of underground mining--it may be small and 
        localized or extend over large areas, it may be immediate or 
        delayed for many years'' (SME, 1992). In Mining publication, 
        1997, Fejes calls subsidence ``a natural result of underground 
        mining,'' and goes on to state that, ``When a void is created 
        nature will eventually seek the most stable geologic 
        configuration, which is a collapse of the void and 
        consolidation of the overburden material.'' Central to all 
        these opinions is the underlying fact that subsidence will 
        occur and will result in impacts to the overlying strata. There 
        is no way to predict the rifts and faults in a cliff-type area 
        such as Oak Flat and Apache Leap. For details, see Attachment 
        Five: Subsidence and Hydrological Environmental Impacts
          3) Environmental impact of processing. There are two methods 
        for rendering the 3% copper (predicted grade ore at Resolution 
        mine) from the general ore:

          1) Electro-winning is a method of dissolving copper ore with 
        sulfuric acid, then electroplating it to 99% pure copper. The 
        positive aspect is that it creates less waste than the second 
        method; however, only certain better grades of oxide ores can 
        be processed with Electro-winning. The drawback is the sulfuric 
        acid is stored in open ponds where any animal or bird 
        unfamiliar with the territory would be dissolved instantly.
          Further, although these ponds are lined, human and machine 
        errors do occur. In 2002 at the ASARCO Silver Bell operations 
        outside of Tucson, 242,000 gallons of sulfuric acid were 
        released to the environment when a pond was inadvertently 
        overfilled. Further, the caustic nature of sulfuric acid makes 
        the pipes and equipment subject to breaks and leaks. For 
        details, see Attachment Six: Environmental Impact of Sulfuric 
        Acid Leaching
          2) Flotation is the method used for lower grade, or sulfide 
        ore. Toxic chemicals are used in the Flotation Process to 
        separate the copper and molybdenum out of the milled powder. 
        This Flotation process is the major extraction method at Duval/
        Sierrita mine because of the poor quality of the copper at this 
        site. Some chemicals produce bubbles that that the copper 
        adheres to and the ``bad stuff'' falls to the bottom. At this 
        point, the unwanted minerals, salts and processing chemical 
        residues are piped over to a tailing impoundment.
          The concentrate is then smelted in order to separate the 
        various metals and purify them. The smelting process also 
        potentially introduces contaminants into the environment. It is 
        noteworthy that at the historical mining sites in Arizona, the 
        smelter was placed near the Latin town. For details, see 
        Attachment Seven: Environmental Impact of Flotation
          There is particular concern because Resolution Copper was 
        formed by BHP Billiton and Rio Tinto Mining Companies. Both of 
        these companies vie as the worst polluter of the environment--
        world wide. For details, see Attachment Eight: Rio Tinto 
        Environmental Record For details, see Attachment Nine: BHP 
        Billiton Environmental Record
          Further, Rio Tinto is the parent company of Kennecott, a 
        company that has created the largest toxic plume in the U. S. 
        For details, see Attachment Ten: Kennecott Clean-up.
    In closing, I would like to share with you an open letter from a 
resident of Superior and a former miner at the Magma mine. See 
Attachment Eleven: Open Letter

    [Additional documents and attachments have been retained in 
subcommittee files.]

                                    

      

</pre></body></html>
